<html>
<title> - NOMINATIONS TO THE FEDERAL AVIATION ADMINISTRATION AND THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 110-1150]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1150
 
                       NOMINATIONS TO THE FEDERAL
                    AVIATION ADMINISTRATION AND THE
                   U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                  U.S. GOVERNMENT PRINTING OFFICE
75-202                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION


                      ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 7, 2008.................................     1
Statement of Senator Boxer.......................................     4
    Letter, dated January 22, 2008, to Hon. Mary Peters, 
      Secretary, U.S. Department of Transportation...............     4
    Article, dated January 22, 2008, from The San Diego Union-
      Tribune entitled ``FAA Faults tower for Lindbergh 
      incursion''................................................    28
Statement of Senator Inouye......................................     1
Statement of Senator Klobuchar...................................    38
Statement of Senator Lautenberg..................................     7
Statement of Senator McCaskill...................................    40
Statement of Senator Rockefeller.................................    24
Statement of Senator Smith.......................................     5
Statement of Senator Snowe.......................................    42
    Prepared statement...........................................    43
Statement of Senator Stevens.....................................     3
    Prepared statement of Hon. Kay Bailey Hutchison, U.S. Senator 
      from Texas.................................................     9
Statement of Senator Thune.......................................    23
Statement of Senator Wicker......................................     8

                               Witnesses

Gros, Simon Charles, Nominee to be Assistant Secretary for 
  Governmental Affairs, U.S. Department of Transportation........    17
    Prepared statement...........................................    18
    Biographical information.....................................    19
LoBiondo, Hon. Frank A., U.S. Representative from New Jersey.....     1
Sturgell, Hon. Robert A., Nominee to be Administrator, Federal 
  Aviation Administration, U.S. Department of Transportation.....     9
    Prepared statement...........................................    11
    Biographical information.....................................    12

                                Appendix

Letter, dated February 5, 2008, to Hon. Daniel Inouye, from Bill 
  Connors, Executive Director and Chief Operating Officer, 
  National Business Travel Association...........................    52
Letter, dated February 6, 2008, to Hon. Daniel K. Inouye and Hon. 
  Ted Stevens, from James C. May, President and CEO, Air 
  Transport Association of America, Inc..........................    51
Rockefeller IV, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................    51
Response to written questions submitted to Hon. Robert A. 
  Sturgell by:
    Hon. Barbara Boxer...........................................    67
    Hon. Maria Cantwell..........................................    69
    Hon. Thomas R. Carper........................................    78
    Hon. Byron L. Dorgan.........................................    64
    Hon. Kay Bailey Hutchison....................................    81
    Hon. Daniel K. Inouye........................................    52
    Hon. John F. Kerry...........................................    62
    Hon. Frank R. Lautenberg.....................................    71


                       NOMINATIONS TO THE FEDERAL



                    AVIATION ADMINISTRATION AND THE



                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I am pleased this morning to introduce the 
Honorable Frank LoBiondo, the United States Representative from 
the State of New Jersey. Congressman?

             STATEMENT OF HON. FRANK A. LoBIONDO, 
              U.S. REPRESENTATIVE FROM NEW JERSEY

    Representative LoBiondo. Thank you. Thank you, Mr. 
Chairman, and I appreciate very much the opportunity to testify 
before you this morning.
    I want to thank you for considering Simon Gros for the 
appointment. I wanted to tell you that I have known Simon's mom 
and dad probably for more than 25 years, and I have known Simon 
for more than 10 years. I am very proud to say that he is a 
native of south Jersey. I represent New Jersey's Second 
Congressional District. We cover about a third of the state 
geographically.
    Simon was born and raised in Brigantine, New Jersey. He 
first came to me when he was at the University of Maryland and 
asked to be an intern. It was pretty clear that Simon was a 
pretty special individual at that time. A lot of interns, I am 
sure you have seen over the years, come and go. Simon 
demonstrated a great deal of energy and enthusiasm coming in, 
looking for more and extra work all the time.
    And after he finished school, I was rather surprised, but 
he came and asked for a full-time position in the office. We 
brought him on as Staff Assistant, with him understanding this 
was a pretty low-level entry. But he worked his way up, 
continued to show that same energy and enthusiasm all through 
his time with me, worked into a number of various positions in 
the office.
    Determined that he was going to improve himself, he then 
enrolled in law school as he continued to work for me. But at a 
certain point, he came to me and said that he wanted to move 
into the private sector. I told him I understood and very 
reluctantly accepted him leaving the office because he is one 
of those rare individuals you can count on to do things the 
right way the first time.
    Simon continued to work on his educational process, 
continued to work hard in the private sector, and he always had 
an interest in transportation issues and found himself with the 
Department of Transportation. He quickly moved to the position 
of Deputy Assistant Secretary for Governmental Affairs. And in 
a short time at the DOT, Simon has demonstrated what I knew all 
along, that is, highest levels of professionalism and 
commitment to public service.
    He has continued to serve with distinction. He has worked 
closely with folks from both sides of the aisle, very 
accurately portraying the issues as they are presented. I have 
found him to be very direct, something that in our business we 
value a great deal.
    So it is with a great deal of enthusiasm that I come before 
you today in recommending Simon Gros for the position and would 
hope that the Committee favorably considers it. And I thank you 
very much. I would be happy to answer any questions.
    The Chairman. I thank you very much, Congressman. I am 
certain your friend Simon is very pleased.
    May I now suggest Mr. Sturgell and Mr. Gros join us at the 
table?
    Congressman I thank you for your presence here.
    Before we proceed, Mr. Sturgell, would you care to 
introduce your family? I am certain they are here.
    Mr. Sturgell. I would, Mr. Chairman. Today, I have with me 
some very special people--my mother, Barbara; my wife, Lynn; my 
sister, Sharon; and a good friend of ours, Kim Lee, an American 
Airlines pilot. I appreciate that.
    The Chairman. Mr. Gros?
    Mr. Gros. Thank you, Mr. Chairman. I would like to 
introduce my wife, Natalie; my mother, Barbara; my grandmother, 
Fran; my father, Roger; my mother-in-law, Louise; and my 
stepfather-in-law, Sandy Gellis, in the back there.
    Thank you.
    The Chairman. You have a brigade here.
    The Federal Aviation Administration requires strong 
leadership to improve its safety record and to address several 
significant challenges currently before the agency. Congestion 
and flight delays have grown to record levels over the past 
year, and I think all of us agree that the FAA must take 
immediate action to resolve these problems before the system 
becomes overwhelmed and we find ourselves in gridlock.
    Mr. Sturgell, these are just some of the challenges you 
will face, if confirmed. The FAA must begin modernizing the air 
traffic control system in earnest. Although some modernization 
efforts are underway, the agency needs to make substantial 
progress over the next few years to ensure our air traffic has 
the capacity to meet rapidly growing demand. In addition, the 
FAA must continue its essential work on improving the safety of 
air travel.
    The relationship you have with your workforce is also 
critical. Effective air traffic control is central to the FAA's 
success, and I am concerned about morale problems among some of 
the employees. So I would very much like to hear your views on 
this matter and to hear about any steps you intend to take that 
would promote a positive and fulfilling workplace environment 
at the FAA.
    Mr. Sturgell, I must stress to you the importance of having 
an FAA Administrator who is willing to communicate directly 
with Congress and who will work aggressively to move the agency 
forward in this critical period. Time is short. Unfortunately, 
funding is tight, and the next FAA Administrator must oversee 
the modernization of the National Airspace System.
    This Committee and the Congress expect you to work closely 
with us in addressing the immediate and the long-term issues 
facing the agency and to be an effective advocate for the best 
path forward with both the White House and the Legislative 
branch.
    With respect to the Office of Governmental Affairs, Mr. 
Gros, if confirmed, you will be responsible for representing 
the Department of Transportation in its dealings with Congress 
and working closely with Members and staff on legislative 
efforts. This is an essential mission.
    In addition to reauthorizing the FAA, there are a number of 
important transportation issues that the DOT and Congress must 
address in the coming year. To name a few, we must enact 
Amtrak, rail safety legislation, strengthen truck safety, and 
fully implement the important pipeline safety legislation 
recently enacted by Congress. A good working relationship 
between Congress and DOT is vital if we are going to find 
solutions to these challenges and improve the quality of our 
Nation's transportation systems.
    And so, on behalf of the Committee, I thank both of you for 
appearing before us today and thank both of you for your 
commitment to public service. And should you be confirmed, I 
look forward to working with each of you.
    Before proceeding, the Vice Chairman of the Committee, 
Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Senator. Thank you, 
Senator Boxer. I am sorry to be a little late.
    I think these are two very important positions at the 
Department of Transportation, and I look forward to the hearing 
today. Above all, aviation is more important to our state than 
any state in the Union. It is literally the lifeblood of 
Alaska. Seventy percent of our cities in our state can be 
reached only by air year round. They might have a boat from 
time to time, but year-round transportation is air 
transportation.
    It is important that the FAA maintain knowledge of Alaska, 
and Mr. Sturgell, I am a little concerned about the retention 
of our people in the FAA in Alaska. The retention seems to be a 
very difficult thing. Attrition is very high. And because of 
our unique terrain and this enormous aviation community, it is 
essential that we have people up there who understand the state 
and understand the weather in the state.
    So I look forward to having the chance to discuss this with 
you, and I want to work with the Chairman and both of you, when 
you are confirmed, and try to see if we can do our best to 
improve the aviation system of our country.
    Thank you very much.
    The Chairman. I thank you very much.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman, for holding this 
important hearing. Welcome, sir.
    As a frequent flyer between California and Washington, as 
in well more than a million miles since I came to Congress, I 
know firsthand the challenges the flying public faces when they 
travel. The Department of Transportation confirmed on Tuesday 
what airline passengers have known all year, that 2007 was the 
second-worst year on record for airline delays.
    Mr. Chairman, I think it is important--I just want to get 
your attention for a second--that the DOT confirmed on Tuesday, 
that 2007 was the second-worst year on record for airline 
delays. I just think it is something that we really need to 
talk to you about what your ideas might be to change it. Thank 
you, Mr. Chairman.
    I think Americans are frustrated, and they want to know 
what the FAA, the airlines, and the Congress are going to do to 
alleviate the delays and keep our skies safe. Senator Snowe and 
I wrote the Airline Passenger Bill of Rights Act of 2007, which 
would require airlines to give passengers adequate food, water, 
and facilities when planes are delayed on the tarmac and also a 
timetable to allow passengers to deplane if they choose to do 
so and if the pilot deems it safe.
    As you know, with the help of this Committee, we were able 
to include this language in the Senate FAA reauthorization 
bill, and I hope to work to strengthen that language when it 
comes to the floor.
    I thank the FAA for recognizing the need for our Passenger 
Bill of Rights by issuing a proposed rulemaking. But I do have 
some concerns. I am told that FAA is considering preempting 
state laws, such as New York's or other efforts currently under 
consideration in several states. In addition, DOT rules should 
set minimum standards for airline contingency plans for food, 
water, and deplaning. And we have sent a letter to you, to the 
FAA--Senator Snowe and I--very recently, and I would like to 
ask unanimous consent to place that in the record.
    The Chairman. Without objection.
    [The information referred to follows:]

                                       United States Senate
                                   Washington, DC, January 22, 2008
Hon. Mary Peters,
Secretary,
Department of Transportation,
Washington, DC.

Dear Secretary Peters:

    We are pleased that the Department of Transportation (DOT) has 
turned its attention toward addressing airline delays and service, but 
we have serious concerns about several of the rules proposed by your 
Department in Docket No. DOT-OST-2007-0022.
    As the DOT moves forward with this rulemaking, we urge you to set 
minimum standards for the contingency plans and ask the DOT to both 
review and approve the plans proposed by the airlines. These minimum 
standards should not only include necessary food and water, but also 
passengers' right to safely deplane if they have spent more than 3 
hours on the tarmac either when arriving at, departing from, or being 
diverted to an airport.
    Allowing airlines to design their contingency plans without the 
guidance of minimum standards or even a review by the DOT renders this 
rule completely ineffective. As noted by your own Inspector General, 
many of the airlines previously signed a voluntary Airline Customer 
Service Commitment in 1999 and incorporated many of those requirements 
in their contracts of carriage. Despite those efforts, little has 
changed and it is clear that this system of voluntary commitments is 
not enough to prevent the severe delays and unconscionable conditions 
that too many air travelers have recently endured.
    We applaud the efforts of states to protect the healthy and safety 
of passengers who travel through their airports. It is important that 
any rule established by the DOT should not preempt state efforts such 
as the law recently passed in New York, or those measures currently 
under consideration in California, Rhode Island, Washington and other 
states.
    Lastly, we support the proposals to improve communication between 
the airlines and their customers, and require airlines to track and 
provide consumers with more information about the past performance of 
flights and their carriers. Better information will help consumers make 
an educated choice when purchasing their ticket, and provides airlines 
an incentive to compete on the quality of their service as well as 
price.
    We look forward to working with you and other officers in the 
Department of Transportation on these important issues.
            Sincerely,
                                             Barbara Boxer,
                                                      U.S. Senator.
                                             Olympia Snowe,
                                                      U.S. Senator.

    Senator Boxer. Thank you. So that is issue number one.
    I am very concerned about the fact that the air traffic 
controllers in my state are telling me that FAA simply doesn't 
grasp the full implications of the increasing number of air 
traffic controller retirements across the Nation. Controllers 
tell me that a wave of retirements, dispute over pay, 
controller fatigue, excessive overtime hours, training of new 
hires, and unsuitable working conditions in the towers are 
creating a safety hazard on the ground and in the air for the 
passengers.
    This is very serious, I think, to all of us, and we look 
forward to hearing your response with your plans to deal with 
this. First of all, do you agree with this assessment? And 
second of all, what would you do to help alleviate this 
problem?
    So I do look forward to speaking with you about these and 
other matters. And thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. I thank you, Mr. Chairman and Senator 
Stevens, for this important hearing.
    It is quite obvious that our Nation's aviation system is in 
serious need of an overhaul. The economic impact of delays in 
the aviation industry have a negative impact on our economy. I 
commend the FAA for their safety record. Flying has never been 
safer. But safety aside, flying in this country is reaching 
appalling levels of difficulty.
    Data released this week, as Senator Boxer just noted, 2007 
was one of the worst years for commercial flights in this 
country. A near record number of flights were delayed. More 
bags were lost, and there were more customer complaints than in 
2006 and the most since the year 2000. That data alone is all 
we need to move expeditiously on the FAA reauthorization bill 
stuck in the Senate.
    The FAA legislation passed by this Committee does include a 
$25 user fee. I still have difficulty with it, and it is 
bogging down that bill. I do not agree with the premise that we 
have to create a new bureaucratic system of fee collection to 
pay for the improvements to the air traffic control system. I 
see no reason why we cannot use the current payment system of 
fuel and excise taxes to fund the FAA.
    The money needed to pay for the NextGen system can be 
collected through the current financing structure much more 
simply, much less expensively. I am looking forward to hearing 
Mr. Sturgell's explanation for why we cannot use the current 
system to pay for NextGen Air Transportation System.
    The implementation of the NextGen system is an enormous 
task. I am not convinced the FAA has the capability to 
implement a system that requires the technological change 
currently proposed. The FAA does not have the best track record 
when it comes to implementing new technological systems.
    I am also concerned about the FAA's reliance on technology 
for the NextGen system that is not available and may not be 
available when needed. I have yet to hear when key system 
technological capabilities will be delivered, how much capacity 
will be added to the system, and how much of the old system 
will be retained as a backup.
    NextGen is not expected to become fully operational until 
at least 10 years from now. I am interested in learning what we 
can do to improve our Nation's airways between now and then. 
Steps must be taken to reduce congestion between now and then.
    I am concerned that when we discuss NextGen, no one talks 
about the need for more capacity on the ground. We could and 
should have the best radar system in the world. But without 
places to land and gates to receive those planes, we will still 
have those same problems on the ground as in the sky.
    Mr. Sturgell, I am interested in hearing your thoughts on 
improving capacity at our airports and whether there is 
anything we can be doing in concert with NextGen to expand the 
airports' capability. All of our major airports are in very 
urban areas with no growth. How do we work around this gridlock 
on the ground to improve gate areas and expand and build new 
runways?
    There are a number of challenges before you, sir, and I 
look forward to your testimony. Thank you.
    The Chairman. Thank you very much.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman. It is an 
important hearing, and transportation shapes life in America, 
in my view. It was aviation that enabled a coast-to-coast 
development that made us the great Nation that we are today. 
And if these nominees are confirmed, their whole responsibility 
is to shape our Nation's transportation future on the rails, 
the highways, and in the sky, and thusly, we have created a 
critical obligation to be as thorough as we can in the 
selection of these government leaders.
    I first want to apologize to Congressman LoBiondo for not 
having been here to welcome him. He has shown a commitment to 
constant improvement of our transportation infrastructure. We 
serve well together.
    And I know that he came to introduce Simon Gros, who is 
nominated to be Assistant Secretary for Governmental Affairs 
for DOT. I have worked with Mr. Gros since he has been with the 
Department of Transportation and noted his professionalism and 
diligence, and I believe the Committee should confirm his 
nomination.
    Mr. Sturgell, someone with broad aviation experience, has 
been nominated for the highest post at FAA. And while he is 
well qualified with knowledge of aviation and is being selected 
as the country's top aviation watchdog, questions are going to 
be raised about the decisions that Mr. Sturgell made and 
implemented at the FAA. These decisions seemed to have missed 
what FAA needs most--leadership and a new perspective on how to 
continue to improve safety, which has been terrific. But so has 
the volume of traffic expansion and it provides new problems, 
while providing reliability in our aviation system.
    As the FAA's Deputy Administrator for the past 5 years, Mr. 
Sturgell has helped design the policies that have proven 
misguided and put our aviation system in its current troubled 
state. Now, I want to be clear. I trust the men and women who 
do the work to keep our planes flying safely each day--our 
pilots, flight attendants, our mechanics, our ramp workers, our 
air traffic controllers, safety inspectors, and the other 
professionals who we rely upon each day to keep more than two 
million flyers, travelers safe.
    They are among the top transportation professionals in the 
world. But the Bush Administration policies have inhibited the 
ability of these hard-working professionals to do their best by 
failing to meet some of their basic needs. Our Nation's air 
traffic controllers are overworked and understaffed, and the 
FAA is refusing to negotiate in good faith to improve, or to at 
least discuss, their working conditions and their income.
    Sixty-hour work weeks are not uncommon in the retail 
business and the manufacturing industry. But that is far above 
the standard that should be in place for the aviation industry 
and can lead to fatigue, tired eyes in our skies. In addition, 
the FAA continues to allow dangerous and unnecessary safety 
risks on our runways, and that is confirmed in the GAO report 
we have with us.
    Working with the Government Accountability Office, we have 
obtained this report which shows that quick actions of pilots 
and controllers are sometimes the only things that prevent many 
catastrophic accidents from happening each year. I hope this 
Committee takes a hard look at this report since FAA has not.
    Further, the Bush Administration's failures have led to one 
of the worst years ever for flight delays, as was discussed by 
our colleague earlier. Only 73 percent of flights arrived on 
time last year.
    Last, the FAA is forcing hundreds of thousands of residents 
who live in the New Jersey and New York region to deal with 
more jet noise as it re-routes planes over our homes, schools, 
and communities. Aside from the decreased quality of life, we 
are already hearing about confusion over the new routes by 
pilots and controllers, which could lead to alarming 
consequences.
    Mr. Chairman, I regret to say that I do not believe that 
President Bush's choice for FAA Administrator is the right 
choice. The results at FAA do not support this nomination, 
which is an opinion held by many Senators. It is not the way to 
bring our aviation system up to the levels of reliability and 
efficiency that we need. It is not good for the public 
interest. It is not good for our region. It is not the safest 
way to operate this vital part of our transportation network.
    Thank you, Mr. Chairman.
    The Chairman. I thank you very much, Senator.
    This morning, the Commerce Committee has the great 
privilege and honor of presenting a new member. He is the 
gentleman from Mississippi, the Honorable Roger Wicker. 
Senator.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, thank you, Mr. Chairman. And if I 
might take this opportunity to congratulate you on taking your 
15,000th vote on the floor of the U.S. Senate?
    The Chairman. I am not that old.
    [Laughter.]
    Senator Wicker. There were distinguished Members of the 
Senate who told that for the truth yesterday, and the remarks 
were very generous and well deserved. And it is a pleasure to 
be here.
    I am told that this is a time for an opening statement. I 
have another Committee to attend, and I am learning the ropes 
around here. So if I might, let me just also apologize for 
being a few moments late. I was at the National Prayer 
Breakfast, and the bus just arrived back at Capitol Hill.
    I want to congratulate the two nominees and to say that I 
read their testimony with interest. I wish both of you well, 
and I will simply, by way of opening statement, express my hope 
that they will maintain an interest in the small communities of 
the United States that serve rural America.
    The FAA Contract Tower Program continues to be one of the 
most successful and cost-effective FAA-industry partnerships, 
as validated numerous times by the Department of Transportation 
Inspector General. There are seven FAA contract towers in my 
state of Mississippi alone, and the bottom line is that without 
this program, many of these smaller airports would not be 
benefiting from the important safety benefits that control 
towers provide the flying public.
    So I would hope that, if confirmed by the Senate, Mr. 
Chairman, these two witnesses will continue to maintain as a 
top priority the 249 smaller airports in America that benefit 
from this program.
    I thank you very much, Mr. Chairman.
    The Chairman. I thank you very much, Senator.
    And now, may I recognize the Vice Chairman?
    Senator Stevens. Mr. Chairman, I have been informed that 
Senator Hutchison has a conflict this morning. She is the 
ranking Republican on the Subcommittee for Aviation, and she 
wants to have me voice her support for these two nominations 
and hope that we will have a chance for early confirmation.
    She wants to submit a statement for the record, and I ask 
that that be reserved.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Chairman Inouye, Vice Chairman Stevens, thank you for scheduling 
the nomination hearing today. It is important we quickly provide a 
stable leadership environment at the FAA. I support both Mr. Sturgell 
and Mr. Gros' nomination and I look forward to working with them as we 
move forward on FAA Reauthorization and other transportation 
priorities.
    I am excited to start working with my good friend and colleague 
Sen. Rockefeller in my new capacity as Aviation Subcommittee Ranking 
Member. We have an important year and several challenges ahead of us, 
but it will be essential to have a strong leadership team in place at 
the FAA in order achieve our goals of an extension and finalized FAA 
Reauthorization bill.
    Mr. Sturgell is clearly qualified to be Administrator based on his 
vast aviation background and his institutional knowledge of the Agency. 
I believe it is paramount Congress provide the FAA with a strong and 
knowledgeable leader to oversee and motivate the more than 45,000 FAA 
employees. As he has shown through his time as Acting Administrator and 
Deputy Administrator, Mr. Sturgell has the skills to help improve our 
safety system and to work the Agency through a much needed 
modernization process.
    Again, thank you for moving forward with these nominations. I look 
forward to their timely confirmation.

    The Chairman. And now, I am pleased to call upon Mr. 
Sturgell.

      STATEMENT OF HON. ROBERT A. STURGELL, NOMINEE TO BE 
ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION, U.S. DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Sturgell. Thank you, Mr. Chairman, for the privilege of 
addressing you, Senator Stevens, and the Members of this 
Committee as the nominee for the position of Administrator for 
the Federal Aviation Administration. Let me just say from the 
outset that I reaffirm the pledge I made when I took my oath of 
office to serve my country, to uphold the principles of the 
Constitution, and to do my duty to the best of my ability. It 
is a commitment I renew each and every day at the FAA.
    As the steward of the largest, most efficient, and most 
complex airspace system in the world, I will work tirelessly to 
improve and enhance safety and efficiency in order to serve the 
millions of people who place their trust in us and who depend 
on the system for their livelihoods. Above all, they demand 
safety, and that is what we deliver.
    I am proud to have helped advance that safety record 
throughout my professional career. The United States leads the 
world in setting the highest standards of safety for the 
aviation industry, and I pledge to keep it that way. I must be 
candid. I have been asked fairly pointedly by several people 
about why I want to be considered for this position. The answer 
for me is simple. It is about the mission.
    I am proud to serve with the men and women of the FAA, who 
set and meet the highest standards of excellence. Following the 
attacks of 9/11, I sought public service, first with the 
National Transportation Safety Board and then with the FAA. For 
me, like so many others, it was personal.
    At the FAA, I have never side-stepped a hard issue or a 
tough call. During the last 5 years, the FAA has learned to 
manage better and smarter. We have implemented financial 
management strategies that better serve the taxpayer while 
maintaining the standard of excellence.
    Our capital programs are on track. We have had seven clean 
audits in a row, and we have been taken off the GAO's high-risk 
list for financial management. In terms of safety and 
regulatory authority, the FAA is the international gold 
standard. The men and women of the FAA have made it that way, 
and I thank them for their efforts.
    As you know, I am working hard to keep things moving. As 
the entire airline industry has suffered constraints, as 
passenger demands rise, and as our workforce ages, we have 
responded with a massive recruitment and training initiative. 
We have created retention and job enhancement strategies, and a 
new workforce is being built.
    We had nearly 2,000 applications in less than a week when a 
new bid recently went out for air traffic controllers. But we 
are also focusing on our safety inspectors and other critical 
safety positions. We are addressing those issues that continue 
to impact travelers--delays, uncertainty, cancellations. Only 
through the cooperation of all the parties involved can we find 
the real solutions.
    And as you have seen by our willingness to work in our most 
congested corridors recently to find and implement solutions, 
we are beginning to make headway. System-wide, we have 
introduced new technologies, ranging from satellites to runway 
lights, from simulators to the next generation of navigation 
and safety equipment that will bring the Nation's airspace 
safely into the future.
    If confirmed, I will continue working with our 
stakeholders, my colleagues at the Department of 
Transportation, and, of course, the Congress to continuously 
improve the performance of the FAA.
    Finally, Mr. Chairman, it is an honor for me to serve this 
great Nation. From my days at Top Gun to my tenure with the 
airlines and now here before you, I continue to share your 
pride at what this country stands for. You have my solemn 
promise that, if confirmed, I will uphold the best interests of 
the United States of America and its people at all times.
    Mr. Chairman, thank you. And I would be happy to answer any 
questions the Committee may have.
    [The prepared statement and biographical information of Mr. 
Sturgell follow:]

     Prepared Statement of Hon. Robert A. Sturgell, Nominee to be 
  Administrator, Federal Aviation Administration, U.S. Department of 
                             Transportation
    Thank you, Chairman Inouye, for the privilege of addressing you, 
Senator Stevens, and the Members of this Committee as the nominee for 
the position of Administrator of the Federal Aviation Administration.
    Before I begin, it's my profound pleasure to introduce three very 
special people, my wife, Lynn, and my parents, Bill and Barbara 
Sturgell. I'm blessed to have come from wonderful parents and have a 
loving wife by my side to provide me with such a solid foundation and 
support. I'm proud to have them here with me today and feel that 
support just as I've felt it every day of my life.
    Let me say from the outset that I reaffirm the pledge I made when I 
took my oath of office--to serve my country, to uphold the principles 
of fairness and righteousness as outlined in the Constitution, and to 
do my duty to the best of my ability.
    It is a commitment I renew each and every day at the FAA, that as 
the steward of the largest, most efficient and most complex airspace 
system in the world, I will work tirelessly to improve and enhance 
safety and efficiency in order to serve the millions of people who 
place in us their trust, who depend on the system for their 
livelihoods, the movement of goods, and as the safest mode of 
transportation on earth.
    I am proud to have helped advance that safety record throughout my 
career. The United States leads the world in setting the highest 
standards of safety for the aviation industry, and I pledge to keep it 
that way.
    I must be candid: I've been asked fairly pointedly by several 
people on the Hill about why I want to spend five more years at the 
FAA. The answer is simple. I love my job. I'm proud to serve with the 
men and women of the FAA who set and meet the highest standards of 
excellence and I love the aviation business from the inside out.
    I've had to make hard choices, sometimes unpopular choices during 
my tenure with the FAA. But, we've learned to manage better and leaner. 
We've implemented financial management strategies that better serve the 
taxpayer while maintaining the standard of excellence under which we 
operate.
    Our capital programs are on track, we've had seven clean audits in 
a row, and we've been taken off the GAO's high-risk list for financial 
management. My goal is simply to have the FAA viewed as the gold 
standard, and I want to thank the men and women of the FAA for their 
hard work and dedication to excellence.
    As the entire airline industry has suffered constraints, as 
passenger demands have fluctuated, as our workforce ages, we've 
responded with a massive recruitment and training initiative, we have 
been innovative in crafting retention and job enhancement strategies. 
The new workforce is being built. We had 1,800 applications in less 
than a week when a new bid went out for air traffic controllers. Now, 
we have to execute on the training.
    We are also addressing those issues that continue to impact 
travelers. Delays, uncertainty, cancellations, only through the 
cooperation of all parties involved can we find real solutions. And as 
you've recently seen by our willingness to work in our most congested 
corridors, to find and implement solutions, we are beginning to make 
real headway.
    System wide, we've introduced new technologies ranging from 
satellites to runway lights, from simulators to the next generation of 
navigation and safety equipment that will bring the Nation's airspace 
roaring into the future and will impact how safely, quickly, and 
smoothly flights transverse this Nation.
    If confirmed, I look forward to, and remain committed to, working 
with our stakeholders in the aviation community, my colleagues at the 
Department of Transportation, and, of course, the Congress, to 
continuously improve the performance of the FAA and to ensure that our 
system remains dynamic and future oriented that new safety innovations 
are implemented and that the aviation community continues to share in 
the growing record of safe operations.
    Finally, Mr. Chairman, it is with humility that I say, it is an 
honor to serve this great nation. From my days at the United States 
Naval Academy to this very moment, I continue to be filled with pride 
at what this country stands for. You have my solemn promise that, if 
confirmed, I will uphold the best interests of the United States of 
America and its people at all times. Mr. Chairman, thank you. I would 
be happy to answer any questions the Committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Robert Allan Sturgell
        Nickname: Bobby

    2. Position to which nominated: Administrator, Federal Aviation 
Administration.
    3. Date of Nomination: October 23, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 800 Independence Avenue, SW, Room 1010, Washington, 
        D.C. 20594.

    5. Date and Place of Birth: August 1, 1959; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Lynn Ann Sturgell (Stewart)
        Child: Benjamin David Sturgell (5)

    7. List all college and graduate degrees. Provide year and school 
attended.

        United States Naval Academy, Annapolis, Maryland. 1978-1982, 
        Diploma received 1982.

        Anne Arundel Community College, Arnold, Maryland, 1981-1982, no 
        diploma received (completed 25 hours of financial accounting 
        courses while simultaneously attending USNA).

        University of Virginia School of Law, Charlottesville, 
        Virginia, 1991-1994, Diploma received 1994.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        United States Naval Academy, May 1982 to January 1983, 
        Annapolis, MD, Physical Fitness Instructor.

        Training Squadron Six, January 1983 to October 1983, NAS, 
        Pensacola, FL, Student Pilot.

        Training Squadron Twenty-three, October 1983 to August 1984, 
        NAS, Kingsville, TX, Student Pilot.

        Training Squadron Twenty-two, August 1984 to March 1985, NAS, 
        Kingsville, TX, Student Pilot.

        Fighter Squadron One Two Four, March 1985 to March 1986, NAS, 
        Miramar, San Diego, CA, Fleet Replacement Pilot.

        Fighter Squadron Fifty-one, March 1986 to May 1989, NAS, 
        Miramar, San Diego, CA, Training Officer, Weapons Instructor, 
        Administrative Officer.

        Navy Fighter Weapons School, May 1989 to August 1991, NAS, 
        Miramar, San Diego, CA, Instructor Pilot, Administrative 
        Officer, Readiness Officer.

        Fighter Composite Squadron Twelve, November 1991 to October 
        1998, NAS Oceana, Virginia Beach, VA, Instructor Pilot Safety 
        Officer.

        Securities and Exchange Commission, Summer 1992, Washington, 
        D.C., Summer Intern.

        Shaw, Pittman, Potts & Trowbridge, Summer 1993, 2300 N Street, 
        NW, Washington, D.C., Summer Intern.

        Shaw, Pittman, Potts & Trowbridge, June 1994 to February 1996, 
        2300 N Street, NW, Washington, D.C., Associate.

        United Airlines, March 1996 to March 2002 <SUP>*</SUP>, Dulles 
        Int'l Airport, Washington, D.C., Flight Operations Supervisor, 
        Pilot.
---------------------------------------------------------------------------
    \*\ Leave of absence began March 2002. Resigned November 7, 2002.

        National Transportation Safety Board, March 2002 to September 
        2002, 490 L'Enfant Plaza, SW, Washington, D.C., Senior Policy 
---------------------------------------------------------------------------
        Advisor to the Chairman.

        Federal Aviation Administration, September 2002 to Present, 800 
        Independence Ave, SW, Washington, D.C., Acting Administrator, 
        Deputy Administrator, Acting ATO Chief Operating Officer, Sr. 
        Counsel to the Administrator.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Served as the President of the Citizens Advisory Committee to the 
Calvert County Board of County Commissioners, 1999-2002.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    Blue Heron Properties, LLC--sole owner (company dissolved in 2003)
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        District of Columbia Bar Association--1994 to present.

        Maryland State Bar Association--1994 to present.

        NTSB Bar Association--1994-1996, 2002.

        Southern Anne Arundel County Chamber of Commerce--1999-2001 
        (Board member).

        Boys and Girls Club of Southern Maryland--2000 (Board member).

        Air Line Pilots Association--1996-2002.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Candidate, Maryland State Senate, District 27--1998; Outstanding 
Debt: None
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        1998-2004, Member, South County Republican Club.

        1998 to present, Member, Southern Prince George's County 
        Republican Club.

        1998 to present, Member, Calvert County Republican Club.

        2000, Volunteer, Bush/Cheney 2000.

        2002, Volunteer, Ehrlich for Governor; Contribution: $500.00.

        2002, Volunteer, Hale for County Commissioner.

        2002, Wayson for County Council; Contribution: $500.00.

        2004, $1,000; Bush for President, 2004.

        2004, $500; Republican National Committee.

        2006, $1,000; Ehrlich for Governor, 2006.

        2005, $1,000; Hale for Delegate, 2006.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        National Society Daughters of the American Revolution Award, 
        1978.

        United States Naval Academy Alumni Association Award, 1982.

        Secretary of the Navy Distinguished Midshipman Graduate Award, 
        1982.

        Lieutenant Clarence Louis Tibbals Memorial Award, 1982.

        Phi Kappa Phi Honor Society, 1982.

        Commodore's List, Training Air Wing Two, 1985.

        Sea Service Deployment Ribbon (2 awards), 1986 and 1988.

        Meritorious Unit Commendation, 1988.

        Armed Forces Expeditionary Medal, 1988.

        Navy Achievement Medal, 1989.

        White House Fellow, Regional Finalist, 1990-91.

        National Defense Service Medal, 1991.

        University of Virginia School of Law, Dillard Fellow, 1992-
        1994.

        The Virginia Trial Lawyers Award for Trial Advocacy, 1994.

        Navy Achievement Medal, 1997.

        Navy and Marine Corps Commendation Medal, 1998.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Articles

        When All Else Fails, Blame the ADB, Approach magazine, 
        September 1989.

        More BFM: Out of Plane Maneuvering and Effective Rate/Radius, 
        TOPGUN Journal, Spring/Summer 1989.

        Carrier Battlegroup Defensive Weapons Systems, TOPGUN Journal, 
        1990.

        F-14 Section Tactics: The Intercept Phase, TOPGUN Journal, Fall 
        1990.

        F-14 Section Tactics: The Weapons Employment Phase, TOPGUN 
        Journal, Winter 1990-91.

        F-14 Section Tactics: Post-Merge Phase, TOPGUN Journal, Spring 
        1991.

        Forward Quarter Tactics in Desert Storm, TOPGUN Journal, Summer 
        1991.

        Letter to the Editor, The New Bay Times, September 
        1998.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Various letters to editor during 1998 election campaign, 
articles not retained and not available by website search.

---------------------------------------------------------------------------
        Commentary, The New Bay Times, October 1998.

        Letter to the Editor, The Capital, September 9, 1998.

    Speeches

        Challenge & Success, FAA Information Technology/Information 
        Systems Security Partnership and Training Conference, March, 
        2005.

        Black Boxes and Gray Matter, NATCA ASI Forum, March, 2005.

        A Proud Tradition, Labace 2005, March 2005.

        Working Together, CMAC Honored Speaker Remarks, May, 2005.

        Our Pledge to America, Equipment Dedication Ceremony, June 
        2005.

        Aircraft Certification Leadership Conference, August, 2005.

        Beat Army, New Controller Welcome, August 2005.

        A Good Investment, Cincinnati/Northern Kentucky Int'l Airport 
        Runway Dedication.

        Not Business as Usual, NBAA, November 2005.

        AAAE, Hawaii, January, 2006.

        Aviation Cooperation Program Meeting, Beijing, April 2006.

        Aviation Cooperation Program Luncheon, Beijing, April 2006.

        IATA Fuel Efficiency Seminar, Beijing, April 2006.

        China Press Roundtable, Beijing, April 2006.

        Pomp and Circumstances for Tomorrow's Leaders, ASH Model 
        Graduation Ceremony, May, 2006.

        Clear Skies Ahead, FAA Environmental Awards, May, 2006.

        Keep Showin' Us the Way, AAAE Contract Tower Workshop, June 
        2006.

        Unsurpassed Training Starts Right Here, International Aviation 
        Training Symposium, July, 2006.

        Good Planning Makes a Difference, Tappahannock-Essex Airport 
        Grant, August, 2006.

        Walking Hand in Hand, EMTD Graduation, August 2006.

        A Level Playing Field for All, AAAE DBE Conference, October 
        2006.

        International Safety Forum Opening Session, November 2006.

        Addressing Challenges, Civil/Military Air Traffic Management 
        Seminar, February 2007.

        NASAO Legislative Conference, March 2007.

        Spokane ATCT/TRACON Dedication Ceremony, August 2007.

        China EMDT Graduation, September 2007.

        A Great Airport at a Great Time, Dulles Tower Dedication, 
        September 2007.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        07/21/2005, House Government Reform Committee (ADIZ).

        03/22/2007, Senate Commerce, Science, and Transportation; 
        Aviation Operations, Safety, and Security Subcommittee/ATC 
        Modernization.

        05/09/2007, House Transportation and Infrastructure 
        Subcommittee on Aviation--The Future of Air Traffic Control 
        Modernization.

        09/26/2007, House Transportation and Infrastructure 
        Subcommittee on Aviation--Airline Delays and Consumer Issues.

        09/27/2007, Senate Commerce, Science, and Transportation; 
        Aviation Operations, Safety, and Security Subcommittee--
        Congestion and Delays at the Nation's Airports.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My entire career has been devoted to aviation. Since 2002, I have 
held increasing positions of responsibility at the FAA. I have been the 
Deputy Administrator since March 2003 and the Acting Administrator 
since September 2007.
    I wish to serve as FAA Administrator because I am a strong believer 
in public service and commitment. At this point in our Nation's history 
and in my professional career, I cannot think of a more important 
service that I could perform. I am grateful for the support that has 
been given me by the Secretary, and I am deeply honored that the 
President has nominated me to serve as Administrator.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Administrator, I would be responsible for ensuring 
taxpayer monies are spent prudently and efficiently in executing the 
mission of the FAA. As the Acting Administrator and Deputy 
Administrator of the FAA for the past 5 years, I have extensive 
experience managing an organization with approximately 45,500 
employees. Our budget for Fiscal Year 2007 was more than $14 billion.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top 3 challenges facing the FAA are safety, capacity and human 
capital planning. The agency must continue to improve aviation safety 
as the industry grows and evolves, and it must also increase capacity 
by transforming the system to the next generation system. Finally, the 
FAA must ensure that it maintains the correct skill sets to achieve 
these goals, including aviation safety inspectors, engineers, program 
managers, technicians and air traffic controllers.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Please refer to the 
General Counsel's Opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my various positions at the FAA and NTSB from 2002 until the 
present, I assisted in the preparation of testimony presented before 
the House and Senate authorizing and appropriations committees. I have 
also met with members and testified before Congress on issues involving 
the FAA, including pending legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the enclosed General Counsel's Opinion letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of robert a. sturgell
Education
    University of Virginia School of Law, J.D. 1994; Dillard Fellow; 
Virginia Trial Lawyers' Trial Advocacy Award.

    United States Naval Academy, B.S. 1982.

        Graduated with Distinction, Resources Management (GPA 3.82, 
        Rank 8/1037).

        USNA Alumni Association Award for the outstanding midshipman 
        graduate.

        Participant, Varsity Lacrosse (2 Years).

    Anne Arundel Community College, 1982.

        Completed 25 credit hours in Financial Accounting courses.
Experience
    Federal Aviation Administration (2002 to present).

    Acting Administrator (Sep. 2007 to present).

        Directs the operations of the Federal Aviation Administration 
        and acts as principal advisor to the Secretary of 
        Transportation on civil aviation matters and air 
        transportation.

    Deputy Administrator (2003 to present).

        Joins the Administrator in heading the agency that regulates 
        and advances the safety of the Nation's airways, airports and 
        operates the world's largest air traffic control system. 
        Directly responsible for the day-to-day operations of the 
        agency's 46,000 personnel and $14 billion annual budget, as 
        well as its capital programs and modernization efforts.

    Air Traffic Organization Chief Operating Officer (Acting) (2007 to 
present).

        Responsible for the day-to-day operations, maintenance and 
        capital programs of the 33,000 person air traffic organization.

    Senior Counsel to the Administrator (2002-2003).

        Primary advisor to the Administrator on regulatory policy and 
        management initiatives.

    National Transportation Safety Board (2002).

        Senior policy advisor to the Chairman. Primary advisor and 
        coordinator on NTSB safety recommendations, accident reports, 
        legal opinions and orders, policy programs and management 
        initiatives.

    United Airlines (1996-2002).

        Flight Operations Supervisor responsible for the performance, 
        training, and counseling of probationary pilots assigned to the 
        Washington, Dulles domicile. Fully qualified flight officer 
        flying the Boeing 767 and Boeing 757 aircraft in both 
        international and domestic operations.

    Shaw, Pittman, Potts & Trowbridge (1994-1996).

        Attorney assigned to the Aviation and Litigation groups 
        representing major aviation and corporate clients before the 
        Federal Aviation Administration and the Department of 
        Transportation in all regulatory matters, including enforcement 
        proceedings, code-sharing, consumer affairs and bilateral 
        aviation agreements.

    United States Naval Officer (1982-2002).

        Twenty years (active and reserve duty) as a Naval Aviator 
        flying the F/A-18 Hornet, F-14A Tomcat, F-16N Falcon and A-4 
        Skyhawk with over 2,000 flight hours and 280 arrested carrier 
        landings. Extensive experience in operations management 
        including developing annual plans and managing operating 
        budgets in excess of $5 million. Responsible for the 
        maintenance of 12 aircraft valued at over $400 million. Twice 
        awarded Navy Achievement Medal for outstanding professional 
        achievements and Squadron Pilot of the Year for exceptional 
        leadership.

    TOPGUN Flight Instructor (1989-1991).

        A member of the prestigious Navy Fighter Weapons School 
        instructing Navy and Marine Corps pilots in graduate-level 
        tactics, training and weapons systems. Lectured extensively on 
        carrier battle group defensive weapon systems and F-14 section 
        tactics. Authored numerous articles on tactics, training and 
        aviation safety.
Community
    President, Calvert County Citizens Advisory Committee (1998-2002).

    Board Member, Boys & Girls Club of Southern Maryland (1999-2000).

    Board Member, Southern Anne Arundel County Chamber of Commerce 
(2000-2001).

    Member, Deale/ShadySide Small Area Planning Committee (1999-2001).

    The Chairman. All right, thank you very much, Mr. Sturgell.
    And now may I call upon Mr. Simon Gros?

         STATEMENT OF SIMON CHARLES GROS, NOMINEE TO BE

         ASSISTANT SECRETARY FOR GOVERNMENTAL AFFAIRS,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Gros. Thank you, sir. Chairman Inouye, Vice Chairman 
Stevens, Members of the Committee, thank you for offering me 
the opportunity to appear before you today, as you consider my 
nomination to be Assistant Secretary for Governmental Affairs 
at the U.S. Department of Transportation.
    I am honored to have been recommended by Secretary Peters 
and nominated by President Bush to continue my service to the 
Administration. I am also grateful and lucky to have enjoyed 
incredible support from family and friends through the years. I 
would especially like to recognize Congressman Frank LoBiondo, 
my hometown Congressman, for whom I worked when I first came to 
Washington.
    And I would be remiss if I failed to thank my parents, 
Barbara Errickson and Roger Gros, for all of the guidance they 
have given me. Most importantly, I would never be where I am 
today if not for the support of my best friend and wife, 
Natalie.
    Sir, the primary role of any Assistant Secretary for 
Governmental Affairs is to enable effective communication 
between Federal, state, and local elected officials and the 
department. With less than a year left in this Administration, 
I believe that this function is more important than ever, 
especially as Congress--and this Committee in particular--
debates legislation critical to the future of our Nation's 
transportation system.
    If confirmed, I pledge that my office will remain in 
constant contact with Congress on all issues affecting the 
department. I will be responsive to Congressional inquiries and 
proactive when communicating departmental priorities and 
activities. And I will work within the department to ensure 
that we comply with both the spirit and the letter of laws 
passed by Congress.
    Sir, it is, indeed, a rare honor to serve as Assistant 
Secretary of Transportation. If confirmed, I will represent the 
department with integrity and reliability. I look forward to 
working with you and your staff to help make sure 
transportation remains safe and becomes more efficient for all 
Americans.
    Thank you for considering my nomination. I would be pleased 
to answer any questions you may have.
    [The prepared statement and biographical information of Mr. 
Gros follow:]

   Prepared Statement of Simon Charles Gros, Nominee to be Assistant 
 Secretary for Governmental Affairs, U.S. Department of Transportation
    Chairman Inouye, Vice Chairman Stevens, Members of the Committee, 
thank you for offering me the opportunity to appear before you today as 
you consider my nomination to be Assistant Secretary for Governmental 
Affairs at the U.S. Department of Transportation. I am honored to have 
been recommended by Secretary Peters and nominated by President Bush to 
continue my service in the Administration.
    I am also grateful and lucky to have enjoyed incredible support 
from family and friends through the years. I'd especially like to 
recognize Congressman Frank LoBiondo, my home-town Congressman, for 
whom I worked when I first came to Washington. And I would be remiss if 
I failed to thank my parents, Barbara Errickson and Roger Gros, for all 
of the guidance they have given me. Most importantly, I would never be 
where I am today if not for the support of my best friend and wife, 
Natalie.
    The primary role of any Assistant Secretary for Governmental 
Affairs is to enable effective communication between elected officials 
at the Federal, State, and local level and the Department. With a 
little over a year left in this Administration, I believe that this 
function is more important than ever, especially as Congress, and this 
Committee in particular, debate legislation critical to the future of 
our Nation's transportation infrastructure. If confirmed, I pledge that 
my office will remain in constant contact with Congress on all issues 
affecting the Department. I will be responsive to Congressional 
inquiries and proactive when communicating Departmental activities. And 
I will work within the Department to ensure that we comply with both 
the spirit and the letter of laws passed.
    It is indeed a rare honor to serve as Assistant Secretary of 
Transportation. If confirmed, I will represent the Department with 
integrity and reliability. I look forward to the opportunity to work 
with you and your staff to help make transportation safer and more 
efficient for all Americans.
    Thank you for considering my nomination, and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Simon Charles 
Gros.
    2. Position to which nominated: Assistant Secretary of 
Transportation (Governmental Affairs).
    3. Date of Nomination: October 16, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1200 New Jersey Avenue, SE, W85-320, Washington, D.C. 
        20590.

    5. Date and Place of Birth: June 30, 1975; Falls Church, VA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Natalie Jessica Cantor Gros, not employed.
    7. List all college and graduate degrees. Provide year and school 
attended.

        George Mason University School of Law, J.D. (2004), J.M. 
        (2001).
        University of Maryland at College Park, B.A. (1997).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    My employment history is listed below. Management-level jobs are 
noted with an asterisk (*). All of my past employment, both managerial 
and non-managerial, relates to the position for which I am nominated.

        United States Department of Transportation--Deputy Assistant 
        Secretary for Governmental Affairs*; Deputy Chief of Staff*; 
        Special Assistant to the Assistant Secretary for Governmental 
        Affairs; Associate Director, Office of Governmental Affairs.

        Van Scoyoc Associates, Inc.--Director of Government Affairs.

        Kessler Century Government Relations--Legislative Associate.

        U.S. Representative Frank A. LoBiondo--Legislative Aide; 
        Legislative Correspondent; Staff Assistant.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11.List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Lincoln Majority (Treasurer, 2003-2004).

        Republican National Lawyers Association (2005-2006).

        New Jersey State Bar Association (2004 to present).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Republican National Committee 72-Hour Task Force.

        Tom Kean for U.S. Senate (2006).

        Bush-Cheney 2004.

        Thune for Senate (2002).

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Secretary's Gold Medal, Department of Transportation, 2006.
        Secretary's Team Award, Department of Transportation, 2005.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``New Internet Gambling Prohibition Bill Passes House 
        Committee'', www.winneronline.com, June 29, 2000.

        ``House Rejects Internet Gambling Ban'', www.winneronline.com, 
        July 10, 2000.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    If confirmed, I believe that my service at Department of 
Transportation, along with my previous work experience, will provide a 
solid foundation from which to guide DOT's government affairs operation 
through the end of the Administration. I began my career as a 
congressional staffer, gaining valuable insight into the legislative 
process. And while I furthered my governmental education in the private 
sector, it has been my experience in the DOT's Office of Governmental 
Affairs and as Deputy Chief of Staff that truly solidifies my 
qualifications. During my three and a half years at the DOT, I have 
gained an understanding of both the inner workings of the Department 
and how issues are considered by Congress. As such, I am uniquely 
qualified for this position.
    I am interested in this position primarily because I wish to 
continue my service to the President and to Secretary Mary Peters. 
President Bush has provided Secretary Peters with a platform from which 
to bring about needed change in this country's transportation system. 
The Secretary has responded by proposing cutting-edge transportation 
policy reforms, and I firmly believe that, if confirmed, I can help her 
to work with Congress to bring about these reforms.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I firmly believe that, as a public servant, my first duty is to the 
American taxpayer. As Deputy Chief of Staff of the U.S. Department of 
Transportation for more than a year, I experienced first-hand the 
complexities of management and the importance of controls. I was 
responsible for managing the Immediate Office of the Secretary, as well 
as helping to coordinate the overall management of the Department.
    If confirmed, I will work as Assistant Secretary of Transportation 
(Governmental Affairs) to ensure that the Office of Governmental 
Affairs is a proper steward of the taxpayers' dollars. I will take 
affirmative steps to continue appropriate management and accounting 
controls.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top challenge at the Department of Transportation is to 
maintain and improve safety within our transportation system. In the 
air, we are enjoying a safety record not seen since the dawn of the jet 
age. We can do better, however, and are working to do just that with 
the anticipated deployment of the Next Generation Air Traffic Control 
System and the dedication of our aviation safety professionals. On our 
Nation's highways, the fatality rate dropped to its lowest level ever 
in 2006--and still more than 40,000 Americans were killed. The 
Secretary is rightly focusing her attention on those categories of 
fatalities that are most problematic, such as motorcycle and alcohol-
related deaths.
    The Department is also faced with significant mobility problems 
across the country. Americans are spending more and more time stuck in 
traffic and more and more time away from their families. Inefficient 
freight movement is threatening to stall America's economy at a time 
when goods are expected to move faster than ever. Delays at our 
airports are ruining family vacations and forcing business travelers to 
travel less efficiently. The Secretary is taking affirmative steps to 
combat these problems, through various aspects of the Department's 
ground-breaking congestion initiative, and I think that many of the 
solutions identified by the DOT will lead to improved mobility, both in 
the short- and long-term.
    Finally, I believe that the Department must be an advocate for 
technology advancement. The challenges listed above will only be solved 
by effective deployment of innovative technological solutions. The DOT 
can help to make Americans safer by encouraging the NextGen satellite 
air traffic control system, electronic stability control in 
automobiles, and positive train control on the rails. DOT can help the 
average American move through the system faster and more efficiently by 
incentivizing the use of new intelligent transportation systems. The 
modes, especially the Research and Innovative Technology 
Administration, will take the lead within the Department on this 
challenge.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I maintain a 401(k) retirement account with my former employer, Van 
Scoyoc Associates. The account contains less than $20,000.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Since I entered the workforce in December 1997, I have engaged in 
activities described above, none of which would constitute a conflict 
of interest, if confirmed. Specifically:

        As a staff member for Congressman Frank LoBiondo from 1997 to 
        2000, I was involved in all aspects of the legislative process.

        As a private-sector lobbyist from 2000 to 2004, I frequently 
        worked to advance my clients' interests through state and 
        Federal legislation.

        As an employee of the Department of Transportation since May 
        2004, I have on many occasions, consistent with the law, 
        advocated for or against various pieces of legislation relating 
        to the Department's mission.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Should any conflict of interest arise, I would immediately recuse 
myself from all activities concerning that conflict.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    I was arrested in Washington, D.C. in 1997 for destruction of 
public property. The incident was determined to be accidental, however, 
and no charges were filed.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of simon c. gros
Employment
    United States Department of Transportation, May 2004 to present, 
Deputy Assistant Secretary for Governmental Affairs (6/07 to present).

        Serve as the Secretary's primary advisor for all 
        intergovernmental (Federal, state, and local) matters 
        pertaining to the Department of Transportation.

        Responsible for developing aggressive governmental affairs 
        strategies for various Departmental undertakings.

        Manage the Secretary's Office of Governmental Affairs, with 14 
        employees and an annual budget of more than $2.3 million.

    Deputy Chief of Staff (5/06 to 6/07).

        Served as Secretary's representative for policy development and 
        coordination, both within the Department and with other 
        agencies and the White House.

        Provided strategic advice and counsel to the Secretary and 
        Deputy Secretary.

        Supported the Chief of Staff in managing all aspects of a 
        Federal agency with nearly 59,000 employees and a $58 billion 
        annual budget.

        Managed the immediate Office of the Secretary, including the 
        scheduling office, policy advisors, military liaisons, and 
        support staff.

        Served in an advisory capacity for political personnel 
        decisions, in addition to acting as White House Liaison during 
        a vacancy.

    Special Assistant to the Assistant Secretary for Governmental 
Affairs (7/05 to 5/06); Associate Director, Office of Governmental 
Affairs (5/04 to 7/05).

        Served as liaison between the Secretary of Transportation, 
        Members of Congress from ten northeastern states, and various 
        agency modes.

        Provided governmental affairs oversight for the Federal 
        Aviation Administration, the Federal Railroad Administration, 
        the DOT's Office of Aviation and International Affairs, and on 
        security matters.

        Advised and prepared the Secretary, modal Administrators, and 
        other agency officials for hearings and meetings with lawmakers 
        and their staff.

        Coordinated DOT Congressional activity with other DOT modal 
        agencies to ensure strategic continuity.

    Van Scoyoc Associates, Inc., July 2001 to May 2004, Director of 
Government Affairs.

        Worked on behalf of clients to establish and maintain effective 
        communications with Members of Congress, committee staff, and 
        Administration officials in Washington.

        Advanced client priorities through annual appropriations 
        legislation, authorizing bills, and agency regulation.

        Acted as D.C. representative for clients at meetings and 
        fundraisers.

        Developed and utilized a system of grassroots communications to 
        better effect contact between constituents and their 
        representatives.

        Organized D.C.-based educational events for Congressional and 
        Administration staff.

        Organized fundraising events for clients, and served as 
        assistant treasurer for a client's political action committee.

        Specific areas of client interest included aviation security, 
        highway construction, transit, railroads, education, and 
        general research and development.

    Kessler Century Government Relations, March 2000 to July 2001, 
Legislative Associate.

        Advocated on behalf of clients on Capitol Hill and in the 
        Administration.

        Concentrated primarily on transportation, prescription drug, 
        and gaming issues.

        Represented the firm at key industry conferences.

    U.S. Representative Frank A. LoBiondo (NJ), December 1997 to March 
2000, Staff Assistant; Legislative Correspondent; Legislative Aide.

        Supported the Congressman in his role as a member of the 
        Transportation and Infrastructure Committee.

        Advised the Congressman on a variety of other issues, including 
        but not limited to judiciary, telecommunications, banking, 
        armed services, and small business.

        Served as Staff Director for the Congressional Gaming Caucus.

        Worked with House Judiciary Committee staff to draft and pass 
        ``The Bulletproof Vest Partnership Grant Act,'' which was 
        signed into law in 1998.
Education
    George Mason University School of Law

        Juris Doctor, 2004
        Juris Master, 2001

    University of Maryland, College Park

        Bachelor of Arts, 1997.
Other
    Tom Kean for U.S. Senate (2006); Volunteer; Atlantic and Cape May 
Counties, New Jersey.
    Bush-Cheney 2004; Volunteer; Philadelphia, Pennsylvania and 
Atlantic County, New Jersey.
    Thune for Senate (2002); Volunteer; Aberdeen, Sioux Falls, and 
Cheyenne River Sioux Indian Reservation, South Dakota.
    ``Top Secret'' level national security clearance.
Memberships
    New Jersey State Bar Association

    The Chairman. I thank you very much, Mr. Gros.
    Senator Thune, would you care to make a statement?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I want to welcome 
our nominees this morning and appreciate your willingness to 
serve the country.
    And Mr. Sturgell, I know I have had the opportunity to 
visit with you a little bit about some of the airline issues 
that are important in my State. But I would just, when we get 
into questions, be interested in hearing a little bit about 
your views on airline consolidation. That is something that is 
of great interest to those of us who represent rural areas and 
what that might mean in terms of service and cost and what not 
for travelers in rural areas of the country.
    And also I appreciate your focus on getting away from 
delays. Of course, last year everybody knows was second-worst 
ever on record, and that is something that also I think all of 
us on the panel are very interested in and hope that you will 
tackle and attack. And I know in your capacity as the Acting 
Administrator, you have been focusing on that, and I would 
encourage you to continue to do that and look forward to 
hearing your thoughts about how we might be able to improve 
even further on that.
    So thank you again for being here today and for your 
service. And thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I have no statement, Mr. Chairman.
    The Chairman. Well, I thank you all very much. I will call 
upon the Vice Chairman to begin the questioning.
    Senator Stevens. Thank you very much. Mr. Sturgell, Members 
have talked here about delays. I think the two of us, the 
Chairman and I, probably fly a greater distance on aircraft 
than any Senators in history. And I have noticed personally the 
problems related to delays.
    And I have spoken here about it before. I just want to 
remind the Committee of one instance where I went to National, 
and we had to wait 2 hours because the cabin crew was stuck in 
New York because of a storm. So we waited. We took off 2 hours 
late, went to the Midwest hub, and we were first told there was 
a mechanical problem, but then they told us the truth and said 
we were waiting for pilots.
    So we waited 3 hours there for pilots. And when the pilots 
came on, the pilot told us this story that because of the mix-
up, the plane hadn't been fueled. And then at the end, after 
the plane was fueled, he told us there was no food onboard. We 
are going from Midwest into Alaska, about a 4.5-hour trip. And 
they said but we do have soft drinks and a few cookies. We can 
wait for the food or take off. And everybody shouted ``take 
off,'' of course.
    But I want you to know, I don't think it is the FAA's 
problem necessarily, but the FAA has neglected to deal with the 
operators of these aircraft to work out a system where we are 
not delayed because the crews aren't there. And I think one of 
your first jobs should be to look into how to manage the 
airlines so there are people there to man them and fly them, 
and they are fueled and with food onboard before they take off.
    I really think that all of these delays are related to the 
problem of allowing crews to live in one part of the country 
and fly into another. Some of the people that fly to Alaska 
live in Florida. That is a new twist in the airline industry, 
and I think it should be examined. If you don't examine it, I 
am going to ask the Chairman to examine it here with public 
hearings.
    Now, second, I am a little disturbed. I want to ask you a 
question about this one. When the CAB was eliminated from the 
system and we created the FAA and we had the concept of really 
not the government no longer designing airline routes and who 
flew where and how often, one of the things that we started was 
to automate a lot of the flight service stations around the 
country.
    But there was an agreement made in my state, Alaska, that 
because of its size and the dependence upon aviation, as I 
indicated, the flight service stations would be maintained. 
Some time later, we were told that the contract to manage those 
flight service stations had been worked out with Lockheed, and 
Lockheed took over the management of them.
    I met just last week with a group of those flight station 
operators who are slowly but surely leaving because of the 
changes in policy--I understand Lockheed walked away from that, 
and now it is back with FAA. One young woman told me she was 4 
days from her retirement, and she was given a discharge. Two 
others told me that they had just signed up for their extension 
of service, and they were told they were going to be reassigned 
to another State.
    Now, I don't think you have many flight service stations 
left in the rest of the United States, do you?
    Mr. Sturgell. That system, that service is now being 
provided by Lockheed Martin in the Lower 48 states, Senator.
    Senator Stevens. But they have walked away from Alaska?
    Mr. Sturgell. Alaska was never part of the service contract 
for the flight service stations.
    Senator Stevens. Well, I understood from what they said, it 
had been. But they did have a relationship to Lockheed, but 
they don't now. But the numbers of the flight service operators 
are about 50 percent of what they were 3 years ago. What 
happened?
    Mr. Sturgell. We are maintaining the FAA's network of 
flight service stations in Alaska. As you know, we have three 
of those that are automated flight service stations, and we are 
looking now at upgrading the technology at those flight service 
stations.
    Senator Stevens. Well, let me tell you, are you a pilot?
    Mr. Sturgell. I am.
    Senator Stevens. How would you like to land in Sicily with 
someone sitting in Paris telling you what the quality of the 
runway was? Do you know how big my state is? It is Italy, 
Germany, France, and Spain put together, and you are trying to 
run it from Anchorage.
    Now I want to sit down with you, and really, this can't go 
on. We eliminated deaths in our aviation community with the 
cooperation of your predecessor, and I think we have the best 
flight safety concepts in the world now. But the problems that 
are coming up now are because of the lack of information about 
the condition of the airports where these pilots are flying 
into and the lack of information on the ground as to changes in 
conditions that have occurred while the plane has been in the 
air.
    We have got to reopen those flight service stations. I have 
got to tell you, if what I was told last week is right, you are 
wrong. Because half of the flight service stations were closed, 
I am told, within the last 3 years. Now will you check that for 
me?
    Mr. Sturgell. I will, Senator. And I spent several weeks 
flying F-14s out of Naval Air Station Adak. So I know the 
landscape up there. I know how important that service is to you 
and your state, and I would certainly be pleased to get 
together with you and talk to you about it.
    Senator Stevens. You know there are three mountain ranges 
in Alaska, and if you flew out of Adak, you were in safe 
country compared to the north country. I really want to work 
with you, but I met with a group of people, both in the 
industry, both operators and personnel in those flight service 
stations, and they are an angry crew.
    And they are angry at me because I didn't know what was 
going on. So I hope the two of us can find out what is going on 
before I go back up home. I don't like being scalped.
    Mr. Sturgell. I will be following up with you on it.
    Senator Stevens. Thank you very much.
    The Chairman. Senator Boxer?
    Senator Boxer. Thank you so much.
    I want to talk with you, Mr. Sturgell, about the passenger 
bill of rights that Senator Snowe and I wrote and the fact that 
you are coming out with proposed rulemaking. Why do you have a 
rule that does not--a proposed rule that doesn't include 
minimum standards for airline contingency plans for food, 
water, and a timetable for passengers to deplane when they are 
stranded on the tarmac? You don't have minimum standards.
    Mr. Sturgell. Senator, I think Mr. Gros will join in here, 
but I just want to update you a little bit on what the 
Secretary and the Department have done with respect to those 
types of issues.
    Senator Boxer. Well, let me just say because I don't--do 
you believe that the final rule will have minimum standards? So 
that we know that our people aren't going to be starving, and 
if they are sitting on the tarmac for hours, that the toilets 
are going to be working? That is all I want to know. Will you 
include that?
    Mr. Sturgell. I do know that the Department has worked with 
airlines, and a number of airlines have voluntarily set those 
types of limits for how long they will be on the tarmac. The 
Secretary has recently----
    Senator Boxer. No, no, we are not talking about that. We 
are talking about a DOT rule for minimum standards. Some of the 
airlines, yes. Some of the airlines, no. The point of Senator 
Snowe's bill and my bill is so that we, as America, say you can 
treat people, you must treat people with dignity and respect 
and be concerned about their safety.
    Will you have, I just want a yes or no, minimum standards 
in that rule for the airlines to follow?
    Mr. Sturgell. As you indicated, the rule does not propose 
standards. Certainly, comments will be considered and 
developed.
    Senator Boxer. OK. So right now, it doesn't have the 
standards. Well, then Olympia Snowe and I are going to have to 
have a meeting with Secretary Peters about it. OK, let us move 
on.
    GAO reported in December that at least 20 percent of 
controllers at 25 facilities were working 6-day weeks. What 
does the FAA consider an acceptable work schedule for 
controllers?
    Mr. Sturgell. The work schedule for controllers is set at a 
normal 8-hour day with a maximum 2 hours of overtime per day, 
and they are limited to 6 days a week. That is very similar to 
the rules for pilots.
    Senator Boxer. So you think 10 hours a day, 6 days a week 
is going to lead us to have safety in the skies. Is that right?
    Mr. Sturgell. No, we don't----
    Senator Boxer. I am asking your opinion. Senators, I am 
just going to wait. I am sorry. I just--I feel it is important 
for my Chairman to hear certain things, and I just think what 
we have just heard, unless I was wrong, is that Mr. Sturgell 
believes that a 6-day week, 10 hours a day, is a fair work 
schedule for our controllers.
    And I think it is so critical, and you stand by that? You 
don't have any intention of changing that as Administrator?
    Mr. Sturgell. Senator, that is--let me just clarify what I 
said.
    Senator Boxer. OK.
    Mr. Sturgell. Our controllers' schedules are limited to an 
8-hour day, plus 2 hours of overtime and a maximum of 6 days a 
week.
    Senator Boxer. That is what I----
    Mr. Sturgell. Those are the policies that we stand by. A 
large number of our controllers volunteer for overtime duty. 
But that overtime is performed within those standards.
    Senator Boxer. But my understanding is the GAO reported at 
least 20 percent of controllers at 25 facilities were working 
that 6-day week as a regular schedule. Do you consider that an 
acceptable regular schedule?
    Mr. Sturgell. By and large, they are volunteering for that 
overtime.
    Senator Boxer. I didn't ask you if they are volunteering. I 
might, if I was poor or had a problem or had a divorce and had 
to pay my wife or whatever my circumstances are, I might 
volunteer to work 12 hours a day. I am not asking you if they 
volunteer. I am asking you whether you think it works for 
safety in the skies to have 20 percent of controllers at 25 
facilities, including towers at major airports, working 6 days 
a week?
    And you are saying it is voluntary. I am not asking you 
that. I am asking you if you think that is the optimum 
situation?
    Mr. Sturgell. We have about two dozen facilities where we 
are trying to focus more heavily on our staffing and training 
efforts. By and large, system wide, we are running at less than 
2 percent overtime and an average of about 4 hours and 50 
minutes.
    Senator Boxer. OK, I appreciate this. But you are not 
giving me your opinion. So am I to assume then that you are 
concerned that GAO reported that at least 20 percent of 
controllers at 25 facilities are working 6 days a week, 
including towers at major airports? That is a concern? Can I 
take that away from your answer?
    Mr. Sturgell. Yes.
    Senator Boxer. Good. Good.
    Mr. Sturgell. There are about two dozen facilities that we 
are focused on.
    Senator Boxer. Excellent. That was what I was trying to get 
to. The December 2007 GAO report mentioned the FAA may not be 
accurately reporting the number and details of runway 
incursions. Why did the FAA not immediately investigate a 
possible runway incursion at San Diego airport 2 weeks ago?
    Mr. Sturgell. I am not familiar with the specifics of that 
particular event, but I will look into it.
    Senator Boxer. OK, can I get you--I would love you to look 
into it. But the GAO, I mean, this isn't me or Senator Stevens 
or Senator Inouye or Rockefeller or Hutchison, this is the GAO, 
December 2007, said you may not be accurately reporting the 
number and details of runway incursions. Do you agree with that 
opinion of the GAO?
    Mr. Sturgell. I think we can always do better. I think we 
try and report as accurately as possible, and I think we are 
doing a pretty good job at that. I would also point out that we 
have done great work in reducing the number of serious runway 
incursions. This is an area, like all of the areas of safety, 
you just can't let up on.
    We just have to keep going at this and going at it and 
going at it, and that is what we intend to do.
    Senator Boxer. Well, OK. I hope that I can infer from that 
that it is an unacceptable situation, and you are going to sit 
everybody down and get to the bottom of it. Because, here, I 
would like to put in the record an article from the The San 
Diego Union-Tribune, January 26, the FAA blamed a runway 
incursion on a control tower mistake.
    [The information referred to follows:]

             The San Diego-Union Tribune--January 26, 2008

                FAA Faults tower for Lindbergh incursion

                     By Steve Schmidt, Staff Writer

    SAN DIEGO--The Federal Aviation Administration yesterday blamed a 
runway incursion at Lindbergh Field last week on a control tower 
mistake.
    FAA safety officials in Washington, D.C., determined that an air 
traffic controller at Lindbergh erred when he cleared a Southwest 
Airlines plane for takeoff while a smaller jet remained on the 9,400-
foot-long runway.
    Agency spokesman Ian Gregor said that when the Southwest plane 
lifted off, the two aircraft were about 2,500 feet apart--about 500 
feet closer than initially reported.
    ``There was no collision hazard because Southwest took off a half-
mile from where the (other plane) was,'' Gregor said.
    He said the FAA is continuing its review of the Jan. 16 incident, 
which occurred under clear skies just before 6 p.m.
    Earlier this week, Gregor said the agency had looked into the 
incident and did not consider it a safety breach. He later said FAA 
officials in Washington were taking a deeper look.
    Representatives of the National Air Traffic Controllers 
Association, the controllers union, said they believe the FAA initially 
tried to cover up the incident. Melvin Davis, a San Diego-area chapter 
president of the controllers union, said the incident should have 
raised a red flag with the FAA from the start.
    The FAA and the union have been locked in a long-running feud over 
staffing levels, workplace rules and related issues as part of a 
broader debate over the adequacy of the Nation's air traffic control 
system.
    The union says the system is badly frayed due to workplace changes 
and the retirement of many seasoned controllers.
    The FAA says the changes have saved taxpayer money without 
compromising safety.
    Union and FAA officials say the Lindbergh incursion occurred after 
a Hawker Siddeley corporate jet landed and prepared to taxi off 
Lindbergh's lone landing strip.
    Anticipating the Hawker's exit from the runway, a Lindbergh 
controller cleared Southwest Flight 1626 for takeoff, officials said. 
As the Boeing 737 gained speed, the Hawker remained on the west end of 
the runway, where it had briefly stopped because of a mechanical 
problem.
    The controller radioed the Southwest pilot to abort the takeoff, 
but it was too late to stop the plane without jeopardizing passenger 
safety, officials said.
    Both FAA and union officials described the controller as a longtime 
employee with a good safety record.
    Davis said the controller had been working 6 days a week because of 
staffing strains at Lindbergh.
    Fifteen fully certified controllers staff the tower along with five 
trainees. The FAA says the facility has a designated staffing range of 
14 to 18 controllers.
    Rep. Bob Filner, D-San Diego, has requested a Congressional 
investigation into the incident. The last recorded incursion at 
Lindbergh was in late 2003.

    Senator Boxer. And so, you weren't aware of it. But I will 
get this over to you, sir, and I would like it if you could 
please get back to me on that.
    I have one more question, and then I am done. And this one 
is to Mr. Gros. Mr. Gros, you served as the assistant to Mary 
Peters? Is that not right?
    Mr. Gros. Senator, I was her Deputy Chief of Staff.
    Senator Boxer. Deputy Chief of Staff?
    Mr. Gros. Yes, ma'am.
    Senator Boxer. And during that time, we had some 
controversy over the granting--I'm sorry, the denial of the 
waiver to California. I see you are shaking your head, and you 
know about this issue. Now, it has been reported that you were 
involved in the lobbying campaign conducted by DOT officials 
last year in which you were contacting Governors and Members of 
Congress, seeking to generate opposition to the California 
waiver request.
    You have been quoted as saying that, within DOT, the people 
involved in the effort were Secretary Peters, yourself, and 
five other DOT staffers, but you have been unclear about the 
involvement of others in the Executive Branch. And I think it 
is significant exactly how the lobbying effort got started. Can 
you tell us who else, outside of DOT, was involved?
    Mr. Gros. Senator, thanks for the question. It is my 
understanding that the Secretary had conversations with the EPA 
Administrator. But apart from that, ma'am, I cannot tell you 
who else was involved.
    Senator Boxer. OK, do you know if the White House was 
involved? The Vice President's office? CEQ? EPA? Did you ever 
talk to people in those agencies during the time you were 
lobbying Members of Congress and Governors and others?
    Mr. Gros. Senator, I did not.
    Senator Boxer. You don't know?
    Mr. Gros. I am sorry, ma'am?
    Senator Boxer. You don't know?
    Mr. Gros. I don't know what kind of communication----
    Senator Boxer. Did you ever have e-mail conversations with 
anyone in the President's office or the Vice President's office 
or at the CEQ?
    Mr. Gros. Ma'am, I personally did not. No.
    Senator Boxer. OK. Did you ever have phone call 
conversations with them?
    Mr. Gros. I am sorry, ma'am. Are you saying do I ever or 
did I?
    Senator Boxer. Did you? Did you during this period?
    Mr. Gros. Did I? Thank you.
    Senator Boxer. In other words, I assume Secretary Peters 
gave you your instructions to do what you did?
    Mr. Gros. Yes, ma'am.
    Senator Boxer. But you never spoke to anyone other than her 
about it?
    Mr. Gros. No, ma'am. Not in that role, no.
    Senator Boxer. OK. Well, I think it is just very important. 
The reason I raise it is that it is not appropriate, nor within 
the traditions of our government, for an agency to lobby 
another agency and to gin up Members of Congress. This is a 
very serious point. So I am going to send you a letter, just 
for you to put this in writing, and I do thank you very much 
for letting us know in the past what occurred at that time. And 
we will keep in touch with you.
    And thank you very much. Thank you, Mr. Chairman.
    The Chairman. I thank you very much and now recognize 
Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman. I regret that 
I didn't note before your incredible record, which I note with 
envy, of 15,000 votes, and I congratulate you for that. I will 
need to work twice as hard as I have to get 15,000 votes. And 
they have been good votes, Mr. Chairman.
    Mr. Sturgell, 70 percent more controllers left the agency 
last year than FAA predicted. This year, they are already 
leaving the agency at a rate 40 percent higher than last year. 
Is FAA facing a crisis at all?
    Mr. Sturgell. Mr. Chairman--I am sorry, Mr. Lautenberg, 
the----
    Senator Lautenberg. No, that is all right. I liked it. I 
like the sound.
    [Laughter.]
    Mr. Sturgell. We had 828 retirements last year. We had 
projected 700. This year, we are projecting a similar amount of 
retirements in the neighborhood of 800. And right now, the rate 
of retirements is running about the same as last year.
    Senator Lautenberg. So it will be running higher than 
expected?
    Mr. Sturgell. We are projecting 800 in our workforce plan 
that will be coming out shortly. But it is running at about the 
same rate as last year, which was 828.
    Senator Lautenberg. Right, which was not filled. Am I 
correct? The hiring schedule for last year was not met?
    Mr. Sturgell. We actually exceeded our end-of-year staffing 
number last year by 67. And this year, we are going to increase 
the workforce by a net gain of 256. And the budget that just 
came out for 2009 has a further net increase of 306 
controllers.
    Senator Lautenberg. Well, let me read you what I have 
found. 2007, FAA projected retirements at 947. The actual 
retirements were 1,622. Do you challenge that figure?
    Mr. Sturgell. I do. I don't think that is a retirement 
number. I am not sure what that number is. Maybe it is total 
attrition, but I would certainly be willing to go over the 
numbers with you and show you our data.
    Senator Lautenberg. And this year, your retirement 
projection is what?
    Mr. Sturgell. We are going to be releasing our new 
workforce plan in March, and I think the number is right around 
806 retirements for Fiscal Year 2008. I think we will be hiring 
just about as many as we did last year, which is somewhere a 
little bit over 1,800.
    Senator Lautenberg. There is a substantial difference in 
what your report suggests. Did FAA--you were Deputy 
Administrator since when?
    Mr. Sturgell. Since March 2003 until September 2007.
    Senator Lautenberg. Do you remember the experience of 2003 
in terms of hiring, or how many people did you hire in the year 
2003? Do you know?
    Mr. Sturgell. I don't recall offhand.
    Senator Lautenberg. Well, I can tell you. It was the Fiscal 
Year 2004, so it was at the end of 2003. You hired 13. And the 
number that was--that retired was substantially higher than 
that. And we have had difficulty in keeping up the statistics 
that give us a degree of comfort.
    We are often told, and I had many discussions with Ms. 
Blakey about this, I would check with the towers and see what 
they have had. Do you have the population at Newark in front of 
you?
    Mr. Sturgell. I do have Newark in front of me.
    Senator Lautenberg. How many controllers do you see there?
    Mr. Sturgell. As of December 22, we have a total of 37.
    Senator Lautenberg. Thirty-seven.
    Mr. Sturgell. And I believe----
    Senator Lautenberg. Fully trained?
    Mr. Sturgell. No, they are not all fully trained. I think 
today we have 38.
    Senator Lautenberg. How many?
    Mr. Sturgell. Today, I think we have 27 CPCs, and we have 2 
CPC-ITs fully trained from other facilities that are now at 
Newark.
    Senator Lautenberg. How many should that tower have, Mr. 
Sturgell?
    Mr. Sturgell. Our range for that tower is 30 to 36.
    Senator Lautenberg. FPLs?
    Mr. Sturgell. That is a mix of CPC, CPC-ITs, and 
developmentals.
    Senator Lautenberg. Is that what you would like to see 
continue there, that ratio?
    Mr. Sturgell. The ratio will improve as people move through 
the training.
    Senator Lautenberg. Well, but we are losing them fairly 
quickly throughout the system. So you have to make up for that 
in addition to being able to get the training that is 
necessary. How long does it take to train a controller?
    Mr. Sturgell. At Newark tower, it is coming in at less than 
2 years now.
    Senator Lautenberg. No, but in the total development of a 
new controller? There is time in the academy.
    Mr. Sturgell. Total time right now, based on the latest 
results we are seeing, has our tower controllers coming in at 
under 2 years and our en route controllers coming in at under 3 
years. Previously, it had taken 2 to 3 years in the tower, 3 to 
5 years in the en route center.
    Since 2004, when we have had our controller workforce plan, 
we have known that training was going to be key to execute. Our 
simulators are helping, and a more focused effort on tracking 
training in general is helping. So, at this point, training and 
executing on that training, to me, is key in this workforce.
    Senator Lautenberg. You make a blanket statement, if I 
understand you correctly, that you are right on schedule, that 
all of the towers are populated by the trained controllers that 
they should have, including the newer of those in training. Are 
you willing to make the statement here that you are fully 
staffed as you should be?
    Mr. Sturgell. Senator Lautenberg, as I indicated to Senator 
Boxer, there are about two dozen facilities where we are 
focused on and where we would like to be in better shape than 
we are today.
    Senator Lautenberg. So there----
    Mr. Sturgell. But I think broadly speaking, we are doing 
OK. This is going to be a tough, tough transition. It is a 
workforce that is retiring, mainly those who were hired after 
the PATCO strike.
    Senator Lautenberg. Have we--did we anticipate the number 
of retirements accurately, do you think, over the last couple 
of years?
    Mr. Sturgell. We have not predicted them as accurately as I 
would have liked. We have gotten better and better each year.
    Senator Lautenberg. OK, accurate is accurate. And Mr. 
Sturgell, even former Administrator Blakey admitted that her 
refusal to work with air traffic controllers and negotiate a 
new agreement on pay and working conditions led to a mass 
exodus of controllers. And yet, it doesn't seem that FAA has 
learned from that mistake.
    What are you doing for recruiting and retention incentives? 
Are you listening to the employees at the bargaining table or 
to obtain a voluntary agreement with them?
    Mr. Sturgell. Senator Lautenberg, we have a number of 
things we are doing to improve relationships with the air 
traffic controller workforce. I have personally met with the 
NATCA president several times recently. I have directed our 
chief operating officer and the vice presidents for the Air 
Traffic Organization to do so. And they are having related 
meetings on safety issues as well.
    Senator Lautenberg. So relations could be better, could 
have been better over the period of recent years?
    Mr. Sturgell. We are working on improving our relations 
with the workforce.
    Senator Lautenberg. Well, that says, no matter how 
carefully the words are planted, if you are working to improve 
it, it must have been deficient in the past. It is fair to say 
it wasn't enough.
    Mr. Sturgell. Well, we have had some very tough issues with 
that workforce.
    Senator Lautenberg. In 2006, Lexington, Kentucky, the crash 
that took 49 lives, the pilots did not have the most recent 
published information about runway layouts, which it said 
contributed to the crash. And why did the FAA change flight 
departure headings out of Newark airport before even publishing 
the new information? Do they make changes without forewarning 
or providing the knowledge to pilots and those interested 
parties, controllers, et cetera, before they make changes?
    Mr. Sturgell. That is not always the case, Senator. As a 
pilot myself, it is not unusual to get a take off Runway 5, 
turn right to 0-8-0.
    Senator Lautenberg. Yes, but you are carrying yourself, 
perhaps another person in the airplane. And changes can be made 
more easily, I think, in the kind of flying that you did. But 
now we are talking about passenger aircraft, and we are talking 
about the responsibility to make sure that they are----
    Mr. Sturgell. This was flying with United Airlines as a 
commercial pilot. Again, it is not unusual to just get a 
departure heading after takeoff. Specifically, at Newark, in 
terms of publishing the procedure, that is in the process now.
    We have not implemented all of the departure headings. So--
--
    Senator Lautenberg. They may not have implemented all of 
them, but they have implemented many of them. And we are still 
waiting to see what kind of material is being given out so 
that, as far in advance as possible, the pilots are alerted to 
the changes that are being made.
    Mr. Sturgell. I will send you the latest on the date we 
intend to publish the procedures. But again, it is not unusual 
to just get a departure heading after taking off.
    Senator Lautenberg. Yes, but several planes have gone the 
wrong way out of Newark because of the changes. Are you aware 
of that?
    Mr. Sturgell. I am not aware of that.
    Senator Lautenberg. Please check that, Mr. Sturgell.
    Mr. Sturgell. I will.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    The Chairman. I thank you.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    And Mr. Sturgell, Mr. Gros, thank you again for your 
service, and I want to begin by saying that on behalf of our 
constituents, in most cases, want to make sure that Members of 
Congress can identify with their circumstances and feel their 
pain, so to speak. And when it comes to airline service, that 
is one area where most of us, particularly those of us who 
travel back and forth on a regular basis, can relate and have, 
on many occasions, sat in terminals and with our constituents, 
many of whom expect us to be able to do something about their 
plight.
    But I do want to say, and I think that it has already been 
emphasized here with respect to the statistics last year and 
how those square with history, that most of us, I think a lot 
of these things tend to be weather-related. And certainly 
nobody wants anybody to take any risks that would jeopardize or 
put anybody in a situation that is unsafe, and that is not 
controllable.
    And yet these statistics, the weather hasn't changed. The 
weather in South Dakota is pretty predictable. In the winter, 
it is going to snow. And it is going to blow pretty much year 
round. And in summer, it is going to rain.
    So, but the fact that these statistics continue to slip and 
deteriorate over time suggest that many of the factors adding 
to delays are factors that are controllable. And that is where 
I think we really have to--we need to be focusing on the 
performance. And a 75 percent performance on-time arrival for 
any other industry, that is a D, if you were scoring it if you 
were a professor in college. And any other business that was 
only able to provide on-time service 75 percent of the time 
probably would be out of business.
    And I guess the thing that concerns me about the airline 
industry generally is there seems to be sort of an acceptance 
of mediocrity. And that is very, very troubling. And I think 
that these factors, and I will associate myself with the 
comments from the Senator from Alaska, when it comes to pilots 
not being available or those types of issues, those are issues 
that, in my view, are in most cases within the control of the 
airline.
    And so, that is just a general comment. And I hope that the 
airlines, of course, who I am sure are listening, would take 
note of the importance of improving on those statistics and 
hopefully restoring what I would call, I guess, a culture of 
excellence when it comes to the delivery of this very important 
service.
    Because there is so much that rides on that--productivity. 
When people are stalled out, things don't get done. Anymore 
travel has become--when people ask me, always when you talk in 
front of a group, people ask you what is the best part and the 
worst part about your job. And I always answer the worst part 
is getting to and from it. And that has, unfortunately, I think 
become the reality for way too many people in this country.
    But given that fact, and I hope that this can be improved 
upon, but I also think it is important if that is going to be 
the state of play in the airline industry that consumers need 
to know who is good and who is not, who is getting there on-
time and who is not.
    And I introduced a bill a while back that would require a 
certain amount of reporting for those flights that are delayed, 
those flights that are chronically canceled on a flight-by-
flight basis. And I think it is important for consumers to 
know, so at least they can make informed choices. When they go 
in, they are booking a flight, that is the type of data that 
needs to be available.
    Now what the airlines will tell you, and they are correct, 
is that that data is available. But I think it needs to be 
available in a more usable form to people who are purchasing 
tickets.
    And so, I would--I am going to continue to work with the 
FAA reauthorization to see that we get some of those provisions 
put in that require the airlines to at least inform consumers 
so they can make choices about which flights on a consistent 
basis are being delayed or canceled and those that aren't. 
Because I think it would go a long ways toward helping make the 
airlines a little bit more responsive as well. I do want to--
and I guess I just say that as a general statement, and I 
solicit your comment on it.
    But I do want to follow up with a question that I mentioned 
earlier, and that has to do with this whole issue of airline 
consolidation. Because I think that, and you can argue, I am 
sure, both ways on this and I have heard arguments that in my 
area of the country that we would benefit from having a 
consolidated airline that has perhaps economies of scale and is 
a stronger airline financially in terms of both routes and 
prices and everything else. But that is not the widely held 
view among consumers.
    The widely held view among consumers is that fewer airlines 
means less competition and, therefore, fewer options and 
perhaps higher prices. And so, there is a discussion about some 
mergers that would affect my State in particular and a lot of 
other states in my region of the country. And I guess I would 
be interested in your thoughts about whether you see that as a 
good thing or a bad thing when it comes to service, when it 
comes to price, and just overall quality for people who travel 
in rural areas.
    So if I could get you to comment--I would direct this, I 
guess, to you, Mr. Administrator--first, on the need for more 
information for passengers and, second, the whole issue of 
consolidation, how that might impact service into rural areas?
    Mr. Sturgell. Thank you, Senator. On the need for more 
information, I do believe the Department is looking at options 
along the line that you are talking about. So I think there may 
be movement in that direction. I don't recall specifically what 
has been proposed or what may be proposed to date. But I 
understand your concerns, and I will pass those on to the 
Department.
    On the merger issue, as you said, folks can argue either 
way. It is probably not appropriate for me to comment on it. 
The FAA's focus would be on the operational changes involved in 
many types of mergers. I will point out that there has been a 
number of mergers over the years. Republican to Northwest, and 
USAir had a number of mergers.
    In the long run, what we have seen over the last couple of 
decades is that prices continue to go down because it is a very 
competitive industry. As for the FAA's role, again, our focus 
would be on the operational changes involved in a merger. Of 
course, the Department of Justice will be looking at the 
competition issues along with the Department of Transportation, 
which goes to your concerns about small community service.
    Senator Thune. I appreciate it. Mr. Gros, I don't know if 
you want to comment on either or I am sure you hear from folks 
up here quite often on issues related to service and 
information. So if you have any comment on either or both of 
those issues, I would be interested in hearing that as well.
    Mr. Gros. Senator, thank you. I have heard from a lot of 
Member's offices regarding consumer issues as they relate to 
the airlines.
    Senator Thune. I hope not just my office.
    Mr. Gros. Your offices, plural.
    Senator Thune. OK, thank you.
    Mr. Gros. I think it is a little premature to talk about 
where consolidations are going to end up. Bobby is right. I 
think that when the government takes into account all of the 
consolidations, we will certainly take into account the effects 
on consumers and small communities.
    Senator Thune. Thank you. And Mr. Chairman, again, I 
appreciate your answers and I would just urge you to continue 
to focus, and I know you are, in trying to address these 
problems with congestion on the East Coast and into New York 
that create ripple effects throughout the entire system. But 
this is an issue that is creating a tremendous amount of 
frustration among the traveling public, as I think you know. 
And we certainly continue to hear about that.
    And as I said before, there is no question that a lot, not 
a lot, but some of this is caused by circumstances and factors 
that are outside the control of the airlines, that being the 
weather. But to the degree that there are issues that are 
within the control, these things just need to be addressed. And 
the numbers and the statistics, particularly in this last year, 
are just unacceptable.
    So, thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman. I want to 
talk about the 4,000 employees that have received e-mails that 
they are going to be laid off on March 1. Now you are required 
to give them written notice, and I am not going to argue about 
an e-mail versus written notice. But it is serious because 
these people come from your research, your engineering, your 
development division, your facilities, your equipment division.
    Your air traffic controllers are, I believe, under contract 
until sometime in the middle of 2009. So, in theory, their 
situation is different. We have to, Mr. Chairman--and we have 
to do it in the Finance Committee--we have to make an extension 
because this is a very severe crisis.
    You cannot address 4,000 people by e-mail and have them 
facing layoffs March 1 because, in effect, it is laying them 
off right then. Their psychology changes, their attitude at 
work changes, and they are frightened, as they should be. And 
this is not your fault. This is our fault.
    We have to work out with Senator Baucus and the Finance 
Committee a way of extending--we have massive budget problems, 
and I won't get into the reasons why. I would love to, but I 
won't. We have to get the extension more than a couple of 
months.
    The Chairman of the Finance Committee only wants to make 
the extension for these 4,000 employees to be paid for a couple 
of months, and that doesn't work. He thinks it does. I don't. 
So he and I and Kay Bailey Hutchison need to talk to make sure 
that at least it is extended to the end of the fiscal year. 
That, in itself, doesn't provide a whole lot of comfort, but it 
is probably all that we can do in this particular year. And we 
will have to scramble for the money for that.
    But my question, my first question to you--I only have 
two--is do you detect an effect, and I want you to answer this 
to your own advantage, do you detect an effect on 4,000 FAA 
employees not having received a pink slip, but having received 
an e-mail saying they will be out of a job as of March 1st? Do 
you detect, what do you see from that?
    Mr. Sturgell. Senator, thank you very much for raising this 
issue. It is probably my most immediate concern at the agency. 
I was just trying to be as inclusive as I could to our 
workforce. That e-mail will be followed up with a letter of 
notification probably at the end of next week.
    I think I owe it to give the employees affected an 
opportunity to start taking care of their personal business, 
should this occur, which I hope it will not----
    Senator Rockefeller. But by contract you have to do that?
    Mr. Sturgell. We are required to do it, yes. And I think I 
need to do it. It affects 4,000 people who handle our capital 
programs, people involved in our research, and people involved 
in our airports program. As you said, the latest extension, 
which is our fourth now, does not extend the taxes; it does not 
have contract authority; and it does not have expenditure 
authority from the Airport and Airway Trust Fund beyond March 
1.
    These people are paid, by law, out of the Trust Fund. So I 
can't expend money from it, and therefore, I can't pay them. 
And that becomes a real problem for us. Because then, at that 
point, if we don't have expenditure authority, we are just 
working with funds from the General Fund, which--we have about 
$1.7 billion, which will get us a couple of months. I will 
probably have to take some measures in terms of making the 
agency operate more leanly, which would be things like reducing 
hiring, and just general tightening up all around to try and 
make that money last if we don't see movement to correct the 
problem.
    I appreciate that you are focused on it and the Chairman is 
focused on it, and I hope we can work together to get this done 
as quickly as possible.
    Senator Rockefeller. OK. We will do that. We will do that 
because anything else is unconscionable.
    This is less to your advantage, but it will tell me 
something about you. On April 23, The Washington Post had an 
article called ``FAA Has Some Unhappy Controllers.'' Now you 
have a lot of people sort of become unhappy because they are 
under pressure and because they are underfunded. They are 
understaffed. They may not have the machinery and equipment 
that they need.
    But unhappy controllers is a difficult situation. What The 
Post found was that 17 percent of FAA employees in general, 
only 17 percent, said that they trust FAA management. And that 
61 percent disagreed with the statement that the FAA ``is 
committed to employee concerns.'' That is far and away above, I 
would think, the average and, to me, is a very dangerous 
situation.
    I won't get into general aviation and what you are going to 
do about it, but I sure will when we have our hearing next 
week. And I will come after you really hard. But how do you--
looking at the prospect of this job, how do you, what works in 
your mind? You have got quite a turnaround of morale to 
accomplish. It's not all money. It's probably attention, visits 
to the field, equipment, whatever. Tell me why I am reading 
those statistics.
    Mr. Sturgell. Senator, if I recall those statistics, I 
think they relate to an annual employee attitude survey, which 
we've done in the past, and it has over 100 questions. We have 
done this survey every other year or so. And in the years in 
between, we do a much shorter survey.
    I will just tell you that, coming out of that survey, we 
did develop action plans for our various lines of business to 
address the concerns that we saw. These plans go to 
initiatives, which relate to better communications, better 
rewards for performance, as well as better training programs to 
develop leaders at all levels of the agency.
    I also have talked to folks about making personal visits 
out to facilities. It is something that I need to do a better 
job of. I wish I could get out of D.C. to these facilities more 
often than I have been able to. And I think there are a number 
of things we can do, for instance, we are most recently 
developing a child care subsidy and a tuition reimbursement 
plan, which we plan to roll out in the agency here shortly.
    So we are taking steps, as a result of those surveys and 
other feedback we get, to improve the attitudes. I also think 
pay is important as well, and we do have a very highly paid 
workforce, and rightly so.
    Senator Rockefeller. You have given me some answers. They 
don't tell me all that I need to know. Would you do me the 
courtesy of writing me a letter? It can be confidential. I 
won't release it or use it, and I won't use it in this 
Committee, but I would like to know. Visits by you are nice, 
the pay is already there, and the discontent is huge despite 
all of this.
    So it, obviously, has to be a much larger factor. It has to 
have deep roots. It may have to do with the uncertainty of the 
history of the FAA in recent years because we keep cutting 
their budget and asking you to do more, as passengers and 
airplanes increase. But I would like to have from you to me a 
confidential letter in which you open yourself up to what you 
think will be required to change those numbers around.
    Mr. Sturgell. I would be glad to do that.
    Senator Rockefeller. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Mr. Chairman, thank you for holding this 
hearing. Mr. Sturgell, Mr. Gros, as you know, Minnesota is the 
home of a proud airline history, with Northwest Airlines, Sun 
Country, the childhood home of Charles Lindbergh. And so, we 
are very interested in what you have to say here.
    I just wanted to follow up a little bit what Senator Thune 
had been talking about, about the FAA's role in any merger 
approvals. And you said that, Mr. Sturgell, they focused on 
operational concerns. And I think you and I have talked before 
about the safety concerns. Are there any examples you have of 
past mergers where the FAA stood in and said there is such a 
reduction of employees that this leads to safety concerns or 
that changes have been made that lead to safety concerns?
    Mr. Sturgell. I don't recall any, and certainly there have 
been none--since I have been at the agency. I do know right now 
that we are working with USAirways on their merger, but just on 
the operational side. So, no, to answer your question.
    Senator Klobuchar. So how does it work? Do they come and 
present to you plans of the merger and----
    Mr. Sturgell. They do. And our certificate management 
offices work closely with them to discuss things like the 
adequacy of personnel, their maintenance facilities, how they 
are going to be merging certificates and their operations 
specifications and those kinds of details.
    Senator Klobuchar. All right. I also want to follow up on 
some of the questions about delays and that 2007 was the worst 
year for delays. As you know, I am supportive of funding the 
modernization program in any way we can and to figure out how 
to ramp this up. But given what we have going on right now, 
some experts have said that congestion and delay is, in large 
part, due to the scheduling of flights during peak morning 
hours and evening rush hours.
    Do you think that if the carriers voluntarily cut back on 
their flights during that time, we are going to see a decrease 
in congestion and delay? What do you think would be a good 
remedy for this in our current situation before we do the 
modernization?
    Mr. Sturgell. I think there are a number of factors overall 
in the delay issue. And certainly, there is a ``good news/bad 
news'' story here. The good news is the industry is back and 
the passengers are back from the effects of 9/11. But as you 
said, the bad news is delays are up, and there are a number of 
things involved in delays, besides the weather, which accounts 
for the bulk of it. A lot of it has to do with runway capacity 
and new runways coming on line. A lot of it has to do with 
scheduling. A lot of it has to do with modernization and the 
FAA's operations themselves.
    So it is a picture that involves everybody. And as far as 
scheduling flights, I will just take, as an example, what we 
have done at Kennedy recently. They had several hours where the 
number of aircraft scheduled exceeded the ability of that 
airport to handle. We worked with the carriers in the fall and 
they reduced flights voluntarily to an overall average of about 
83 an hour during the peak periods, which is what we see the 
airport being able to handle today.
    But what has happened is for next summer, there are going 
to be more than 100 new flights at JFK, and that is because 
these flights were redistributed to other times of the day 
where there was less demand. Our modeling shows that we are 
going to get somewhere between a 10 and 15 percent reduction in 
delays there, which is substantial. At the same time, we are 
going to have more flights for the flying public.
    Senator Klobuchar. One of the things I have heard is that 
if you put these caps on, it is going to cause major carriers 
to cut back on some of the less profitable routes. Do you think 
that is a potential repercussion from this?
    Mr. Sturgell. I am not aware of that happening with next 
summer's schedule. And I will just say I do think--I don't like 
the caps. I don't think that is where we should be going as a 
nation or a government or an industry. I think we should be 
doing the hard things that Mayor Daley and Senator Durbin are 
doing out in Chicago and building new runways, and we should be 
moving forward on modernization.
    The FAA should be doing its best in this as well. Caps are 
an easy solution, but I don't think they are the right 
solution. I think the Secretary is actively looking for ways to 
come up with better solutions.
    Senator Klobuchar. Just one follow up about the air traffic 
controllers. There was a lot of discussion about the hiring and 
trying to get new recruits in. Could you talk about what you do 
to keep people employed after they are recruited?
    Because I have heard there are some concerns that you have 
some rate, a high rate, of people leaving once they start, or 
the job isn't what they thought and it is not working out. So 
could you talk a little bit about what you could do to make 
them stay on?
    Mr. Sturgell. Certainly pay is an issue, and I think our 
new hires are being paid very competitively. At the end of 5 
years, their cash compensation is in the mid-$90,000s. They 
still top out well above the GS-14 level. So I think just from 
a pure pay perspective, there is a lot of incentive to stay 
around.
    Controllers do have a very substantial early retirement and 
benefits package, which is very attractive as well.
    Senator Klobuchar. But do you have a number of them leaving 
after they start?
    Mr. Sturgell. We have training failures, which we expect. 
Last year, they ran about 13 percent. This year, they are 
running a little bit over 5 percent at our facilities. At the 
Academy, it is a little bit less than 5 percent, but that is 
not atypical.
    Senator Klobuchar. Are they placed right in hub airports, 
or are they allowed to go to smaller airports first, or how 
does that work? And would that change their job situation and 
get people to be retained more?
    Mr. Sturgell. It is a mix of both. And just for background, 
I think 93 percent of our new hires from last year came from 
either our collegiate training initiative or CTI schools or 
from the military, former air traffic controllers or veterans. 
Seven percent were recruited from various local job recruiting 
activities we do around the Nation.
    Regarding these CTI schools, we went from 9 or what do we 
have--we are up to 23 now, with 1 in one Minnesota, I believe, 
and a number of them around the country. These graduates 
typically have 2- to 4-year degrees with an aviation 
specialization, and so they come into the workforce very 
capable, and very qualified.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman. As I have paid 
attention in the news, I don't think that most Americans have 
put all of these stories together. But let me briefly go over 
what has happened just in less than a year.
    July 11, 2007, a jet came within 100 feet of a taxiing jet 
while landing in Fort Lauderdale. August 16, 2007, two planes 
carrying over 200 people came within 37 feet of each other. 
December 6, 2007, two jets came within 300 feet of each other 
at Newark. January 2, 2008, a jet had to abort a landing in 
order to avoid hitting another jet in Houston. January 11th, a 
jet came within 1,500 feet of a taxiing jet while landing at 
Atlanta Hartsfield-Jackson. January 16, 2008, two jets came 
within 600 feet of each other vertically in the airspace above 
Newark.
    I have a horrible fear that something dramatic and tragic 
is going to happen, and I have a sense of urgency about this. 
And I would like to give you a minute to try to put into words 
what sense of urgency you have.
    Mr. Sturgell. Senator McCaskill, I would first like to 
start with the context that, we handle about 62 million 
operations a year. And as many articles recently have shown, 
this has been the safest 5-year period in the history of 
transportation most recently. The incidents to which you are 
referring, I believe, are runway incursion incidents. This 
agency, over the last 5 to 7 years, has done a tremendous job 
in reducing the number of serious runway incursions. Last year, 
we had a total of 24. And if I get the number right, I think 
only eight of those involved commercial carriers.
    That said, this is an area again, I think I stated earlier, 
like a lot of our safety areas, where we as the FAA, we as the 
government, we as the industry simply cannot let up on. And we 
have to continually improve and continually drive that number 
down.
    Former Administrator Blakey and myself initiated a call to 
action last August on runway incursions. We have had great 
response from the community. We have included not just the 
carriers, but the airports, and the labor unions. We have had 
follow up meetings throughout the fall.
    I just had a telephone call with 40 of the carrier CEOs 
about 2 to 3 weeks ago. We are going to keep at this particular 
area. It is going to be a tremendous focus of mine whether 
confirmed or not. So----
    Senator McCaskill. And while we have had a--I get your 
point that the serious incursions decreased last year, we have 
had a 12 percent increase, and we are now near the record high 
of 2001, isn't that correct, in overall incursion incidents?
    Mr. Sturgell. The overall number of incursions, when you 
include all categories, did increase. And you will see a 
further increase this year because we have changed the 
definition, moving to the definition that ICAO, the 
International Civil Aviation Organization, supports, which will 
make our reporting consistent with other countries around the 
world.
    So previous surface incidents that we did not classify as 
any type of category of runway incursion, we are now including 
in those overall numbers.
    Senator McCaskill. When did that change go into effect?
    Mr. Sturgell. That change went into effect this fiscal 
year.
    Senator McCaskill. OK.
    Mr. Sturgell. So they will go up. I will tell you what is 
frustrating to me personally as a pilot about this particular 
area are the instances that we are seeing where controllers are 
saying the right thing, pilots are hearing the right thing and 
reading back the right thing, but then they are doing something 
different. It is a human factors element that is present in a 
lot of these safety issues that is very tough to get at.
    Senator McCaskill. Do you believe that controller fatigue 
is a contributing factor?
    Mr. Sturgell. I think, when you look at the NTSB's 
recommendations on fatigue as a result of its investigation 
into some of these incidents, the Board was particularly 
concerned about two things. One was a particular schedule that 
we have been using for decades at the FAA, which we refer to as 
a 2-2-1. It rolls your body clock forward throughout the week; 
but it is a schedule that our controllers like for a variety of 
reasons.
    The second thing that the Board identified was the need to 
have mandatory and recurrent training on personal fatigue 
management strategies. So, again, back to the pilot delays. The 
transportation industry in all modes depends on people being 
responsible during their time off, whether you are a commuting 
pilot coming in or whether you are an air traffic controller 
doing a quick turnaround. So we depend on people showing up for 
work rested, and we are going to carry through on those 
recommendations and take training strategies out to the 
workforce, both at the Academy and at our facilities as well.
    Senator McCaskill. I take it from your answer that you do 
think fatigue could be a contributing factor or is a 
contributing factor. Do you think it is a contributing factor 
to the incursion rate?
    Mr. Sturgell. I think the Board has identified fatigue in 
some of the ones they have looked at. And again, if you look at 
the specific events they analyzed, it comes down to managing 
your rest on your time off.
    So are there incidents where fatigue has been involved in 
the investigation process? Yes, there have been.
    Senator McCaskill. Well, if controller fatigue is on the 
NTSB's Most Wanted List and GAO has cited fatigue as a major 
issue, I know--and this has been covered by some of the other 
questioning, but I want to make sure that I get your 
commitment. There has been a recommendation that you work 
collaboratively directly with the air traffic controllers 
association. And I want to hear your commitment that you are 
willing to work directly with the air traffic controllers 
association to deal with this issue of fatigue.
    Mr. Sturgell. The Board has identified fatigue as an issue 
in all modes of transportation. We certainly do intend to 
follow up on the recommendations we have received. We have had 
one meeting that both I believe NATCA and I believe PASS also 
attended, and we will continue to work together with them on a 
work group on these recommendations. That is my commitment to 
you, yes.
    Senator McCaskill. Great. Because the impression that I got 
from reading all of the backup material for the hearing today 
was that you had not been willing to work one-on-one with the 
controllers on this particular issue, as NTSB had recommended. 
And what you are saying is that is no longer the case, that you 
are now willing to work with them one-on-one on this issue?
    Mr. Sturgell. My belief is there was a meeting in December 
with the FAA people that are involved in these recommendations, 
and that meeting did include representatives from PASS and 
NATCA.
    Senator McCaskill. Terrific. Thank you very much. Thank 
you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    And Mr. Sturgell, welcome. I congratulate you on your 
nomination as FAA Administrator. You certainly come to this 
position with an impressive resume with your many years at the 
FAA, as well as having had experience in all sectors of 
aviation, both commercial and military.
    So we welcome you to the Committee here today. And Mr. 
Chairman, I ask unanimous consent to include my entire 
statement in the record.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, for your steadfast leadership in 
facilitating the nomination before this Committee today--that of Robert 
Sturgell to be the Administrator of the Federal Aviation Administration 
(FAA). First of all, Mr. Sturgell, I would like to congratulate you on 
your nomination. Given your impressive resume during your many years at 
the Federal Aviation Administration (FAA) and prior to that, in both 
commercial and military aviation, there can be no doubt that the 
Administration has indeed selected an accomplished nominee. 
Unquestionably, you possess the professional acumen and broad 
knowledge-base central to understanding the vast complexities that are 
part and parcel of the world's busiest and largest aerospace and 
aviation sector. I thank you for your continued willingness to serve.
    However, I must admit, I do not envy the tremendous challenges you 
will face if confirmed. As you are well aware, the reauthorization of 
the Federal Aviation Administration has regrettably stalled here in the 
Senate. Our challenge is to resolve the handful of outstanding issues, 
jumpstart the process, and move the bill forward because, our aviation 
network, which is nearly at its breaking point, hinges on our taking 
appropriate, swift action. Time is of the essence as the lifeblood of 
our economy--our capacity to transport goods and people efficiently and 
effectively from destination to destination--threatens to become 
paralyzed and imperiled.
    I believe that nothing less than a transformation of the FAA 
culture is required to usher in a new era of aviation in this country, 
and accomplishing that goal will be the task placed in your hands as 
you manage, guide, and shepherd that change. For too long, the FAA has 
been in the practice of patching holes, rather than confronting 
systemic demands that place undue pressure on the entire aviation 
sector. Preeminent among these demands is the implementation of the 
NextGen air traffic management system that is on time and on budget. An 
enormous undertaking, the successful development of this system will 
reduce delays, improve efficiency, and accommodate the projected 
increases in air travelers by allowing for a greater number of 
aircraft. The phenomenon of the Very Light Jet, for example, is 
symptomatic of the necessity for a new, more flexible approach. In 
fact, orders are coming in for these aircraft faster than they can be 
built! And so, it is imperative that we create a process for handling 
the anticipated future growth in aircraft and passengers.
    And make no mistake, we cannot afford to slacken or lessen our 
efforts in the interim--far from it--as the FAA must improve upon its 
management of an antiquated ground-based radar, curb and even reverse 
the rash of retirements further debilitating the already-decimated 
ranks of our experienced air traffic controllers, lower the record 
number of delays and cancellations, and restore customer service 
standards that have hit rock bottom. Confronting any one of these 
issues alone would prove to be daunting task, but addressing them all 
together is undeniably a herculean challenge--one which, if confirmed, 
you will be entrusted to accept and meet.
    There are also more immediate, front-burner topics which I would 
like to address. For example, currently, the Administration's effort to 
relieve the pressure at New York City's three major airports is front 
and center in the media. While I'm certain many of my colleagues have 
questions about that particular plan, it reflects the 
interconnectedness of our national aviation network. Moreover, my home 
state of Maine has been following the Administration's plan with great 
interest, especially deciphering the impact that flight caps or 
congestion pricing could have on any non-hub communities. With more 
than a third of all U.S. air traffic using New York City airspace, I 
believe any rule established by the FAA and the Administration in 
advance of the 2008 summer travel season must consider the 
ramifications on service at smaller communities such as Portland, 
Maine.
    Additionally, these mid-sized cities and towns are also suffering 
from acute understaffing at air traffic control towers. While the FAA 
has admitted to some trouble with staffing levels at major hub airports 
such as O'Hare in Chicago or Hartsfield in Atlanta, a very real problem 
exists at towers such as those in Bangor and Portland. To make matters 
worse, the FAA has repeatedly underestimated, not only the numbers of 
retirees among the controller workforce, but also the willingness of 
eligible retirees to remain with the FAA. The fact is as staffing 
levels diminish, fewer and fewer qualified controllers are manning the 
towers in communities like Bangor--a pattern which jeopardizes safety 
and increases fatigue among remaining controllers. It is all the more 
paramount that we retain experienced controllers to train those 
individuals being brought aboard by the FAA. Merely throwing cash 
incentives at retiring controllers is a stop-gap measure at best, one 
that perpetuates the band-aid approach in the short term.
    Mr. Sturgell, you appear before the committee, having served in 
nearly all sectors of aviation . . . U.S. naval pilot, commercial 
pilot, advisor for the National Transportation Safety Board, aviation 
lawyer, counsel and counselor to the previous FAA Administrator, Marion 
Blakey, and now acting Administrator. We are truly fortunate to 
consider a nominee with the depth and breadth of knowledge and 
experience concerning aviation that you possess. It is my hope that you 
can tackle and manage the burgeoning number of issues that have a 
chokehold on our gridlocked air traffic system, and return efficiency, 
adaptability and productivity to America's air travel. Our country and 
our constituents deserve no less.
    Thank you, Mr. Chairman, and I look forward to hearing the 
positions of this very distinguished nominee.

    Senator Snowe. Mr. Sturgell, and I want to reiterate some 
of the issues that my colleagues have raised, most specifically 
my colleague from California, Senator Boxer, with whom I have 
joined to introduce the passenger bill of rights as part of the 
FAA reauthorization that, regrettably, is stalled on the floor 
of the Senate at a time in which this legislation should be 
moving forward.
    Pivotal moments, of course, facing the aviation industry 
and certainly the FAA with a complexity of problems, it is 
unfortunate that this legislation has stalled. But the 
passenger bill of rights I think is the de minimis. It is the 
bottom line, it is the minimum standards that we ought to 
assert that the industry ought to meet.
    I mean, they have had the opportunity for almost a decade 
now with the Voluntary Agreement back in 1999, where they would 
set minimum standards for passenger services. I mean, whether 
it is food and water and minimum time where they have to stay 
encamped on the plane on the tarmac, that hasn't happened.
    And given the fact that it hasn't gotten better, I mean, 
after we saw what happened even in December. Complaints were up 
by more than 40 percent of the previous year. It was the 
second-worst year on record in 2007. So, obviously, the airline 
industry has a lot to do.
    And I always maintain the amount of money people pay for 
passenger tickets today, they don't get much in return in terms 
of customer guarantees that they are going to get what they 
paid for. They face endless delays, certainly not much food on 
the aircraft, and not necessarily going to get to where they 
want to go.
    So what is the problem with the FAA insisting, requiring 
the industry to meet these minimum standards? I mean, the fact 
is states now, like New York, have already taken action. Other 
states are following suit. I understand the states of 
Washington, New Jersey, and Arizona are in the process of also 
adopting some type of passenger bill of rights.
    So, first of all, I would be interested to know, in your 
position, whether or not the FAA would honor those laws that 
are passed by individual states. Second, not preempting the 
state laws. And third, whether or not you are prepared to 
accept a certain standard and requiring that of the industry? I 
mean, hopefully, we will pass that legislation because I think 
the time has come.
    We have given the industry, I think, a lengthy period of 
time, almost a decade, to follow through on these commitments, 
and I think these are basic issues that the industry ought to 
be able to comply with. And if they can't, then we really have 
to--I think we have to demand it.
    Mr. Sturgell. Well, Senator, thank you. And I know you and 
Senator Boxer have been focused on this particular issue, and 
it largely rests with the department. And I am a little 
disappointed that I am not as up to speed as I should be on the 
particulars to which you are asking.
    But I think generally what we are trying to do is we have a 
proposal out that doesn't set specific requirements. We are 
certainly looking at the comments that will be coming in, 
though, and that we are working with the airlines. I know a 
number of them have adopted plans now for chronic delays, long 
delays on the tarmac.
    The Secretary has recently put a task force together, which 
will look at some of these issues. And with respect to the 
state laws, again I think there are some Federal-state 
preemption issues involved in that. But this is an area where I 
would certainly be glad to go back and learn a little bit more 
and then follow up with you on it.
    Senator Snowe. Well, I just--I think the time has come. I 
think it is long overdue, frankly. I mean, we all experience 
many frustrations at the airports, but you really have the 
opportunity to witness firsthand the desperate situations that 
so many airline customers are faced with. And even the 
Inspector General said that the Voluntary Agreement of 1999 has 
been ineffective.
    I mean, he issued a report last fall. Even in the hearing 
that was held here in the Committee, he testified that things 
have only gotten worse. So I don't see what the hesitancy is on 
the part of the FAA to assert certain standards ought to be the 
minimum we would require the industry, given the amount of 
money, given the investments that the U.S. taxpayer makes with 
respect to the aviation industry.
    I mean, there is no question that the Federal Government 
makes an enormous commitment to the aviation industry. So I 
think we do have an obligation to ensure that they are 
operating consistent with the rights of passengers. So I hope 
that we don't make this a complex issue because it should be 
basic issues, whether it is on food or water or the limited 
amount of time that they should be required to stay on an 
airplane if it is delayed and they are sitting out on the 
tarmac.
    I mean, I think that those are basic issues. Having 
operating restrooms. I just don't see what the problem is when 
it comes to those basic requirements. I mean, that should be 
simple and agreeable, and they haven't been willing to do it. 
The fact that some have and some haven't, we need a task force. 
I don't know what we need a task force about at this point. I 
really don't.
    And you go into a store, you buy something. If it doesn't 
work, you can return it. With the industry, that is not 
necessarily so. These people are paying hundreds, if not 
thousands, of dollars. Ruins vacations. I mean, just we know 
the litany.
    Now there are some things we can't control, like the 
weather. We understand that. But we also know there is 
overcongestion and the way in which these airlines have 
scheduled their takeoffs. And we have seen that. In fact, you 
indicated that in your own testimony before the House 
Committee. That it is clear that the way the airlines are 
scheduling today and the way they are operating it only is a 
prescription for disaster.
    So I hope that we can--I hope that you in your leadership 
position can assert that leadership in making sure that it is 
accomplished.
    Mr. Sturgell. I will certainly be discussing this with the 
Secretary and the Department.
    Senator Snowe. Well, I appreciate that because I think the 
FAA is at a point in time where you are facing a confluence of 
events. And bureaucratic nature is not going to be helpful to 
the process at a time you know the complex problems. And I 
think that for too long, the FAA has had to just patch the 
existing problems.
    But we have got some systemic and fundamental issues that 
have to be addressed, and certainly the FAA reauthorization 
initiative is very important. But we have got other issues. 
When we are seeing that retirement is debilitating an already-
decimated ranks of air traffic controllers, which is another 
major issue.
    And even in my State of Maine and both the city of Portland 
and Bangor, I mean, Bangor has seven certified controllers and 
four are able to retire today. But they are not able to 
retire--I have met with them recently. They are not able to 
retire because that would leave three of them, and there are 
four pending trainees.
    The same is true in the City of Portland. They have got 12. 
They should have probably 16 to 20, given the standards. And 
so, there are many waiting in the wings to retire. And yet 
there are not a sufficient number of trainees available to 
prepare so that they could retire. So that is another major 
issue that I hope that you are going to be addressing during 
the course of your tenure in an aggressive way.
    Mr. Sturgell. I will, and we are doing that now. We have 
hired over 1,800 controllers last year and will hire 1,800 
again this year, Senator. It is critical that we execute now on 
the training side.
    Senator Snowe. Finally, I know that--I gather that you have 
been part of this process evaluating what will be done in the 
New York metropolitan area with the three major airports and 
providing a cap. Have you been involved in that process?
    Mr. Sturgell. I have.
    Senator Snowe. Yes. And obviously, from the perspective of 
my state and depending on airlines being able to go in and out 
of those airports, are you considering the impact on smaller 
areas and non-hub communities, for example, in terms of that 
cap and the allocation of slots?
    Mr. Sturgell. We are involved in the allocation of slots, 
but the schedules themselves and the destinations are the 
responsibility of the carriers. We will certainly monitor this. 
We have not seen that kind of problem with the caps in Chicago. 
I don't expect there to be those types of problems. And as I 
said earlier, we are actually adding over 100 flights at JFK, 
even though we lowered the maximum hourly operational rate.
    Senator Snowe. So can those--can my commuters in Maine be 
assured that they won't be negatively affected or adversely or 
disproportionately affected, I should say, with respect to 
those caps? Because that is a major issue. I mean, smaller 
communities oftentimes are on the short end, and yet they are 
contributing taxpayers and deserve the right to have access to 
major airports and consistent airline schedules.
    Mr. Sturgell. Again, Senator, the schedules, the 
destinations themselves are the responsibility of the carriers. 
I know the carriers are aware of the small community service 
issue, and we will monitor it.
    Senator Snowe. Well, OK. I would appreciate it. But I do 
think the FAA does have a responsibility because every state 
should have the opportunity to have some access to major 
airports because there are only so many major airports, and you 
have to fly there. And I do think it is important because it is 
a public responsibility. It is not just simply a private 
responsibility since the taxpayers are financing much of the 
aviation industry and infrastructure that depends on it.
    So I would hope that we would make sure that smaller 
communities and rural communities and states are considered in 
the context because it is only fair. Otherwise, if that is the 
case, if you just deny them and ignore them and overlook them. 
And I just think that that has to be considered in the 
allocation. Because there have been so many times where there 
have been proposals that would have adversely affected smaller 
communities and states as a result of the effect of those 
proposals.
    Mr. Sturgell. Fair enough, Senator. I understand your 
concern.
    Senator Snowe. I appreciate it. Thank you. Thank you, Mr. 
Sturgell.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Lautenberg?
    Senator Lautenberg. Mr. Chairman, I will try not to keep us 
very much longer. I thank you for your patience, and I thank 
Mr. Sturgell and Mr. Gros as well for continuing to stay with 
us.
    We discuss population for posts filled, and there is always 
a disagreement, or as long as I can remember there is a 
disagreement, between the number of full-performance 
controllers and trainees and so forth. And you just talked 
about hiring 1,800? How many a year did you say?
    Mr. Sturgell. Yes.
    Senator Lautenberg. And when I talked before to you, we 
used the term ``retirements.'' But that is not total attrition. 
That is not total departures.
    And when we examine the record and we look back at a time 
when I had the opportunity to talk to Madam--to the 
Administrator Blakey and I asked a question about working 
conditions with air traffic controller workforce, there hadn't 
been any negotiated agreement with the representatives of 
NATCA, and Ms. Blakey said, ``I think the effect of the work 
rules and pay that we put into place in September did cause an 
uptick in retirements last fall.'' That was 2006. ``We saw 
about a 25 percent increase. I think it was a negative reaction 
on the part particularly of some of the controllers to that.''
    One of the questions that has arisen, Mr. Sturgell, is the 
management and the morale of FAA, and you were part of that 
management, very frankly. And we look at things and you are--
you seem to be satisfied with your pace of replacements and so 
forth.
    But in Sunday's Washington Post, there was a story that 
said about 14,857 controllers on the staff as of late December, 
11,000 were certified controllers, or 74 percent of the 
workforce. In 2000--now the period that we just used was 2007--
in 2000, we had 12,576 controllers, as contrasted to 11,026, 
when there is a lot more activity now than there was then. They 
were the fully certifieds out of 15,153 controllers in 2000, 
about 83 percent of the workforce.
    Now it is being said that we have 11,026, compared to 
12,576; 74 percent of the workforce are fully trained--
substantially less than we had in 2000. And yet we can't seem 
to get an agreement from you, Mr. Sturgell, that says that we 
have got to do a heck of a lot more than we have.
    Because there has not only been substantial retirement, but 
departures for other reasons, including the changes in the work 
rules. You were part of that, of the management team at that 
time. So I think we have to get this squared away. And I would 
like you to respond specifically to these comments made in the 
GAO report and in The Washington Post.
    I have a question about what we have done to provide the 
safety mechanism that we should have. And it says here in the 
GAO report, ``FAA is not following its order issued in 2002 
that directs the Office of Runway Safety to coordinate and 
monitor activities throughout the agency to ensure that runway 
safety goals are met. The absence of coordination and national 
leadership impedes further progress on runway safety because no 
single office is taking charge of assessing the causes of 
runway safety problems and taking the steps needed to address 
these problems.''
    How do you respond to that?
    Mr. Sturgell. Senator Lautenberg, as I talked to Senator 
McCaskill earlier, I think this is an area where you just can't 
let up. I do believe there has been national leadership, and I 
think that is why the number of serious runway incursions 
declined over the last several years. But this--again, this is 
an area where we are focused on, where we have meetings 
together as an agency across the lines of business, where we 
have reached out to the community, the associations, the 
carriers----
    Senator Lautenberg. Then why is it still--why are we still 
in the situation that we are? That this report of very recent 
vintage says that it hasn't been paid attention to. How do we 
account for the differences of view here?
    Mr. Sturgell. Well before that report came out, in the 
summer, we had a call to action focusing on runway safety that 
involved the carriers, and the labor unions. It involved FAA 
personnel here at headquarters and in the regions. And again, 
before the report came out, we were at 25 airports around the 
country with runway safety action teams, and very shortly we 
are going to be going to another 20 airports. And I expect this 
year we are going to be doing things like approve investment 
decisions for runway safety technology.
    So----
    Senator Lautenberg. Well, the report, the order, was issued 
in 2002, half a dozen years ago, and it sounds like we are 
still trying to play catch-up.
    I have one more question, Mr. Chairman. That is the total 
cost of the New Jersey and New York Airspace Redesign project, 
do you know what that cost is going to be?
    Mr. Sturgell. I believe it was $53 million over about a 9- 
or 10-year period.
    Senator Lautenberg. Has the agency done a cost-benefit 
analysis and to this point in time?
    Mr. Sturgell. We are not required to do the formal cost-
benefit analysis for airspace redesign projects, but again, the 
cost we spent was $53 million. The benefits we are 
conservatively estimating are $300 million in savings and a 20 
percent delay reduction as compared to 2011.
    Senator Lautenberg. Three hundred million dollars in 
savings over what period of time, Mr. Sturgell? Three hundred 
million dollars in savings?
    Mr. Sturgell. Right. I think that is an annual number, but 
I will have to get back to you on that.
    Senator Lautenberg. And the total cost for this redesign 
was?
    Mr. Sturgell. Fifty-three million dollars.
    Senator Lautenberg. Fifty-three million? I will tell you 
what I would appreciate, I would ask you to submit it in 
writing to me, please, so that we have it for the record.
    Mr. Sturgell. I would be pleased to do that, yes.
    Senator Lautenberg. Mr. Chairman, thanks very much for your 
patience, the opportunity to review all of these questions, and 
we thank the witnesses for their participation.
    The Chairman. Mr. Sturgell, you should get overtime pay for 
this performance. You have heard the frustrations of the 
Committee on delays and such, but we all recognize that you are 
not Superman. Your control over weather is limited. Your 
control over the budget of the U.S. Government is very limited. 
And you have very little control over illness in the cockpit. 
And so, though we may be requiring you to do the impossible, we 
just hope you can do the best.
    And at this point, I think we should be thanking you and 
the agency for making the air transportation in the United 
States the safest in the world. People may not realize that. 
And in on-time landing and discharge of passengers, we lead the 
world. And so, there are good things that we could be speaking 
on.
    I will be submitting a few questions, technical ones that I 
wanted just for clarification. Mr. Gros, you may have felt you 
were left out and ignored, but be happy.
    Mr. Gros. I am fine. Thank you, Senator.
    [Laughter.]
    The Chairman. I will be submitting questions to you on 
something that began, I believe, in May of 2001, a process to 
improve maritime safety, port facilities, et cetera, SEA-21. I 
am certain you know of that. I just wanted to know when can we 
expect the package to be delivered to us?
    Mr. Gros. Senator, thanks. I don't know off the top of my 
head, but I will be sure to get back to you.
    The Chairman. And I have two questions. One on the Mexican 
border crossing, on trucking. We have had some disagreements. I 
would like to know why. And the other one has to do with 
Amtrak. We seem to be disagreeing there also. And if you can 
give us a reason why the administration is not too keen about 
our legislative policy, let me know.
    And with that, I would like to thank both of you for this 
excruciating morning. But please keep in mind that we are most 
grateful to you for your service to our Nation. And on that 
point, thank you.
    [Whereupon, at 12 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I would like to welcome both of our nominees and their families to 
the Committee. Mr. Chairman, I will be very brief so we can hear from 
our nominees.
    The U.S. aviation system, despite its age and the current strains 
being placed upon it, remains the safest system in the world. That is 
something that everyone involved in aviation can be deeply proud. But, 
maintaining this safest system in the world is only getting more 
challenging.
    Mr. Sturgell, you have been nominated to one of the hardest jobs in 
government. I do not need to tell you that fact. Unfortunately, you are 
not going to get a lot of support from this White House to do your job, 
especially this year. I think you know that too. But, the FAA 
Administrator's job is one of the most critical, especially right now, 
and I know you understand the challenge that this job represents.
    I think we all recognize the U.S. must significantly expand the 
capacity of our Nation's air transportation system to make sure that we 
continue to have the most effective, safe and secure aviation system in 
the world.
    During next week's Aviation Subcommittee hearing on the FAA's 
budget, I will press you specifically on how the FAA is going to meet 
this goal.
    Although many are unaware of the issue, the FAA faces an immediate 
crisis regarding its ability to pay 4,000 employees after this month. 
In addition, the FAA has not been able to make airport infrastructure 
grants this year.
    Mr. Sturgell, I want to commend you for the way you are working 
with the Committee on the current funding crisis facing the FAA. You 
have acted in a professional, non-partisan manner, and in the best 
interest of the employees of the agency. I know the Chairman shares my 
commitment to getting this issue resolved.
    By most accounts, you have served ably as the Deputy Administrator 
for 5 years and as Acting Administrator for the last 6 months. But, I 
will be honest with you. As part of your confirmation process, you will 
have to answer for the Administration's policies, actions, and budgets 
over the last several years.
    It may not fair to have to account for decisions that were not 
entirely yours, but as part of the FAA's leadership for the last 5 
years and potentially for five more, the Committee needs to know how 
you are going to improve employee morale, secure adequate resources in 
the tight budgetary times, keep communication open between the FAA and 
Congress, and make sure that the modernization of our aging air traffic 
control system is kept on schedule and on-budget.
    I do not mean to neglect our other nominee. Mr. Gros, this 
Administration is not known for its free flow of information to 
Congress. I know that the White House and OMB impose limits on your 
ability to communicate with us, but I would urge you to keep the lines 
of communication open.
    I look forward to your testimony.
                                 ______
                                 
                 Air Transport Association of America, Inc.
                                   Washington, DC, February 6, 2008
Hon. Daniel K. Inouye,
Chairman,

Hon. Ted Stevens,
Vice Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Inouye and Vice Chairman Stevens:

    On behalf of the Air Transport Association and its member airlines, 
I am writing to affirm our unqualified support for the appointment of 
Acting Administrator Robert Sturgell as the next Administrator of the 
Federal Aviation Administration. As the Committee considers this 
matter, I urge you to confirm his appointment at the hearing tomorrow.
    Acting Administrator Sturgell is in the unique position to provide 
the strong leadership, vision and critical continuity that will enable 
the Federal Aviation Administration to meet the many challenges that it 
is facing, particularly the urgent need to modernize our Nation's air 
traffic control system. Significant, strategic decisions on system 
redesign and implementation priorities must be made now, not in 2 
years. We cannot afford to delay this process.
    As in the past, I appreciate the commitment of the Committee to 
ensure the safety and integrity of the national aviation infrastructure 
and community.
            Sincerely,
                                              James C. May,
                                                 President and CEO.
                                 ______
                                 
                       National Business Travel Association
                                   Alexandria, VA, February 5, 2008
Hon. Daniel Inouye,
Chairman,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Inouye:

    On behalf of the National Business Travel Association, I urge you 
to support the nomination of Robert Sturgell as Administrator of the 
Federal Aviation Administration. His extensive experience in various 
sectors of the aviation community has earned him respect and confidence 
throughout the industry. Based on his experience and leadership at the 
FAA during his tenure as Acting Administrator, NBTA believes he is well 
qualified to advance the FAA's key policy and modernization initiatives 
which would improve the travel experience for the business travel 
community.
    Sturgell has proven himself as a capable leader as Deputy 
Administrator from 2003-2007 and as Acting Administrator since 
September of 2007. With substantial challenges facing the aviation 
industry, it is of critical importance that the Congress provides the 
aviation community with long-term stability with a confirmed FAA 
Administrator for a full 5 year term. We believe Mr. Sturgell is able 
to confront those challenges and lead the FAA into the future. We look 
forward to further developing a strong relationship between NBTA and 
the FAA under Administrator Sturgell's leadership to strengthen and 
improve America's aviation system.
    NBTA is actively involved with the U.S. Department of 
Transportation and the FAA as it seeks to improve the travel 
experience. We recently submitted comments to DOT regarding three 
proposed regulations aimed at alleviating air traffic congestion and 
improving airline customer service. While we do believe regulatory 
solutions are important, we also urge Congress to move quickly to enact 
legislation to provide the FAA with new funding mechanisms that ensure 
that all aircraft users of the air traffic system contribute fairly in 
building a 21st Century aviation system.
    The authoritative voice of the business travel community, NBTA 
represents over 3,000 corporate travel managers and travel service 
providers who collectively manage and direct more than $170 billion of 
expenditures within the business travel industry, primarily for Fortune 
500 companies. NBTA is the leading international association to 
represent the corporate travel community.
            Sincerely,
                                              Bill Connors,
                    Executive Director and Chief Operating Officer.
cc: Vice-Chairman Ted Stevens
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Hon. Robert A. Sturgell
    Question 1. In a January 7, 2008, meeting at Kona Airport in Kona, 
Hawaii, I was assured, in person, by representatives of Federal 
Aviation Administration (FAA) Headquarters that funding for the Kona 
air traffic control (ATC) tower would be included in the Fiscal Year 
(FY) 2009 budget. Can you tell me where the funding for the Kona tower 
project is located in President Bush's FY 2009 budget request and how 
you plan to provide such funding? Does the FAA still anticipate 
completing the Kona ATC tower by 2011 as I was promised last month?
    Answer. The Kona tower is expected to be completed in 2011 and 
commissioned in 2012 when training and other preparation for the 
facility are concluded. Although funding for the new Kona air traffic 
control tower is not in the FY 2009 budget proposal, the Federal 
Aviation Administration (FAA) is in the process of requesting authority 
to reprogram funds that would otherwise expire at the end of this 
fiscal year to fund the Kona tower.
    This approach is consistent with the spirit of the commitment made 
by FAA officials to provide the resources needed to move forward on the 
design and build of this tower. Additionally, making use of funds that 
would otherwise expire makes good business sense and demonstrates FAA's 
desire to make the most efficient use of its resources.
    In future budget submissions, we will request additional funding as 
necessary to complete the project on schedule.

    Question 2. Why has the ASDE-X system, an air traffic control 
system which helps track planes on the ground at airports, not been 
installed at some of the largest airports in the system, such as New 
York's Kennedy, LaGuardia, and Newark? What is the status of the 
implementation of such systems at Hawaii's Honolulu International 
Airport?
    Answer. The Airport Surface Detection Equipment, Model X (ASDE-X) 
is a surface surveillance system that aids air traffic controllers in 
tracking the surface movement of aircraft and vehicles. The FAA plans 
to deploy ASDE-X systems to 35 airports. Eleven systems have already 
been commissioned. The remaining 24 systems are in various stages of 
the ASDE-X implementation process. Because of my commitment to 
improving runway safety, I asked my team to accelerate the deployment 
of the remaining ASDE-X systems. This may increase the baseline cost of 
the system, but I believe it is a good use of taxpayers' dollars to do 
so.
    ASDE-X was originally a less expensive surveillance system designed 
for second tier airports. Nevertheless, the design was so successful 
that in 2005, FAA decided to bring it to the busiest airports in the 
country. Some of the largest airports in the system, including New 
York's Kennedy, LaGuardia, and Newark, were not among the first sites 
to receive ASDE-X systems because they already had surface surveillance 
systems, such as Airport Surface Detection Equipment, Model 3 or the 
Airport Movement Area Safety System. However, I have directed my team 
to expedite the implementation schedule at JFK. We expect to begin 
initial operations of ASDE-X at JFK this summer, nearly 1 year ahead of 
schedule. We are working with the Port Authority of New York and New 
Jersey and airlines at JFK to provide additional ASDE-X ramp and gate 
coverage data. We plan to have preliminary ASDE-X data available by 
June 30, 2008.
    At Newark, we are completing site preparation/construction and 
equipment installation. We expect ASDE-X initial operations at Newark 
to begin in July of 2009.
    Because we are building a new airport traffic control tower at 
LaGuardia, we are timing the installation of the LaGuardia ASDE-X to 
coincide with the new tower. We expect initial ASDE-X operations to 
begin in December 2010.
    Honolulu is scheduled to be operational in May 2010. We are 
currently in the engineering design phase at Honolulu. The FAA is 
working on obtaining leases, completing environmental requirements, 
ordering telecommunications, etc.

    Question 3. To what extent does air traffic controller fatigue 
contribute to the safety incidents you have seen over the past few 
years, and what is the FAA doing to address the issue?
    Answer. We have convened a working group on controller shift 
scheduling addressing potential fatigue affects on all safety-critical 
personnel across our entire controller and technician workforces, as 
well as the supervisors and managers assigned to oversee these 
positions.
    Representatives from all FAA operational service units and 
technical representatives from the FAA Civil Aerospace Medical 
Institute (CAMI) have been invited to participate. The working group 
also depends on labor unions such as the National Air Traffic 
Controllers Association (NATCA) and the Professional Airways Systems 
Specialists (PASS) to provide critical subject matter expertise. These 
unions have had the opportunity to review relevant fatigue research, 
which has initiated discussions regarding possible approaches to 
minimize the effects of schedule-related fatigue.
    In early January, I sent a letter to NATCA, asking for their views 
on the two specific issues raised by the NTSB: the ``2-2-1'' schedule, 
and personal fatigue management strategies. To date, there has been no 
response.
    Additionally, fatigue awareness and countermeasures training 
materials are currently under development for the basic air traffic 
control course offered by the Air Traffic Controller Training and 
Development Group in Oklahoma City in coordination with CAMI.
    We are also close to signing an agreement with NATCA to establish 
the Air Traffic Safety Action Program (ATSAP), which will provide us 
with information previously unavailable to us regarding the human 
factor issues associated with incidents and accidents. Our ATSAP 
initiative with NATCA will specifically give us access to fatigue 
information, as it will be a part of every report. I signed the 
agreement on February 14, and we are waiting for NATCA's signature.
    Finally, we will host a fatigue risk symposium. The purpose of this 
meeting is to: (1) provide senior aviation decisionmakers and managers 
a current understanding of fatigue physiology risk assessment and 
mitigation alternatives, and (2) develop proposals for near and long-
term initiatives and awareness of best practices that can be embraced 
by the aviation community to mitigate fatigue risk.

    Question 4. What are the top three things you believe the FAA needs 
to continue to improving safety?
    Answer. I have seen the system from all angles: at Top Gun, as a 
commercial airline pilot, as an accident investigator and now as a 
regulator. Even with all of this experience, the perspective that still 
matters the most is that of the passenger.
    The FAA must improve its ability to deliver a safe, efficient and 
consistent experience to the passenger. Our ability to make that happen 
hinges on the launch of new technology and procedures, specifically in 
the form of the Next General Air Transportation System (NextGen). 
NextGen eliminates the ground-based technology of last century and 
instead relies on satellites and increased automation for safety and 
efficiency. Implementing and operating NextGen will require effective 
labor-management relations and a highly trained, professional 
workforce.
    With a billion passengers and double traffic loads headed our way, 
NextGen is not the luxury system of the future. Rather, it's a 
foundation that we must begin putting in place now to safely and 
efficiently accommodate the unparalleled growth that has been forecast.
    Secondly, at the very core of increased safety is the transition 
from forensics-based analysis to a predictive approach. As the system 
becomes more and more safe, the causes of accidents diminish. By 
sharing safety information between and among airlines, pilots, 
engineers, technicians and inspectors, we are able to look at trends 
that point to what could become an accident. They are eliminated before 
they manifest themselves in tragedy.
    Waiting for the accident to occur is no longer acceptable. We are 
integrating various databases through the Aviation Safety Information 
and Sharing system. This system identifies trends and risks before they 
manifest themselves in accidents. We are also close to signing an 
agreement with NATCA to establish the Air Traffic Safety Action Program 
(ATSAP), which isolates human factor issues associated with incidents 
and accidents.
    Lastly, we must continue with our collaborative approach to 
operating the system. We now design daily airplane flow strategies with 
the airlines at our command center. We are also working with industry 
to implement an entirely new approach to improving safety, called the 
Safety Management Systems. This approach to safety management calls for 
industry to identify hazards and put risk mitigation strategies in 
place. Again, it is all about developing processes, procedures, and 
strategies to minimize risks and identify a problem before it leads to 
an accident.

    Question 5. Congress has made funding for the inspector workforce a 
priority. What is the FAA doing to ensure adequate inspector staffing? 
How are you dealing with the staffing shortages?
    Answer. I appreciate the support Congress has provided to the FAA 
through increased funding to hire additional safety employees. 
Historically, we have linked inspector staffing levels to growth in the 
industry--when industry was projected to grow 5 percent, we would 
estimate an increase in staffing of 1.5 percent to 2 percent. While 
this link has worked relatively well, we are aggressively working on an 
inspector staffing model that will help us forecast future needs. This 
model will be completed in October 2009.
    In FY 2007, the FAA hired over 400 aviation safety inspectors 
through positions that became vacant during the year and new hires. 
Given attrition rates of the last 2 years of about 8 percent, I will 
continue to support the hiring of over 517 aviation safety inspectors 
in FY 2008 while leveraging the Designee Program and Safety Management 
Systems in order to meet industry demands and provide the necessary 
oversight of the expanding air transportation system.

    Question 6. What is the agency's strategic plan for ensuring a 
fully staffed and productive workforce in light of the number of 
inspectors eligible to retire in 2010? I understand that it takes at 
least three to 5 years for an inspector to become fully trained and 
productive. Has the agency figured this training period into its plan?
    Answer. We believe our current attrition rate of approximately 8 
percent annually will decrease to 5.5 percent in the future because of 
the implementation of our recruitment strategies. Also, we do not have 
a mandatory retirement age for our inspector workforce.
    Many of our inspectors bring tremendous experience from years in 
private industry or the military. This experience, along with formal 
training and targeted on-the-job training (OJT), gives managers the 
flexibility to immediately use the expertise of the new employee and 
chart a path to full proficiency in all tasks within 3 years. The 
Flight Standards Service has taken a number of steps to reduce the time 
for inspectors to reach that level.

  <bullet> We have implemented a compressed resident training schedule, 
        which allows us to train more inspectors more quickly. We are 
        committed to having new inspectors successfully complete their 
        resident indoctrination training within 6 months of their 
        entrance on duty.

  <bullet> We also shifted from a classroom-based training program to a 
        training program that uses a blend of distance delivered 
        training and classroom delivered training. This allows our 
        inspectors to start their formal training program after 
        reporting to their office and provides the critical foundation 
        for their resident training.

  <bullet> Our structured OJT program helps them effectively integrate 
        their formal training with the work they are assigned in their 
        office.

    Question 7. The National Transportation Safety Board continues to 
highlight the need for improved runway safety, specifically 
recommending that incursion alerts be provided directly to the pilots 
in the cockpit. What is the FAA doing to respond to this recommendation 
and how long will it take to make it happen?
    Answer. We are developing strategies to provide alerts directly to 
the pilots. The development and testing of Runway Status Lights (RWSL) 
is one such initiative. Albeit not in the cockpit, RWSLs provide 
``direct pilot'' alerting (described below) and are used in conjunction 
with the ASDE-X system scheduled for deployment at our busiest 35 
airports--11 ASDE-X systems are fully deployed and the majority of the 
remainder will be deployed by 2010 with a few final implementations 
scheduled for 2011.
    When the ASDE-X system detects traffic creating a potential 
problem, the RWSLs will illuminate, giving the pilots direct warning of 
the situation. RWSL deployment is on schedule with a prime contract to 
be awarded in the summer of 2008 and deployment to 21 sites to be 
completed FY 2011.
    We are also testing a system to alert pilots when a runway they are 
about to land on is occupied. This direct pilot alert lighting system 
is called the Final Approach Runway Occupancy Signal or FAROS. The test 
has been successful at Long Beach Airport and I am expanding the test 
to Dallas-Fort Worth to include some new system capabilities, such as 
an interface with the RWSL safety logic. If the tests are successful, 
this system could be deployed as early as 2012.
    We recognize that ground surveillance technology is foundational to 
any ground movement safety system that provides direct pilot alerting 
capability and we are pursuing cost-effective ways to make this 
technology more widely available throughout our system. To that end, I 
have directed the establishment of a pilot program to evaluate Low Cost 
Ground Surveillance (LCGS) systems that can be installed at small- and 
medium-sized airports where ASDE-X technology may not be a cost-
effective solution. Under this pilot program, we will install and 
evaluate commercially available LCGS products at six airports during 
2009. We expect that this pilot will lead to technology solutions that 
we can deploy more broadly to enable pilot alerting tools like RWSL and 
FAROS at airports where these capabilities are needed. Earlier this 
month, we began this process by releasing a market survey to identify 
potential industry participants and we expect to award contracts to 
acquire and install selected LCGS systems during the summer.
    In the long term, the FAA has issued a Notice of Proposed 
Rulemaking (NPRM) that would make Automated Dependent Surveillance-
Broadcast (ADS-B) equipage required by 2020 for operations in certain 
airspace. This system, when fully developed and deployed, is capable of 
directly informing and alerting pilots of aircraft and vehicles 
operating on and around an airport. Standards for this direct pilot 
alerting capability are under development, with laboratory simulations 
scheduled in 2008 and a planned operational evaluation at Philadelphia 
International Airport (PHL) in 2010.
    I have also taken steps to significantly streamline the 
certification of Global Positioning System (GPS) moving map technology 
to improve a pilot's situational awareness while operating on an 
airport. The standards for such a system are approved for use in a 
pilot's electronic flight bag, and it is anticipated that several 
manufacturers will achieve fully certified capabilities this year.

    Question 8. What specific steps is the FAA taking to address 
congestion and delay in the New York region? How much progress has the 
FAA made in achieving these measures?
    Answer. The FAA's preferred approach to addressing congestion and 
delay is to increase capacity to meet demand. Long-term, the capacity 
improvements that the NextGen system makes possible will combat 
congestion in New York and around the country. However, the New York 
metro airports are near saturation and will not be able to increase 
physical capacity at a sufficient level to keep pace with current and 
future demand.
    On December 19, Secretary Peters announced new actions designed to 
reduce congestion in the New York area starting next summer. The new 
measures developed at the direction of President Bush last Fall 
included:

  <bullet> The New York Aviation Rulemaking Committee (ARC) was 
        developed in late September and concluded on December 10. This 
        Committee had representatives from airlines, interest groups, 
        the Port Authority of New York and New Jersey, and the State of 
        New York. The ARC held weekly meetings from September to 
        December and discussed a wide-range of options for reducing 
        delays and managing congestion in the New York region.

  <bullet> Among other things, the New York ARC identified 77 
        initiatives to improve the operational efficiency of one or 
        more New York airports. Many of these initiatives were 
        identified in collaboration with the Port Authority of New York 
        and New Jersey.

  <bullet> A voluntary order was issued on January 16, 2008, to cap 
        hourly operations at John F. Kennedy International Airport 
        (JFK). Flights are capped at an average of 82 to 83 per hour 
        during the peak period. At the same time, about 50 additional 
        flights will be accommodated by moving flights from peak times 
        to other times during the day. The hourly caps will take effect 
        March 30, 2008, and will be in place for 2008 and 2009.

  <bullet> Negotiations on a voluntary cap for summer 2008 and 2009 at 
        Newark Liberty International Airport (Newark) are ongoing.

    Other ongoing actions include:

  <bullet> Further implementation of airspace redesign to have more 
        efficient approach and departure paths for JFK, Newark, and 
        LaGuardia airports;

  <bullet> Development of a New York Area Program Integration Office. 
        An aviation ``czar'' was recently appointed to serve as 
        director of the newly-created office; and

  <bullet> A new Federal advisory task force that will help airlines 
        and airports better coordinate when unexpected weather strands 
        passengers on tarmacs and in airports.

    In addition to the actions announced by the Secretary on December 
19, the Department of Transportation issued a proposal on January 11 
that would amend the FAA's ``Policy Regarding the Establishment of 
Airport Rates and Charges.'' These proposed amendments are intended to 
provide greater flexibility to operators of congested airports. The 
public comment period on these proposed changes closes April 3, 2008.
    The FAA also intends to propose regulations to limit the number of 
unscheduled flights and to require a reservation to operate during 
controlled hours for JFK, LaGuardia and Newark airports to further aid 
in dealing with delays.
    Finally, the Department of Transportation is pursuing a rulemaking 
for longer-term congestion mitigation in New York. The Administration 
is interested in the possibilities of market-based measures and will 
proceed with notice and comment to all the stakeholders as we move 
forward.

    Question 9. What are your views on congestion pricing and slot 
auctions? Can you point to any specific examples where the benefits 
have been proven in prior initiatives that have incorporated either of 
these concepts?
    Answer. The need to address airport congestion and delay remains an 
important policy focus of the Administration. I believe increasing 
capacity is the most appropriate response to the public's needs in the 
long run. While congestion pricing and slot auctions could serve to 
reduce delays where capacity is constrained, they would not serve to 
accommodate growth. This is why NextGen is so important.
    Even though FAA is taking steps to address congestion, forecasts 
indicate that some areas of the nation, in particular New York, will 
have difficulty in meeting air-traffic demand in the coming years. Over 
the past several years, FAA has undertaken extensive research efforts 
to explore the feasibility of various market-based mechanisms (such as 
auctions and congestion pricing) to manage congestion at capacity 
constrained airports where expansion is not feasible.
    We believe that pricing mechanisms, like congestion pricing and 
slot auctions, may be the most efficient way to allocate a scarce 
resource, because they make the resource available to those who value 
it the most. Pricing can balance demand with available capacity, 
resulting in more reliable schedules. Also, pricing sends better 
signals as to where the system needs extra capacity, and it can supply 
the revenues to add such needed capacity. That is why we are looking at 
market-based measures for longer-term solutions to congestion, 
particularly in New York. Although the airline industry is complex, we 
believe it is worthwhile to examine the benefits of applying these 
models to aviation.
    Every private industry uses pricing as a means to address demand. 
There are two examples of the use of pricing in the U.S. for aviation. 
First, Boston's Logan International Airport has a peak pricing plan 
that will give airlines the option to reschedule flights to less 
congested times or pay a fee for flying during peak periods. This plan 
will be implemented when the airport reaches a certain level of 
congestion. Second, the Port Authority of New York and New Jersey 
currently charges a nominal congestion fee. These fees were initially 
effective in changing behavior. Additionally, airlines use a pricing 
model in the sale of plane tickets. Flights at less attractive times 
are priced lower than flights at popular times.

    Question 10. The Department of Transportation recently proposed 
changes to the regulations governing the airport rates and charges to 
permit them to impose congestion charges. Are there examples where 
congestion charges have been used successfully at airports to manage 
congestion?
    Answer. On January 14, the Department published a Federal Register 
Notice of Proposed Amendments to the Airport Rates and Charges Policy. 
The notice proposes two changes and one clarification to the Rates and 
Charges Policy, and to add a definition of ``congested airport.''
    The first change would clarify that airports may use a ``two-part'' 
fee structure with an operation-based and weight-based element. The 
second change would permit an operator of a congested airport to charge 
for work under construction. Finally, the third change would expand the 
authority of an operator of an airport system to charge users of the 
congested airport in the system for the airfield costs of other 
airports in its system.
    If adopted, the amendments will allow a congested airport to raise 
the price of using its runways. This, in turn, could provide a 
financial incentive to aircraft operators to consider alternatives, 
such as scheduling flights outside of peak demand times, increasing 
aircraft size to use the congested runways more efficiently or meeting 
regional air service needs through alternative, less congested 
facilities.
    We are only aware of two prior examples of congestion charges, both 
of which are noted in the preamble to the amendments. The peak period 
pricing program established for Boston Logan Airport has not yet been 
triggered. I believe this is the first time the second and third 
changes have been considered to help airports relieve congestion. I 
believe these policies can effect a change to move at least a small 
number of aircraft operations out of peak periods at the most congested 
airports. The rescheduling of just a few flights to non-congested 
periods could have a significant impact on delay reduction.

    Question 11. To what extent would the FAA's proposed New York and 
New Jersey airspace redesign address congestion and delays in the area 
and across the nation?
    Answer. The 20 percent delay reduction described in the Record of 
Decision (ROD) is the extent to which congestion and delay will be 
addressed when Airspace Redesign is fully implemented. The analyses 
that supported the ROD did not cover the entire nation. However, more 
than 20 percent of the delays in the United States in 2007 occurred in 
the New York/New Jersey/Philadelphia area. Approximately one-third of 
the Nation's flights and one-sixth of the world's flights either start 
or traverse the airspace that supports the New York and New Jersey 
regions. As a result, any reduction in the delays for flights in the 
New York/New Jersey region will have a significant, positive impact on 
local, national, and global air traffic efficiency.

    Question 12. What assumptions are being made regarding aircraft 
equipage, pilot training, and air traffic controller training for each 
phase of this plan if there is to be absolutely no degradation in 
safety?
    Answer. We are not assuming any mandated aircraft equipage or 
equipment, but we do see some of the highest advanced navigation 
equipage levels in the New York/New Jersey/Philadelphia areas. As we do 
with all new procedures and airspace designs, training is provided to 
our workforce. We will continue to work with the aviation community to 
educate our customers on these changes and to ensure pilot training 
meets expected levels. We anticipate that each stage of implementation 
of the selected project will take approximately 12-18 months. Education 
and training are two crucial steps in our implementation planning 
processes.

    Question 13. Could you describe the methodology the FAA used to 
reach that conclusion, the estimated amount of time saved per flight if 
the redesign is implemented, and what alternative methods for 
addressing airline delays FAA considered and rejected?
    Answer. We did not estimate the delay reduction per flight since 
delay is not a linear concept. Instead, we looked at delay as a whole 
across the New York/New Jersey/Philadelphia metropolitan area. The time 
saved under redesigned operations, compared to a future in which no 
action is taken, was estimated from the output of simulations of the 
various possible alternative airspace designs, using state-of-the-art 
modeling techniques. Appendix C of the Environmental Impact Statement 
(EIS) provides the details. This document can be found at: http://
www.faa.gov/airports_airtraffic/air_traffic/nas_redesign/
regional_guidance/eastern_reg/nynjp
hl_redesign/feis/appendix. As described in chapter 2, section 2.3, of 
the EIS, the FAA considered alternatives to airspace redesign including 
increased use of alternative modes of transportation and communication; 
increased use of satellite airports; improvements to airport 
infrastructure; congestion management programs; and improved air 
traffic control technology. All alternatives but airspace redesign were 
rejected because they did not meet the purpose and need for the 
project.

    Question 14. What methodology did the FAA use to evaluate these 
environmental impacts? Could you describe the noise mitigation 
strategies the FAA intends to employ in affected communities? Did the 
FAA's analysis take into account the increase in noise likely to result 
from dramatically increased air traffic over the next 10 years?
    Answer. The analysis of environmental impacts used in the EIS is 
based on established methods, techniques, and practices that have been 
developed and refined in the industry (by both the government and 
private sector) over many decades. For noise analysis, the FAA used the 
Noise Integrated Routing System (NIRS) for regional noise analysis, 
which has at its core, the Integrated Noise Model (INM). INM is the 
primary tool used by the FAA (and about 1,100 users worldwide) to 
compute airport community noise exposure.
    The FAA took into account the forecast growth in aviation over the 
10 years between the project baseline and 2011. The analysis in the EIS 
forecast the same level of traffic growth both with and without the 
project. Impacts, including noise impacts, were calculated for the No 
Action Alternative and appear in chapter 4 of the EIS.
    The noise mitigation measures included in the selected project are 
described in detail in Appendices O and P of the Final EIS, which can 
be found at: http://www.faa.gov/airports_airtraffic/air_traffic/
nas_redesign/regional_guidance/eastern_reg/nynjphl_redesign/feis/
appendix. The approach to mitigation was to look for opportunities to 
refine the Integrated Airspace Alternative with Integrated Control 
Facility to mitigate noise impacts without sacrificing safety or the 
efficiency gains of the alternative. FAA refined headings to lessen the 
noise impact while maintaining the efficiency gains. Additionally, use 
of the headings was limited to those times when they were essential to 
maintain efficiency. For example, at PHL, we reduced the number of 
departure headings for east and west flow traffic. The headings chosen 
for noise mitigation tend to be grouped closer to the river corridors 
and thus minimize the number of people exposed to potential noise 
impacts caused by the selected project.

    Question 15. How do you rate the progress of NextGen to date? What 
are the primary obstacles FAA is encountering in the implementation of 
NextGen?
    Answer. The FAA has made good progress on NextGen to date. We have 
begun building the NextGen system with five ``foundational'' NextGen 
programs: Automatic Dependent Surveillance-Broadcast (ADS-B), Data 
Communications, System Wide Information Management (SWIM), NextGen 
Network Enabled Weather (NNEW) and the National Airspace System (NAS) 
Voice Switch.
    ADS-B and SWIM were the first NextGen projects and were introduced 
with the FY 2006 budget. A contract for the ADS-B ground infrastructure 
was awarded in August 2007. By December 2009, the agency expects to 
make the ``in-service decision'' that essentially commissions ADS-B for 
the NAS and certifies its use for air traffic control separation 
services. ADS-B is on track to be deployed nationwide by 2013.
    Significant progress has also been made with the SWIM program. The 
first segment of the SWIM program allows various FAA automation systems 
to exchange weather and flight data management information. A contract 
for a new Terminal Data Distribution System is expected to be awarded 
later this year. Initial capabilities will be available beginning in 
2010.
    Data Communications funding began in FY 2007. The FAA has been 
working directly with the airspace users to vet the proposed program in 
anticipation of an Initial Investment Decision this summer. The FAA 
will begin integrating Data Communications into our high-altitude air 
traffic automation systems in 2010 and offer air-to-ground data 
services in 2014.
    The FAA began funding NNEW and the NAS Voice Switch in FY 2008. 
These projects begin by translating operational needs into requirements 
and a concept of use that supports the NextGen vision. During this 
phase, the FAA works with stakeholders, including air traffic 
controllers, to develop requirements and assess alternative solutions 
that may satisfy our needs. Acquisition does not begin until these 
important steps have been completed.
    It is critically important that the work on all five NextGen 
foundational programs is underway today so that they will be 
operational in the NAS in time to meet projected traffic increases in 
the 2016 timeframe. However, we are beginning the transition to NextGen 
in advance of delivery of these programs. The transition to NextGen is 
actually occurring now as the FAA continues to move to space-based 
operations. New capabilities are being integrated into many of our 
existing systems to improve operations today.
    We are also expanding the use of advanced aircraft capabilities to 
provide safer and more efficient operations. We've deployed a new 
oceanic air traffic control system that uses satellites and electronic 
reporting of aircraft positions. We have reduced the separation 
requirements in the West Atlantic for aircraft equipped with advanced 
avionics. We have also established satellite-based routes on the West 
Coast.
    We have already completed a number of airspace projects that take 
advantage of advanced avionics and satellite-based technologies today. 
The Dynamic Airborne Reroute Procedures (DARP) allows aircraft to take 
advantage of updated flight information to re-route to a more 
advantageous flight plan while airborne. Satellite-based ADS-B is being 
used to separate aircraft in Alaska. The introduction of satellite-
based required navigation performance (RNP) approaches with lower 
minima in Alaska allows Alaska Airlines to access Juneau with far 
greater frequency than they have realized in the past. In Houston, the 
new Houston Area Air Traffic System (HAATS) and airspace redesign 
proposes to revamp Houston terminal and surrounding en route airspace. 
It includes new dual arrival routes and three new departure routes. The 
O'Hare Modernization Project includes new departure routes, new en 
route sectors and new arrival procedures to support triple arrivals in 
addition to new runways.
    This evolutionary approach provides for a smooth transition for 
pilots and controllers from operations of today to the changes required 
to fully achieve NextGen capabilities. This approach also allows for 
improvements throughout the NextGen investment period rather than 
waiting until 2025 to see benefits.
    The FY 2009 budget request includes funding that will be dedicated 
to refining operational concepts of use and performing other pre-
implementation analyses. This work will determine how the foundational 
NextGen programs will combine with new procedures, airspace and 
facility design, standards development and certification to change the 
performance of the air transportation system.
NextGen Challenges
    We must maintain the safety of today's air traffic control system 
while still developing new NextGen capabilities. This is a challenge. 
We have to use our resources to keep the NAS running while soliciting 
expertise from those same resources to support NextGen development.
    The complex NextGen enterprise and the difficulties posed by the 
required integration of the diverse elements of the system pose a 
significant challenge. We also face the challenge of merging today's 
facilities into NextGen facilities. Moreover, we have to obtain the 
human resources with the right skills sets needed to implement NextGen 
operational improvements.

    Question 16. The FAA has a history of mismanagement, cost overruns, 
and delays, in handling modernization programs. Is the agency 
experiencing problems with managing any of the current modernization 
projects?
    Answer. Since implementing new acquisition management policies over 
the past 5 years, we have taken significant steps to address key 
factors contributing to legacy cost, schedule and performance 
shortfalls. These steps include:

  <bullet> Implementing the Integrated Acquisition Management System 
        (AMS) and OMB's Capital Planning, Budgeting, and Acquisition 
        control process to track, analyze, and assess the risks 
        associated with FAA major capital investments;

  <bullet> Segmenting large or complex capital programs into manageable 
        phases to improve executive oversight and control. By 
        segmenting programs into phases such as development, 
        demonstration, and production, the Joint Resources Council 
        (JRC) is able to review incremental progress against cost and 
        schedule baselines and approve subsequent program phases based 
        upon program performance achieved to date;

  <bullet> Revising AMS to ensure that funding for contract audits 
        throughout a project's lifecycle are included in the 
        acquisition program baseline;

  <bullet> Requiring the use of Earned Value Management (EVM) 
        techniques for contracts where there are significant risks to 
        the government. EVM provides a consistent methodology for 
        measuring program progress and detection of underlying problem 
        areas. Major programs were assessed against the industry 
        standards for EVM compliance;

  <bullet> Requiring major acquisition program managers to be certified 
        by the Project Management Institute based on the industry 
        standard of the Program Manager's Body of Knowledge. Currently 
        all major capital acquisitions are managed by qualified, 
        certified program managers;

  <bullet> Launching a new graduate certification program in system 
        engineering to prepare engineers for NextGen;

  <bullet> Establishing a Capital Investment Team (CIT) within ATO to 
        review and evaluate the costs and benefits of existing and 
        proposed capital investments. The CIT also provides guidance 
        and recommendations for those investments seeking approval from 
        the JRC;

  <bullet> Implementing quarterly reviews within ATO with the Senior 
        Vice President for Finance and the ATO Service Unit Vice 
        Presidents responsible for management of the capital programs 
        within their domains. Financial status, acquisition baseline 
        milestones, annual milestones, earned value management 
        performance data and technical requirements stability are 
        covered in the reviews; and

  <bullet> Reviewing contract awards, including contract modifications 
        to existing contracts greater than $10 million, within ATO 
        Finance and by the FAA Chief Financial Officer prior to 
        approval.

    Although we acknowledge problems with some of the major 
acquisitions in the past, many steps have been taken in recent years to 
ensure all of our programs are managed well and meeting performance 
metrics and goals, and additional oversight is maintained through the 
life of the program until completion.

    Question 17. What primary steps would you take to ensure the air 
transportation system is modernized in an efficient and effective 
manner?
    Answer. The FAA has put into place a management and governance 
structure that will support efficient and effective integration and 
implementation of NextGen operational improvements. Under my guidance 
and direction, the ATO Vice President for Operations Planning is 
responsible for the integration and implementation of NextGen projects 
and capabilities.
    The Operational Evolution Partnership (OEP) Integration and 
Implementation Office is responsible for NextGen portfolio development 
and management, schedule and milestone tracking, and commitment 
monitoring. The office also ensures appropriate alignment and 
integration of diverse activities agency-wide.
    Additionally, we expanded the scope of the previous Operational 
Evolution Plan to encompass NextGen domains and solution sets. The OEP 
has an excellent track record of meeting commitments--due in part to 
the cross-agency support and regular attention of the OEP Associates 
Team. The new OEP Associates Team is chaired by the Deputy 
Administrator and comprised of all of the FAA Associate Administrators, 
ATO Vice Presidents, the Director of the Joint Planning and Development 
Office, and representatives from MITRE, PASS and NATCA.

    Question 18. To what extent have air traffic controllers been 
involved in modernization efforts?
    Answer. Our air traffic controllers are highly skilled, dedicated, 
and passionate about what they do, and we are taking advantage of this 
fact as we undertake the research and technology development leading us 
to NextGen. Through ongoing formal channels, the FAA involves 
controllers, technicians and the aviation community, so that their 
input is heard as the FAA develops the NextGen.
    NATCA participates in four committees shaping NextGen. The groups 
range from serving as one of 16 members on the Institute Management 
Council, established by Congress to ensure key aviation stakeholders 
have input into the NextGen system, to the Air Traffic Management 
Advisory Committee, which advises the FAA on all NextGen investments 
through the auspices of the Radio Technical Commission for Aeronautics 
(RTCA).
    NATCA also participates in the Air Traffic Procedures Advisory 
Committee--advising the FAA on air traffic procedures; as well as the 
Operational Evolution Partnership (OEP)--the group that validates 
NextGen technologies and oversees their transition into the NAS.
Controller Subject Matter Experts
    Since 2005, thousands of air traffic controllers and academy 
students have participated in the testing of NextGen technologies. In 
addition to tests done at local facilities and the FAA Academy in 
Oklahoma City, the FAA brings controllers to the research and 
development facility at the William J. Hughes Tech Center to test new 
equipment and procedures.
    Air traffic controllers provide technical expertise on new FAA 
programs that form the foundation for NextGen, from computing to 
surveillance. Some specific projects include:

  <bullet> Performance-Based Air Traffic Management;

  <bullet> High Altitude Trajectory-Based Operations;

  <bullet> Airspace redesign projects--New York and Chicago;

  <bullet> En Route Automation Modernization (ERAM);

  <bullet> Runway Status Lights (RWSL);

  <bullet> Advanced Technologies and Oceanic Procedures (ATOP);

  <bullet> User Request Evaluation Tool (URET);

  <bullet> Low Cost Surface Surveillance (LCSS); and

  <bullet> Performance standards for training developmental 
        controllers.

    NextGen research and development takes advantage of the unique 
skill sets of controllers without introducing present day biases. By 
introducing potential NextGen concepts and assessing how today's 
controllers perform under simulated NextGen conditions, we learn a lot 
about human reactions and interactions and apply that to the design of 
new systems. Controllers will also be used in our evaluation of future 
designs and redesigns.
    NextGen requires a far more transformational view than those 
exhibited in the past and our workforce is capable of this 
transformation. Their participation in our analysis and testing is 
proving that.

    Question 19. What are your plans for ensuring that FAA unions are 
not omitted from participation in the future during the NextGen 
initiative? Have you made any plans to approach unions to participate 
on current projects from which they were excluded?
    Answer. I intend to ensure our employee unions are involved in the 
development of NextGen, through ongoing formal channels.
    NATCA currently participates in four committees shaping NextGen. 
The groups range from serving as one of 16 members on the Institute 
Management Council established by Congress to ensure key aviation 
stakeholders have input to the NextGen system, to the Air Traffic 
Management Advisory Committee--advising the FAA on all NextGen 
investments through the auspices of the Radio Technical Commission for 
Aeronautics (RTCA).
    NATCA also participates in the Air Traffic Procedures Advisory 
Committee--advising the FAA on air traffic procedures; as well as the 
Operational Evolution Partnership--the group that validates NextGen 
technologies and oversees their transition into the NAS.
    PASS also has a seat on the OEP Associates Team, the primary 
governance body for NextGen in the FAA. From this vantage point they 
participate in developing NextGen strategic plans and monitoring 
progress. The OEP is the foundation document for developing and 
implementing NextGen programs, and thus a seat at the table can 
significantly influence the shape of the future NAS.
    Additionally, FAA has traditionally recruited subject matter 
experts from the technician workforce to help design new equipment, 
including those comprising NextGen Systems. Examples of current and 
past projects involving technician subject matter experts include 
runway surface surveillance systems (ASDE/AMASS), Advanced Technologies 
and Automated Procedures for Oceanic Airspace (ATOP), and most 
recently, the En Route Automation Modernization Program (ERAM) under 
NextGen.

    Question 20. What changes do you believe should be made to improve 
the relationship between FAA and its employees/unions? Are there any 
efforts currently underway to improve these relationships?
    Answer. Good labor-management relations at the FAA have resulted in 
several voluntary agreements just in the past year. Although we were 
unable to reach an agreement with NATCA on the air traffic controllers 
contract in 2006, we were able to reach a voluntary agreement with 
NATCA on the Engineers and Architects contract last year. We also 
reached a voluntary agreement last year with the National Association 
of Government Employees (NAGE) and are optimistic that the current 
negotiations with the American Federation of State, County and 
Municipal Employees (AFSCME) will result in a voluntary agreement. 
However, we are always looking for ways to improve our labor-management 
relations.
    I am also continuing to work with the unions to improve our 
communications on issues of concern to the FAA, the employees, the 
unions, and the flying public. I am endeavoring to foster a feeling of 
inclusiveness by acknowledging the unions' contributions, while 
emphasizing our common goals. The introduction of NextGen will usher in 
a new era at the FAA. It will be a period of change and challenge. I do 
not condone simply telling our employees and their labor organizations 
about changes, but engage them in dialogue and address their concerns 
as we move forward. To this end, I plan to visit facilities in the 
coming year not only to speak to our employees and their 
representatives but also to listen to them and take key issues back for 
consideration. It is only when we work in a spirit of cooperation and 
understanding of each party's positions will we develop a relationship 
of trust and mutual respect.
    I have initiated a number of efforts to positively affect the 
relationship with all of our unions. In December 2007, the FAA 
submitted a substantial settlement offer to NATCA in an effort to 
resolve lingering issues associated with the 2006 contract. As of this 
date, there has been no response by the union. This is the second offer 
of settlement that I have proposed to the union. Additionally, NATCA 
submitted two proposals during negotiations dealing with Child Care 
Subsidies and a Student Loan Repayment Program. While these proposals 
were not adopted during the negotiations process, I am now implementing 
programs on Child Care Subsidies and Student Loan Repayment for all 
eligible employees of the FAA and not just NATCA-represented air 
traffic controllers. We will work with NATCA on implementing the 
programs for our controllers.
    I have also invited the unions to participate with us in safety 
programs. For example, the National Occupational Safety, Health, and 
Environmental Compliance Committee (OSHECCOM), of which NATCA President 
Patrick Forrey is Vice-Chairman, and in which other unions 
participated, recommended--and I concurred--to begin installation of 
automated external defibrillators in many of our locations. NATCA and 
PASS are also both participating with us on our runway safety 
initiatives. I have also asked NATCA, in a letter on January 2, 2008, 
for their input on air traffic controller fatigue issues and to sit 
down with the FAA to address the National Transportation Safety Board's 
(NTSB) fatigue concerns.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                        Hon. Robert A. Sturgell
    Question 1. What data and what processes were used by the Agency to 
make air traffic controller staffing determinations at each facility?
    Answer. The FAA's process for establishing controller ranges by 
facility involves the use of several data sources. For example, in 
developing these ranges, we considered our industrial engineered 
standards, past facility performance, the performance of other similar 
facilities, productivity improvements, recommendations from the 
National Academy of Science, as well as input from managers in the 
field, overtime trends, time-on-position data, traffic forecasts, and 
expected retirements.
    In the last version of the Controller Workforce Plan, the FAA 
published controller staffing ranges for all 314 FAA operated Air 
Traffic Controller facilities. Our staffing ranges provide the number 
of controllers needed to perform the work and include all position-
qualified controllers. Most facilities will be in a period of 
transition over the next few years and will be staffing with a 
combination of certified professional controllers (CPCs), CPCs-In 
Training, and a large number of developmental controllers who are 
proficient, or checked out in specific sectors or positions. 
Developmentals have always handled live traffic, and in fact, this is a 
requirement to maintain proficiency as they progress toward CPC status.
    Each facility is reviewed to evaluate headcount, operational 
activity, and productivity trends. Productivity trends are then 
compared with appropriate peer facilities. These ``peers'' are 
determined by the facility type and level.
    Exceptional situations, or outliers, are removed from the averages 
(for example, if there has been a change in the type or level of 
facility over the period of evaluation). By analyzing the remaining 
data points, staffing ranges are generated for each facility.

    Question 2. How are you involving employee representatives, 
specifically the users of the equipment like air traffic controllers, 
in any future plans with regards to technology, procedures and new 
staffing levels? This is something that both the GAO and IG have cited 
as needed.
    Answer. The FAA routinely utilizes bargaining unit employees to 
field test new technology, and to provide subject matter expertise on a 
wide range of issues such as planning new procedures, airport layouts 
and human factors in the design of equipment/technology. The current 
contract contains provisions that permit the National Air Traffic 
Controllers Association (NATCA) to recommend the bargaining unit 
employees to be utilized in these workgroups. A similar process was 
contained in the previous contract. However, a labor-management dispute 
in July of 2005 led NATCA to refuse to exercise their right to make 
those determinations as to which employees would participate in 
workgroups, leaving the FAA with having to make those determinations as 
assignments of work.
    I believe the users of the equipment are the best qualified people 
to give us feedback, ideas and recommendations on procedures for 
implementing new technology and assessing the performance of that new 
technology. Employees will continue to be used to field test new 
technology, and as subject matter experts. I hope NATCA will rejoin 
this process as allowed by the collective bargaining agreement. More 
importantly, I am firmly committed to including our employee unions in 
planning the direction the FAA will take with respect to airspace 
design and technology necessary to accomplish our mission now and in 
the future.
NextGen Development
    Through ongoing formal channels, the FAA involves controllers, 
technicians and the aviation community so that their input is heard as 
the FAA develops the NextGen. Our air traffic controllers are highly 
skilled, dedicated, and passionate about what they do, and we are 
taking maximum advantage of this fact as we undertake the research and 
technology development leading us to NextGen.
    NATCA participates in four committees shaping NextGen. The groups 
range from serving as one of 16 members on the Institute Management 
Council established by Congress to ensure key aviation stakeholders 
have input to the NextGen system, to the Air Traffic Management 
Advisory Committee--advising the FAA on all NextGen investments through 
the auspices of the Radio Technical Commission for Aeronautics (RTCA).
    NATCA also participates in the Air Traffic Procedures Advisory 
Committee--advising the FAA on air traffic procedures; as well as the 
Operational Evolution Partnership--the group that validates NextGen 
technologies and oversees their transition into the National Airspace 
System (NAS).
Controller Subject Matter Experts
    Since 2005, thousands of air traffic controllers and academy 
students have participated in the testing of NextGen technologies. In 
addition to tests done at local facilities and the FAA Academy in 
Oklahoma City, the FAA brings controllers to the research and 
development facility at the William J. Hughes Tech Center to test new 
equipment and procedures.
    Air traffic controllers provide technical expertise on new FAA 
programs that form the foundation for NextGen, from computing to 
surveillance. Some specific projects include:

  <bullet> Performance-Based Air Traffic Management;

  <bullet> High Altitude Trajectory-Based Operations;

  <bullet> Airspace redesign projects--New York and Chicago;

  <bullet> En Route Automation Modernization (ERAM);

  <bullet> Runway Status Lights (RWSL);

  <bullet> Advanced Technologies and Oceanic Procedures (ATOP);

  <bullet> User Request Evaluation Tool (URET);

  <bullet> Low Cost Surface Surveillance (LCSS); and

  <bullet> Performance standards for training developmental 
        controllers.

    As to the issue of staffing, the determination of the appropriate 
level of staffing is a management responsibility for which the FAA 
alone is accountable. In setting staffing levels, we consider 
industrial engineering standards, past facility performance, the 
performance of other facilities, productivity improvements, 
recommendations from the National Academy of Sciences, as well as input 
from the facilities themselves.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                        Hon. Robert A. Sturgell
    Question 1. Given the heightened importance of unmanned aircraft in 
the overall central mission, do you feel that the Unmanned Aircraft 
Program Office is in need of additional funding?
    Answer. The FAA applies resources first to meet our primary mission 
of supporting the continued operational safety of the civilian fleet in 
our National Airspace System (NAS). To address the potential that 
Unmanned Aircraft Systems (UAS) have on the airspace, the Aviation 
Safety Organization established the Unmanned Aircraft Program Office in 
FY 2006. For the past 2 years, the program office has focused its 
resources on meeting the most urgent needs: safely providing military 
access, developing standards to integrate UAS into the NAS, granting 
civil access and providing international leadership to harmonize UAS 
standards and airspace access with the global community.
    The advent of UAS has challenged the aviation community. It is 
critical that the record-setting safety levels experienced in the U.S. 
today continue. UAS need time to mature as any other new technology. I 
am committed to working as diligently as possible to allow for the 
safe, progressive integration of UAS into the national airspace.

    Question 2. What role do you feel that universities play in 
contributing toward the advancement of unmanned aircraft in the 
National Airspace System?
    Answer. The FAA has enjoyed an outstanding relationship with 
academic institutions for several years. We envision universities 
playing a key role in the development of UAS. In fact, the University 
of North Dakota, Rutgers University, and New Mexico State University 
are prime examples of the valuable working relationships that I have 
been fostering with academia over the past several years through the 
Technical Cooperation Research Group (TCRG).
    An example of this cooperative effort is the agreement established 
by the FAA with the Center of Excellence for General Aviation Research 
(CGAR) to organize, conduct research, and report the results and 
recommendations for a set of regulatory guidelines to be used with UAS 
vehicle design and certification to allow for the safe and efficient 
operation of UAS in the NAS.
    The CGAR team consisted of representatives from University of 
Alaska Anchorage, University of Alaska Fairbanks, Embry-Riddle 
Aeronautical University-Prescott, and the University of North Dakota. 
The team spent approximately 18 months evaluating the existing 
regulation and certification guidelines. The report was a high level 
effort that provides the FAA with an initial assessment of Federal 
Aviation Regulations, which may need clarifying or modifying to 
accommodate UAS.
    These outstanding institutions and others will contribute to FAA's 
development and issuance of standards and policies to enable the safe 
integration of UAS into the NAS.

    Question 3. As you know, Unmanned Aerial Vehicles are an 
increasingly valuable tool in our national security and homeland 
defense arsenal, and are potentially useful for civil applications such 
as dealing with wildfires. DoD is rapidly expanding their development 
and use of UAVs worldwide. We have heard that the FAA is approving 
special use of UAVs for some government missions and for some specific 
civil applications under very restrictive conditions. What is your plan 
to integrate UAVs into the national airspace more quickly and smoothly?
    Answer. For UAS to be completely integrated into the NAS, avionics 
standards as well as certification standards need to be developed. In 
order to expedite the process, we are currently reviewing all existing 
regulations to determine if there are existing standards that can be 
applied to UAS.
    I have directed the program office to focus first on the immediate 
need of regulations for small UAS. We are establishing an Aviation 
Rulemaking Committee made up of a broad representation of industry, 
government, and academia to draft potential regulations for small UAS. 
This activity is projected to be completed in approximately 2 years. 
These UAS will be operated in daylight hours, visual line of sight from 
the pilot, and at a relatively low weight and speed. The program office 
will then focus on developing safety and certification standards for 
larger, more complex UAS.
    Avionics standards are being developed by the Radio Technical 
Commission for Aeronautics (RTCA), an industry forum recognized as a 
Federal Advisory Committee. Minimum aviation system performance 
standards necessary for complete airspace access are scheduled for 
delivery around 2019.

    Question 4. What role do you see Collegiate Training Initiative 
(CTI) schools playing in the future of air traffic controller training?
    Answer. My vision for the Air Traffic Collegiate Training 
Initiative (AT-CTI) program is that it will continue to grow and become 
a more significant source for hiring air traffic controllers. The 
number of AT-CTI graduates hired into controller positions has rapidly 
increased from 195 of 519 new hires in FY 2005; to 1,019 of the 1,815 
new hires in FY 2007.
    During my tenure at the FAA, the number of approved AT-CTI schools 
has also grown. In October 2007, the FAA chose nine new colleges and 
universities to be part of the AT-CTI program. It is the first 
expansion of the AT-CTI program in more than a decade. We expect this 
increase to produce a significant number of prospective air traffic 
controllers. Thirty-three institutions, including those already in the 
program, submitted applications in May 2007. Currently, there are 23 
schools in the program including the nine new schools. This program is 
being announced again now--allowing more schools to apply for FY 2008.
    My goal is to have 35 AT-CTI schools in the program graduating 
between 2,000-2,500 students per year by FY 2010. This is a hiring 
source of growing significance, providing controllers with college 
degrees, which I believe is important for the long-term health of the 
controller workforce.

    Question 5. Do you envision the new Air Traffic Controller Optimum 
Training Solution (ATCOTS) contract will allow the vendor to operate 
some of that training at University of North Dakota?
    Answer. My goal for the Air Traffic Controller Optimum Training 
Solution (ATCOTS) program is to improve the way FAA meets ATC training 
needs by streamlining our current contract structure. I believe that by 
better leveraging private-sector resources, we will be able to train 
controllers in a cost effective, timely manner. The ATCOTS contract 
will provide resources to the FAA Academy and to our air traffic 
control facilities to train new controllers.
    We expect the ATCOTS vendor to continually incorporate the best 
approaches and resources into our overall technical training and 
development for controllers. We will continue to use the resources of 
the FAA Academy, but that does not preclude us from taking advantage of 
other potential outside resources, new technologies, programs, and 
expertise. We expect our vendor to make recommendations for continuous 
improvement throughout the life of the contract. At this time, however, 
we cannot predict what those recommendations or improvements will be or 
where they will come from.
    I envision that the University of North Dakota, and all of our CTI 
schools, will continue to benefit from changes we are making in our 
curriculum, such as the Air Traffic Basics course currently being 
taught at the FAA Academy. These changes will help the University of 
North Dakota in recruiting and training students to be competitive 
candidates for the FAA.

    Question 6. Do you support a restoration of retirement benefits for 
the Flight Service Controllers who lost Federal employment as a result 
of the FAA's 2005 reduction in force?
    Answer. The FAA aggressively pursued actions authorized under law 
to minimize the negative impact on employees that were separated due to 
the contracting out of the Automated Flight Service Station (AFSS) 
facilities. This included:

  <bullet> Filling internal vacancies. More than 694 announcements were 
        published for internal vacancies, and AFSS displaced employees 
        were eligible to apply. The placement programs were effective 
        in ensuring all internal recruitment activity was extended to 
        those qualified employee applicants. In total, 456 Flight 
        Service employees were selected for continuing FAA positions 
        prior to the conduct of the reduction-in-force on October 3, 
        2005 and 96 employees were rehired under the FAA's Selection 
        Priority Program.

  <bullet> Offering Voluntary Early Retirement Authority. The Voluntary 
        Early Retirement Authority (VERA) program helped minimize the 
        involuntary separation of employees by allowing them to qualify 
        for voluntary early retirement. Seventeen employees chose this 
        option.

  <bullet> Offering separation incentives. Voluntary Separation 
        Incentive Payments (VSIP) or ``buy-outs'' were authorized to 
        allow agency management the flexibility to manage its workforce 
        through change. Buy-outs were made available to AFSS employees 
        in the Alaska Region from June 6-20, 2005, to create placement 
        opportunities for affected employees.

  <bullet> Retirement opportunity for employees within 2 years of 
        reaching retirement eligibility. The FAA implemented Public Law 
        109-115 Section 179(a.), which is known as the ``Snowe 
        Amendment.'' This amendment allowed 99 separated AFSS employees 
        who were within 2 years of retirement to be rehired to meet the 
        age and service requirements for either an optional or a 
        discontinued service retirement.

    The retirement provisions are administered pursuant to law. FAA 
does not have discretionary authority to grant retirement service 
credit for those employees, which includes flight service controllers, 
who do not meet the age and service requirements under the law.
    I would also like to note that this response is in regard to those 
Flight Service Station Specialists, as defined in 5 U.S.C.  
2109(1)(A)(ii) and are covered under the National Association of Air 
Traffic Specialists (NAATS) contract. Flight Service Station 
Specialists are not air traffic controllers, as defined in 5 U.S.C.  
2109(1)(A)(i), who are covered under the NATCA air traffic controllers 
contract.

    Question 7. A critical asset of our aviation system is the air 
traffic control workforce. Under extraordinary pressure, these workers 
are instrumental to the safety and efficiency of our Nation's airways. 
I am concerned that while you are in dire need of recruiting new 
controllers and should be encouraging the current air traffic 
controllers to stay in their jobs, the FAA has imposed a contract and 
the controllers are unhappy and retiring. They are tired and aviation 
safety is at risk. What could have been done differently with the 
contract negotiation? What should be done now?
    Answer. Recruitments are up. In fact, we are exceeding our 
recruitment goals. Our retirement numbers are attributable primarily to 
the increased number of controllers who have reached retirement age as 
a result of the mass hiring of controllers in the 1980s; and because of 
certain provisions of a very unique and generous retirement plan. In 
terms of safety, we are in the safest period of aviation history.
    In reality, the amount of overtime has increased very little from 
2004 to 2007, and last year, FAA controllers used nearly 95 percent of 
all the annual leave they earned. Not a single FAA facility is in a 
leave exigency program. In addition, we were staffed sufficiently to 
grant 24,590 days of leave without pay, which is the equivalent of 95 
full time positions. In 2005, under the previous contract, overtime 
usage was 1.6 percent of total work hours. In 2007, overtime was 1.7 
percent of total work hours. This increase is primarily attributable to 
the significant increase in training hours as a result of the increase 
in new hires. Currently, controllers average 4 hours and 46 minutes on-
position. For the remaining 3 hours and 14 minutes, no control 
separation duties are assigned.
    That said, we are in a transition period with this long-predicted 
``wave'' of controller retirements. While the system-wide numbers 
remain fairly consistent with prior years, we are focused on some 
individual facilities that have greater staffing needs and priorities.
    As recommended by the NTSB, the FAA met with NATCA on December 4, 
2007, to discuss strategies to reduce the potential for controller 
fatigue. Following this meeting, I wrote to NATCA President Patrick 
Forrey seeking NATCA's views and analysis of the NTSB's issues. As of 
this date, I have received no response.
    With respect to our negotiations on the air traffic controller 
contract, we have worked diligently to obtain a mutual agreement with 
NATCA representatives. After many months of negotiations and weeks with 
a Federal Mediator assisting us in our attempt to work toward a 
reasonable solution, our dispute was submitted to Congress as required. 
Although over 90 percent of the issues were agreed to, an impasse was 
declared. It was not an issue of needing more time, but a genuine 
difference in opinion regarding the few remaining articles. Pay was the 
issue that the parties disagreed over the most. The Federal Labor 
Relations Board has ruled on several occasions that the FAA bargained 
in good faith and in accordance with the law.
    In FY 2007, controllers made an average of $131,800 in cash (salary 
and premiums), which was substantially higher than the rest of the FAA 
and the rest of government. The top 5,000 controllers averaged $168,000 
in cash. As stewards of taxpayer dollars, we simply could not agree to 
perpetuate continued excessive cost growth. The FAA could not move 
forward, if salaries continued at this rate. The Inspector General, the 
Government Accountability Office, and Congress have all criticized the 
FAA for its past growth in operating costs.
    I will continue to work with NATCA to find a solution to our 
differences. I have on two occasions offered substantial settlement 
offers to NATCA, which would raise new hire pay, provide base pay 
increases for experienced controllers, increase premium pay for 
instructors and preserve controller incentive pay. I am hopeful that 
NATCA will respond favorably to the most recent offer. Separately, we 
will be discussing with NATCA, the implementation of new programs 
providing childcare subsidies and tuition reimbursement to our 
employees. To help with our recruitment and retention initiatives, I 
have authorized use of retention and recruitment incentives and bonuses 
in those limited areas where we have staffing challenges. These are the 
concerns about the 2006 contract as I understand them from NATCA.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                        Hon. Robert A. Sturgell
    Question 1. Global Hawk UAV flights out of Beale Air Force Base are 
limited to just two a week. I understand that one reason for this 
restriction is because the FAA lacks sufficient manpower to process and 
track Global Hawk flights. What are you doing to solve the flight 
restrictions at Beale AFB? Are you working to acquire sufficient 
manpower resources to allow more UAV flights? What are your overall 
plans to safely integrate the growing fleet of UAVs into the national 
airspace?
    Answer. The FAA is working closely with the U.S. Air Force to solve 
the operational concerns at Beale AFB. Global Hawk, while undoubtedly a 
critical military asset, was not designed to fly and be integrated into 
the National Airspace System (NAS). The system was designed to fly in 
and over a theater of war where airspace is tightly controlled by the 
military and no civil traffic is allowed. The FAA worked closely with 
the Air Force to find adequate methods to safely protect the flying 
public and people on the ground. The restriction to limit flying to 2 
days per week was due to a technical flaw in the Global Hawk system 
that required the implementation of extra separation precautions by FAA 
ATC to ensure an appropriate level of safety is maintained.
    Now that the technical flaw has been corrected, the FAA is 
participating with the Air Force in test flights to ensure that all 
known technical issues have been resolved. Once satisfactorily 
completed, we will collaborate with Beale AFB to address their need for 
increased operational missions.
    The advent of UAS has challenged the aviation community. It is 
critical that the record-setting safety levels experienced in the U.S. 
today continue. UAS need time to mature as any other new technology. I 
am committed to working as diligently as possible to allow for the 
safe, progressive integration of UAS into the national airspace.
    The FAA is applying resources first to meet our primary mission of 
supporting the continued operational safety of the civilian fleet in 
the NAS. To address the potential that UAS have on our nation, the 
Aviation Safety Organization established the Unmanned Aircraft Program 
Office in FY 2006. For the past 2 years, the program office has focused 
its resources on meeting the most urgent needs: safely providing 
military access, developing standards, civil access and international 
leadership. The following summarizes highlights of each of the four 
areas:

  <bullet> Military Access. The FAA continues to work with the 
        Department of Defense to find ways of safely approving military 
        access of UAS into the NAS. For example, we recently signed a 
        Memorandum of Agreement with DOD that provides unprecedented 
        access for a large segment of their arsenal.

  <bullet> Standards Development. For UAS to be completely integrated 
        into the NAS, avionics standards as well as certification 
        standards need to be developed.

    <ctr-circle> The FAA is focusing first on the immediate need of 
            regulation for small UAS. We are establishing an Aviation 
            Rulemaking Committee made up of a broad representation of 
            industry, government, and academia to draft potential 
            regulations for small UAS. This activity is projected to be 
            completed in approximately 2 years. These UAS will be 
            operated in daylight hours, visual line of sight from the 
            pilot, and at a relatively low weight and speed. The 
            program office will then focus on developing safety and 
            certification standards for larger, more complex UAS.

    <ctr-circle> Avionics standards are being developed by the Radio 
            Technical Commission for Aeronautics (RTCA), an industry 
            forum recognized as a Federal Advisory Committee. Minimum 
            aviation system performance standards necessary for 
            complete airspace access are scheduled for delivery around 
            2019.

  <bullet> Civil Access. The FAA has granted 17 experimental 
        airworthiness certificates over the past 2 years, and continues 
        to look for better ways to grant civil access for UAS. We 
        developed an agreement with the New Mexico State University 
        (NMSU) in Las Cruces, New Mexico that creates the first UAS 
        Flight Test Center. The Flight Test Center will allow research 
        and development activity to be conducted by companies that are 
        not ready for the experimental application process. This 
        agreement provides access for companies by allowing NMSU to 
        establish individual agreements with them. The FAA will be 
        provided with critical data that will enable the development of 
        future standards.

  <bullet> International Leadership. The FAA continues to lead the 
        world in access to airspace for UAS, and plans to play a 
        leadership role as the international community looks toward 
        standards development. Recently, the Manager of the FAA Program 
        Office was named as the U.S. Delegate to the newly formed 
        International Civil Aviation Organization UAS Study Group. In 
        addition, the FAA was specifically asked to be the Deputy 
        Chairman of the European Standards body, EUROCAE WG-73. We plan 
        to utilize these opportunities to harmonize UAS standards and 
        airspace access with the global community. Harmonized standards 
        are vital to the success of U.S. manufacturers.

    Question 2. Why does the President's FY09 Budget cut funding for 
the Airport Improvements Program even though the December 2007 GAO 
report found runway incursions have increased?
    Answer. Before proposing the $2.75 billion AIP level for FY 2009, 
we looked closely at the impact on airport capital development and our 
ability to meet high priority projects, such as those targeted at 
reducing runway incursions.
    The FAA's reforms for the AIP program contained in our 
reauthorization proposal strategically target Federal dollars to the 
airports where they will have the most impact. While large and medium 
hub airports have a greater ability to finance their own capital 
requirements with revenue from passenger facility charges and their own 
rates and charges, small primary and general aviation airports rely 
more heavily on AIP funding to help meet their capital needs and 
complete critical projects. We have proposed changes to the Federal 
funding program that will stabilize and enhance these funding sources 
for airports. With our proposed programmatic changes, the $2.75 billion 
proposed in our budget will be sufficient to finance airports' capital 
needs and meet national system safety and capacity objectives. FAA will 
be able to reach all high priority safety, capacity, security and 
environmental projects in FY 2009, including funding all projects 
identified by Runway Safety Action Teams (RSATs).
    The FAA has been very focused on improving runway safety and has 
spent millions of dollars toward this initiative. Our coordinated 
efforts, involving AIP and projects accomplished through other funding, 
have helped reduce the most serious of runway incursions by 55 percent 
between 2001 and 2007, even though the total number of runway 
incursions increased in 2007. We are currently deploying Airport 
Surface Detection Equipment-Model X (ASDE-X) to 35 of our busiest 
airports (11 systems are fully operational today) and we are expanding 
the testing of Runway Status Lights (RWSL) targeted for installation at 
21 of those 35 airports. We are testing two Low Cost Ground 
Surveillance (LCGS) technologies and are expanding this test to 6 
additional airports.
    The combination of AIP projects and other agency projects address 
the runway incursion problem in FY 2009.

    Question 3. The December 2007 GAO report mentioned the FAA may not 
be accurately reporting the number and the details of runway incursions 
across the country. Why did the FAA not immediately investigate a 
possible runway incursion at San Diego airport last month? Please 
provide a detailed account of the San Diego incident.
    Answer. I am committed to fostering a safety culture within the FAA 
that emphasizes full and timely investigations of all safety issues, 
particularly runway incursions.
    The incident at San Diego occurred on January 16, 2008, and was 
immediately entered in the towers daily log by the Controller in 
Charge. The Tower Manager returned to the facility after hours 
specifically in order to assist in the preliminary investigation of the 
incident. The manager reviewed the voice recordings and then requested 
a technician be recalled in order to playback the Airport Movement Area 
Safety System (AMASS) recording. After reviewing the AMASS recording 
the manager determined there was a loss of separation, since the 
arrival aircraft had stopped on the runway instead of exiting as 
instructed due to an aircraft problem.
    The preliminary investigation at the facility concluded that one 
aircraft had landed on Runway 27 and when it appeared that the landing 
aircraft had turned off the runway onto the taxiway as instructed the 
tower controller cleared a departure aircraft for take off. The 
incident was initially called in as required and was briefed to the 
Western Area Service Center Safety Assurance Specialist as an 
operational error. The Safety Assurance Specialist on duty was provided 
a briefing, including information obtained from the pilot of the 
arrival aircraft that an engine reverser would not stow.
    The Safety Assurance Specialist first thought this to be a Pilot 
Deviation (PD) but after further discussion decided that only a Quality 
Assurance Review (QAR) entry in the daily log would be required. The 
Acting Manager complied and completed the QAR as per FAA Order 7210.56 
and SAN Order 7210-5 SAN ATCT Quality Assurance Review. The manager 
appropriately did not close the QAR pending further investigation. When 
the headquarters staff began another review with the Western Service 
Center and the facility, more data was ordered and analyzed. It was 
discovered that the landing aircraft was on the left side of the runway 
and not clear. The final investigation determined the controller had 
not ensured the runway was clear but only anticipated it would be and 
had cleared the departure aircraft for take off.
    The incident was initially thought to be caused by a mechanical 
problem that led to a pilot deviating from the instructions given by 
air traffic control. However, upon further investigation, it was 
determined that the primary cause of the incident was a controller 
operational error that resulted in a loss of separation.
    It is not unusual for investigations to result in changes to the 
preliminary reports of incidents as additional facts and expertise are 
brought to bear on the event. The results of this investigation 
demonstrated our ability to establish the real root causes of serious 
safety concerns and will help to better prevent recurrences.

    Question 4. It is my understanding Los Angeles was recently 
upgraded to an ACT-12 center. Local controllers have brought to my 
attention that management at the facility received a pay increase as a 
result of the documented rise in traffic; however, controllers at Los 
Angeles did not see similar compensation for the increased workload. 
When can controllers at Los Angeles Center expect to receive 
compensation for the increased traffic at LAX?
    Answer. All employees at Los Angeles Center who were not already 
being compensated at or above the top of the ATC-12 pay band received a 
pay raise to the ATC-12 pay band as a result of the upgrade of the 
facility level.
    While management and controller pay rules are different, there are 
limits on both. Overall, 58.36 percent of the controller workforce 
received a pay increase, and 57.41 percent of the management workforce 
received a pay increase at Los Angeles Center.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Hon. Robert A. Sturgell
    Question 1. Last October, a number of us became aware of the 
existence of NASA's air safety study conducted by the Battelle Memorial 
Institute. The study was based on surveys of about 8,000 commercial and 
general aviation pilots per year from 2001 until the end of 2004. As 
you may recall, the reason the whole issue came to light is that NASA 
asked those affiliated with the project to turn over any data back to 
the agency and delete survey information from their personal computers. 
At the time, it was alleged that the survey was turning up many more 
reports of incidents than were officially reported to the FAA. In the 
end, NASA released the survey data on December 31, 2007, in less than 
user friendly format. Has the FAA reviewed the data from NASA's air 
safety study?
    Answer. NASA provided preliminary summaries of the survey however; 
the summaries were very high level and did not provide specifics that 
would have allowed us to correlate with our internal information 
systems. Subsequently, the FAA has obtained the data set made available 
to the public by NASA. However, the data format makes it difficult to 
integrate with our internal databases. My plan is to continue to review 
the data along with other safety information systems to identify any 
safety issues and take appropriate action, if necessary.

    Question 1a. If so, is the NASA data regarding the type and 
frequency of incidents consistent with the type and frequency of 
incidents officially reported to the FAA?
    Answer. From these preliminary summaries, it appears that the 
numbers for some examples, such as runway incursions, near misses, bird 
strikes, and engine failure events, deviate significantly from other 
databases with non-elective reporting requirements.

    Question 1b. If there is significant difference in the type and 
frequency of incidents, can you explain the reason for this difference?
    Answer. Event rates were calculated using analyses that were based 
upon extrapolation methods to estimate absolute numbers of events 
occurring within a given time period. Given that the extrapolated 
numbers deviate significantly from other databases, there is reason to 
question the validity of this methodology in determining event rates. I 
believe that results from the NASA study should be validated by 
comparing the survey results, where possible and appropriate, with 
other information that was independently gathered. (Note: Congress has 
directed NASA to release the raw data to the GAO for analysis by their 
aviation experts.)

    Question 1c. In press accounts, you have expressed concerns over 
the survey's methodology. Can you point to two or three specific issues 
with respect to the survey's methodology?
    Answer. A review of the questionnaire by the FAA and members of the 
Commercial Aviation Safety Team found many of the questions to be 
subjective and to rely heavily upon recollections and perceptions of 
flight crews over a period of 2 to 3 months. In addition, many 
questions were vague or too broad and as a result are of limited value.

    Question 1d. It is my understanding that the original study was 
terminated before moving on to interview flight attendants and air 
traffic controllers, as originally proposed. Do you think surveying 
flight attendants and air traffic controllers would have yielded useful 
information about flight safety?
    Answer. We believe voluntarily submitted reports from flight 
attendants and air traffic controllers can yield very useful 
information about aviation safety. Since the time of the NASA study, 
the FAA and the industry have developed more robust reporting 
mechanisms, including the Aviation Safety Action Program (ASAP), which 
encourages pilots, dispatchers, flight attendants, and maintenance 
personnel to report events without fear of retribution. Eleven air 
carriers have FAA approved ASAPs in place for their flight attendants. 
The FAA Air Traffic Organization is in the process of establishing an 
ASAP for air traffic controllers by the Spring of this year. My goal is 
to incorporate these segments of the NAS into a formalized process in 
which safety information can be accessed through secure networks under 
mutually agreeable rules of engagement and to develop a process that 
will make this safety information available to decisionmakers to help 
them in their efforts to manage risk.

    Question 2. Mr. Sturgell, I am concerned about the number of 
certified air traffic controllers and how that impacts the FAA's 
ability to handle record amounts of air traffic and mitigate delays. I 
have been told that there are fewer certified controllers now than any 
year since 1996. An agency spokesman has been quoted as saying that 
there is no such thing as an unsafe staffing level because the FAA will 
slow traffic and put more space between planes if staffing got too low. 
If confirmed, would that be your policy as FAA Administrator?
    Answer. I am committed to making the safest system in the world 
even safer.
    We are now overseeing the largest hiring and training initiative 
that the FAA has undertaken in decades. Last year, we hired 1,815 new 
controllers and are in the process of hiring a similar number this 
year. In 2004, we released a comprehensive Controller Workforce Plan 
that outlines our hiring and training initiatives, and tracks actual 
retirements as well as projecting future losses. The plan can be found 
on the FAA website at http://www.faa.gov.
    Our staffing ranges provide the number of controllers needed to 
perform the work and include all position-qualified controllers. Most 
facilities will be in a period of transition over the next few years 
and will be staffing with a combination of certified professional 
controllers (CPCs), CPCs-In Training, and a large number of 
developmental controllers who are proficient, or checked out in 
specific sectors or positions. Developmentals have always handled live 
traffic, and in fact, this is a requirement to maintain proficiency as 
they progress toward CPC status.
    Before the 1981 controller strike, the FAA experienced trainee 
ratio percentages ranging from 23 to 44 percent. Following the strike 
through the end of the hiring wave in 1992, the trainee percentage 
ranged from 24 to 52 percent. Because of the mass hiring throughout the 
1980s, hiring and training in recent decades have been at low levels. 
As such, the ratio of developmentals to controllers has also been 
unusually low. Hiring done since 2004 has driven up the ratio again, 
but nowhere near the levels experienced by the agency following the 
strike. While the FAA's goal is to keep the ratio below 35 percent, the 
agency has operated safely with ratios above 35 percent.
    It is a real challenge to replace the majority of our controller 
workforce over the course of 10 years, but it is a challenge that we 
anticipated and for which we planned. We are working aggressively to 
stay on top of this challenge through a number of initiatives. These 
initiatives target retaining existing controllers (retention bonuses), 
attracting veteran controllers (recruitment and relocation bonuses), 
and attracting qualified new employees.
    During this period of increased hiring and training, the FAA has 
continued to keep safety as its top priority. Our current and future 
success is all about our people. Their continued professional 
commitment to safety and performance is critical.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Hon. Robert A. Sturgell
    Question 1. Do you believe that the FAA is facing a staffing crisis 
concerning the air traffic controller workforce?
    Answer. No, I do not believe the FAA is facing an air traffic 
controller staffing crisis. However, we are in the midst of the long-
expected retirement ``wave'' of air traffic controllers and it does 
present us with a tough management issue. In 2004, the FAA issued the 
first comprehensive controller staffing plan. The Congressional report, 
A Plan for the Future: a 10-Year Strategy for the Controller Workforce, 
detailed the resources needed to keep the controller workforce 
appropriately staffed. We update that plan every year to ensure that 
the hiring and training of this critical workforce remains on track.
    That said, the next several years will be a challenging transition 
period. FY 2007 was long projected to be a peak year for retirements of 
controllers hired in the years following the controller strike of 1981. 
Our retirement projections were not that different from actual numbers, 
although actual numbers were 128 higher. Much of that increase can be 
attributed to the fact that more than 100 retired controllers became 
contract training instructors in FY 2007, allowing FAA to retain their 
valuable expertise to train the next generation of controllers.
    Still, we are hiring more controllers than we originally projected 
and we have launched massive recruitment and training initiatives. In 
addition, we have created retention and job enhancement strategies to 
attract and retain controllers. We were able to hire more than 1,800 
controllers last year, a third of them with previous air traffic 
control experience from the military.
    Some facilities do have greater staffing priorities and needs. We 
are working aggressively to buildup staffing at those facilities 
through a number of initiatives targeted toward retaining existing 
controllers (retention bonuses), attracting veteran controllers 
(recruitment and relocation bonuses), and bringing onboard qualified 
new hires.

    Question 2. Do you believe that the use of a higher percentage of 
trainees versus fully certified controllers will impact the operation 
of the national air traffic control system?
    Answer. No, I do not. Historically, the FAA has operated safely 
with ratios much higher than we are seeing today. Before the 1981 
controller strike, the FAA experienced trainee ratio percentages 
ranging from 23 to 44 percent. After the strike, through the end of the 
hiring wave in 1992, the trainee percentage ranged from 24 to 52 
percent.
    Only after the wave of post strike controllers progressed to 
certified professional controllers did the trainee percentage drop 
below 20 percent. Now that we're back to consistently hiring a large 
number of new controllers each year, the trainee percentage will 
naturally return to higher levels. Our hiring plan strives to keep 
trainees below 35 percent of the controller workforce.
    Our staffing ranges provide the number of controllers needed to 
perform the work and include all position-qualified controllers. Most 
facilities will be in a period of transition over the next few years 
and will be staffing with a combination of certified professional 
controllers (CPCs), CPCs-In Training, and a large number of 
developmental controllers who are proficient, or checked out in 
specific sectors or positions. Developmentals have always handled live 
traffic. In fact, this is a requirement to maintain proficiency as they 
progress toward CPC status.

    Question 3. On how many occasions since being named Acting 
Administrator have you met directly with National Air Traffic 
Controller Association officials concerning negotiation of a collective 
bargaining agreement?
    Answer. I have met personally with the senior executives of NATCA 
on at least one occasion in an attempt to work toward a settlement on 
the air traffic controllers' contract. In addition, I have discussed 
contract issues and the resolution of those issues with NATCA's 
leadership. I have also directed three FAA executives to meet with 
various NATCA officials to find a common ground and solutions to this 
dispute. Additionally, Secretary Peters, NATCA President Patrick 
Forrey, and I have met or talked with leadership from the House 
Transportation and Infrastructure Committee several times in hopes of 
achieving a settlement.

    Question 4. Are you interested in reaching a voluntary agreement 
with the air traffic controller employee representatives?
    Answer. I would like for every collective bargaining agreement at 
the FAA to be voluntary and we have achieved two such voluntary 
agreements with NATCA and NAGE in 2007. However, the negotiations 
process does not guarantee a voluntary agreement in every instance. In 
fact, Congress envisioned this when it created the statutory impasse 
procedures for the FAA. The parties were simply too far apart to reach 
an agreement on the remaining issues, especially pay. At this point, 
the FLRA has ruled the FAA bargained in good faith and a legally 
binding contract exists. That said, I have been working with NATCA in 
an attempt to settle lingering issues. Although we failed to reach a 
voluntary agreement, NATCA and the FAA agreed to 101 of the 110 
contract articles. Additionally, NATCA submitted two proposals during 
negotiations dealing with child care subsidies and a student loan 
repayment program. While these proposals were not adopted during the 
negotiations process, I am now implementing programs on child care 
subsidies and student loan repayment for all eligible employees of the 
FAA and not just NATCA-represented air traffic controllers. We will 
meet our bargaining obligations with NATCA on these two programs.
    My efforts have not stopped there. I have also made two settlement 
offers to NATCA and am awaiting a response on our latest offer. I will 
continue the dialogue with NATCA in hopes of reaching a resolution to 
our differences.

    Question 5. Why hasn't FAA published new procedures for overflow 
arrivals on Newark Airport's Runway 29 that would ensure aircraft 
separation in the event of lost communications? Did you approve the 
decision to allow the approach without publishing the new procedures? 
When will FAA publish these procedures?
    Answer. FAA Order 7110.65 prescribes the procedures for visual 
approaches to multiple runways. At Newark, this order is supplemented 
by standard operating procedures, a Letter of Agreement with the New 
York Terminal Radar Approach Control facility, and daily coordination 
regarding procedures and required spacing between aircraft. In 
addition, 14 CFR Federal Aviation  91.185 specifies pilot actions 
during two-way radio communications failure. Application of these 
procedures and regulations ensures safe aircraft separation.
    I asked representatives from ATO and the office responsible for 
oversight of air traffic services, Air Traffic Safety Oversight Service 
(AOV), to review and approve the revised Runway 29 overflow operations. 
Below is some additional background on the work completed.
    In January 2008, Newark Tower and New York Terminal Radar Approach 
Control (TRACON) personnel met with senior members of the New York 
District facilities to review overflow operations to Runway 29 at 
Newark. To enhance safety on the Runway 29 operation, restrictions, 
conditions, and limits were established. Overflow operations can only 
be conducted to Runway 29 in visual meteorological conditions, and 
traffic advisories are issued to all aircraft on approach to Newark. 
Procedures were approved on the basis that they improve operational 
safety at Newark and ensure the safe and efficient control of aircraft 
serviced by New York TRACON and adjacent airports.
    A clearer and more comprehensive understanding of responsibilities, 
roles, and actions emerged for conducting safer overflow operations to 
Runway 29 at Newark. New York TRACON developed a facility directive for 
this operation, called ``N90 Notice N7110.885, Newark Arrivals to 
Overflow Runways on Northeast Flow.'' All managers and operational 
personnel at New York TRACON were briefed on this notice.

    Question 6. Why hasn't FAA published new procedures for updated 
Standard Instrument Departure (SID) dispersal headings on Newark 
Airport's Runway 22? Did you approve the decision to allow the new 
headings to be used without publishing the new procedures? When will 
FAA publish these procedures?
    Answer. No new published procedures were required to implement the 
dispersal headings that were recently implemented as part of the 
Airspace Redesign effort because dispersal headings are used throughout 
the system and are allowed under existing conventional procedures and 
practices. As part of the implementation, we issued internal procedures 
(a Tower Order and Letter of Agreement) to address the dispersal 
headings. We are following up with an amendment to the Standard 
Instrument Departure (SID) noting additional headings may be assigned 
when flying the SID. This information will also be communicated via 
Notice to Airmen (NOTAM) and an automatic terminal information service 
(ATIS) announcement and will remain in place until new Area Navigation 
(RNAV) procedures are in place. We have begun the effort to develop 
RNAV procedures that will augment the use of the dispersal headings. 
This effort will take up to 18 months.

    Question 7. With major changes to the operations in the New Jersey-
New York region due to FAA's implementation of its airspace redesign 
plan, how will you ensure safety levels are not decreased?
    Answer. Safety is paramount to the operation of the air traffic 
system. It has been the cornerstone of my tenure and will continue to 
be my focus. As you may recall, enhanced safety is one of the 
objectives for the airspace redesign and procedural enhancements in 
this vital area of air traffic. We evaluated several indicators of 
safety as part of the decision process for the airspace redesign.
    We continually monitor safety as a day-to-day operational metric 
and are continuing to adapt and enhance our safety evaluation 
techniques. The Safety Risk Management process that has been adopted in 
the last few years serves as a primary mechanism to assessing and 
mitigating potential safety risks.

    Question 8. How will FAA ensure that all pilots and controllers are 
aware of the new procedures as a result of the agency's NY/NJ/PHL 
Airspace Redesign project and that they have sufficient training to 
ensure no safety problems are encountered as a result of the change in 
procedures?
    Answer. As we do with all new procedures and airspace designs, we 
will ensure that the appropriate levels of training are provided to our 
workforce. We will continue to work with the aviation community to 
educate our customers on these changes and to ensure pilot training 
meets expected levels.
    Education and training are two crucial steps in our implementation 
planning processes. Each stage of implementation will last 
approximately 12 to 18 months, which will ensure that users and 
controllers are familiar with the procedures introduced during that 
stage before additional new procedures are introduced as part of an 
ensuing stage. We will be applying our Safety Risk Management process 
to every phase of implementation to identify and mitigate any potential 
safety risks.
    For example, before we implemented the departure dispersal headings 
at Philadelphia, all controllers were trained and briefed on the 
procedures over a period of 30 days. In addition, a NOTAM was issued to 
local operators for pilot education.

    Question 9. Please describe in detail the delay reductions FAA 
expects to occur as a result of each implementation of each stage of 
the NY/NJ/PHL Airspace Redesign project. What methodology did FAA used 
to reach its projections, and what alternative methods for addressing 
airline delays in the New Jersey-New York region has FAA considered and 
rejected?
    Answer. We did not calculate delay reduction for each stage of 
implementation, but did calculate delay reduction once Airspace 
Redesign project is fully implemented. The time saved under redesigned 
operations, compared to a future in which no action is taken, was 
estimated from the output of simulations of the various possible 
alternative airspace designs, using state-of-the-art modeling 
techniques. Appendix C of the Environmental Impact Statement (EIS) 
gives the details. This document may be found at: http://www.faa.gov/
airports_airtraffic/air_traffic/nas_redesign/regional_guidance/
eastern_reg/nynjphl_redesign/feis/appendix. As described in chapter 2, 
section 2.3, of the EIS, the FAA considered alternative methods 
including alternative modes of transportation and communication; 
increased use of satellite airports; improvements to airport 
infrastructure; congestion management programs; improved air traffic 
control technology; and airspace redesign. All but the last were 
rejected because they did not meet the purpose and need.

    Question 10. What assumptions concerning short-term and long-term 
growth in air traffic in the New Jersey-New York region did FAA make in 
making its decision to go forward with the NY/NJ/PHL Airspace Redesign 
project? Do you believe these projections are consistent with other air 
traffic projections for the region which FAA and the Port Authority of 
New York and New Jersey have made?
    Answer. A specific forecasting effort was undertaken as part of the 
EIS process. This effort was based on an analysis of the market factors 
that have historically driven the air traffic demand in the area. Among 
the factors that it considered were passenger and jet airway demand, 
schedules, and type of equipment. The forecasts, which were developed 
early in the project, focused on the 2006 and 2011 planning horizons. 
As part of our development of these forecasts, we took into account 
information from other sources such as the Port Authority of New York 
and New Jersey. These projections were generally consistent with other 
projections made for the area at the time of the analysis. 
Additionally, prior to issuing the Final EIS (FEIS), we conducted a 
sensitivity analysis, which appears at appendix B-2 of the FEIS, to 
determine whether the project forecasts remained reasonable. They are 
consistent with forecasts used by other entities to make their own 
planning decisions. Based on our analyses, the forecast assumptions are 
accurate, the variations in the forecasts are explainable, and they are 
reasonable forecasts to rely upon for decision-making.

    Question 11. How many annual flight operations at Newark Liberty 
International Airport does FAA expect in 2009, 2010, 2011, and 2015, 
and 2020? What is the maximum number of hourly flight operations during 
peak hours that FAA expects at the airport during these years?
    Answer. The latest FAA forecast (released December 2007) is an 
unconstrained, economic demand projection. Forecast annual flight 
operations at Newark Liberty International Airport are 465,636 in FY 
2009, 476,500 in FY 2010, 487,636 in FY 2011, 535,006 in FY 2015, and 
601,172 in FY 2020.
    According to a recent study completed by MITRE's Center for 
Advanced Aviation System Development, which covered the 12 months 
ending August 2007, the average adjusted capacity for Newark was 83 
operations an hour. See 72 Federal Register 73418 December 27, 2007).

    Question 12. Are you aware of the full cost of the NY/NJ/PHL 
Airspace Redesign project? How much has the agency spent on the 
project? How much does the agency believe it will spend on the project 
in future years, and specifically in FY 2008 and FY 2009?
    Answer. The FAA has spent over $53M over the last 10 years on the 
redesign effort, the majority of that going to the environmental 
process and to resources to support full participation of the 
controller workforce in the design effort (backfill overtime and 
travel). We expect to spend approximately $3M each year in Fiscal Years 
2008 and 2009, which are operations costs for developing procedures and 
training. Future spending plans are being developed along with the 
planning for each stage of the implementation.
    Once fully implemented, we conservatively estimate over $300 
million dollar annual savings in direct operating costs.

    Question 13. Why didn't FAA complete a cost-benefit analysis before 
moving forward with the NY/NJ/PHL Airspace Redesign project? Do you 
believe that the FAA should complete cost-benefit analyses before 
moving forward with major non-safety-related projects that will affect 
hundreds of thousands of people? Is FAA conducting a cost-benefit 
analysis? If so, when will it be made public?
    Answer. A cost-benefit analysis was not completed for the Airspace 
Redesign project, as it was not required as part of the National 
Environmental Policy Act (NEPA) process. This does not mean we are not 
aware of the benefits of this project. Once fully implemented, airspace 
redesign will reduce delays by 20 percent, reduce the number of 
individuals exposed to noise by over 600,000, and reduce fuel burn.

    Question 14. Do you feel that FAA should comply with Executive 
Order 13045, ``Protection of Children from Environmental Health Risks 
and Safety Risks'' (62 CFR 19883, April 23, 1997) or Appendix A, 
Section 16.1b of FAA Order 1050.1E, which specifically require the FAA 
to focus on the vulnerability of children to noise? In its 
implementation of the NY/NJ/PHL Airspace Redesign project, has the FAA 
complied with this Executive Order and FAA order? If not, why not? If 
so, please state how the FAA has complied.
    Answer. We are in compliance with both Executive Order 13045 and 
FAA Order 1050.1E. Once fully implemented, the selected project would 
not result in significant noise impacts to any residents including 
children within the study area. Additionally, the noise analysis 
included considering noise impacts to schools and parks in the study 
area. No schools or parks were identified as significantly impacted by 
the selected project. Last, there would be a net benefit to air quality 
as a result of the selected project.

    Question 15. On May 1, 2007, the FAA promised in a public meeting 
last year in Tinicum, Pennsylvania, that a comprehensive safety risk 
assessment of the implementation of the new headings under the NY/NJ/
PHL Airspace Redesign plan would be conducted before the new headings 
were implemented. Were you aware of this promise? Do you believe the 
FAA should complete this risk assessment before implementing the new 
headings? Has this risk assessment been completed? If not, has it been 
made available to the public for comment? Please provide the Committee 
with the assessment, any comments received, and FAA's course of action?
    Answer. I am aware that safety of the implementation of the NY/NJ/
PHL Airspace Redesign was, and is, a concern. I am committed, as are 
all the FAA leaders associated with this effort, to ensuring the 
highest levels of safety as we implement this important project. 
Assignment of headings to a departure is a technique that is used by 
air traffic controllers throughout the country and is a safe procedure. 
After the partial implementation of the dispersal headings on December 
19, 2007, at Philadelphia International and Newark Liberty 
International Airports, we began developing formal departure procedures 
using area navigation (RNAV) techniques. On May 1, 2007, at an FAA-
sponsored public meeting on the proposed noise mitigation strategies, 
this issue about a safety review was raised by one of the attendees. In 
response, my project manager described the RNAV process and indicated 
that one of the steps in the development of these procedures is a 
safety review consistent with the Safety Risk Management process 
described previously. The safety review is an internal process to the 
FAA and is not normally distributed to the public for comment. This 
safety review will be completed for all appropriate elements of the 
Airspace Redesign.

    Question 16. How will the policies you pursue as FAA Administrator 
differ from policies pursued under Administrator Blakey?
    Answer. There's one question that all FAA Administrators wrestle 
with every day--what can I do to make flying safer? I'll be no 
different.
    If confirmed, I pledge to keep the United States at the forefront 
of aviation safety. No other nation comes close to matching what we've 
done to save lives and prevent accidents. In partnership with you and 
our stakeholders in the private sector, I will work to:

  <bullet> Continue to improve what is already the safest 
        transportation system in history. My highest priority is 
        safety. I have focused on it throughout my career in the Navy, 
        as a commercial pilot, and at the NTSB and FAA. We are 
        addressing the problem of runway incursions. But that is by no 
        means all. I make a personal commitment to you that the FAA 
        will continue to lead the world in setting the highest 
        standards of safety for the aviation industry.

  <bullet> Ensure that the FAA has a workforce second to none. We have 
        launched a massive recruitment and training initiative, and 
        have created retention and job enhancement strategies. I intend 
        to make sure that the FAA has the safety professionals, 
        controllers and other experts we need to keep the system safe 
        and efficient. I want to assure you that I will continue to 
        rely on the experts in our workforce and seek their advice on 
        issues ranging from implementation of NextGen to operational 
        safety.

  <bullet> Address congestion and delay in our aviation system. My 
        vision is that aviation must remain an enabler of economic 
        growth, not a chokepoint. We must expand capacity to meet 
        demand. Our capital programs are on track, and I intend to keep 
        them that way. NextGen is the key to the aviation system's 
        future, and I want to push development as hard as we can. 
        System-wide, we are introducing new technologies ranging from 
        satellite-based navigation and air traffic management to runway 
        lights. We are taking steps to reduce delay at the Nation's 
        most congested airports, with particular focus on New York. 
        Meanwhile, we are working to expand capacity at other airports 
        around the country.

    Question 17. Does the FAA use noise assessment models which are 
consistent with those currently used by the Environmental Protection 
Agency? If not, why not?
    Answer. The responsibility for local, regional, and global aircraft 
noise impact analyses lies with the FAA, not the Environmental 
Protection Agency (EPA). FAA thus assumes the responsibility for 
developing and using aircraft noise assessment models. FAA's model is 
the de facto standard for aircraft noise modeling around the world, 
with over 1,100 users including 72 countries. If EPA were to conduct an 
aircraft noise assessment, EPA would use FAA's model.

    Question 18. Why does the FAA continue to use the Schultz Curve 
noise assessment model? Do you believe use of this model accurately 
portrays air noise exposure by residents?
    Answer. The Schultz Curve is not a noise assessment model. It 
portrays the statistical percentage of the population that is likely to 
be highly annoyed by various levels of transportation noise, based on a 
body of social surveys. The Schultz Curve was subsequently reaffirmed 
by a study done by the U.S. Air Force, and it remains today as the best 
available approach in use for predicting community reaction to noise 
exposure.

    Question 19. Why does the FAA continue to rely exclusively on the 
Day-Night sound Level (DNL) noise metric? Do you believe this model 
effectively accounts for very loud noise exposures?
    Answer. FAA uses DNL as the primary metric to quantify noise 
exposure because there are no other metrics with sufficient scientific 
standing to substitute for DNL. DNL does account for very loud noise 
exposure because the calculated DNL level is heavily governed by the 
loudest aircraft events. FAA also uses other supplemental metrics in 
addition to DNL on a case-by-case basis. Supplemental noise metrics 
include single event metrics such as SEL (sound exposure level) and 
Lmax (maximum sound level), cumulative or time based metrics such as 
Leq (equivalent sound level), TA (time above), audibility, and SPL 
(sound pressure level). FAA uses these metrics to help the public 
understand noise impacts and to develop noise analyses for sleep 
disturbance, speech interference, and special areas such as national 
parks, and for assessing the effectiveness of soundproofing.

    Question 20. What is the maximum number of hourly flight operations 
which can be accommodated at Newark Liberty International Airport, 
given its current physical layout constraints? Do you believe that the 
NY/NJ/PHL Airspace Redesign project will allow for more hourly 
operations than can currently be handled by this airport given its 
current layout?
    Answer. According to a recent study completed by MITRE's Center for 
Advanced Aviation System Development, which covered the 12 months 
ending August 2007, the average adjusted capacity for Newark was 83 
operations an hour. See 72 Federal Register 73418 (December 27, 2007).
    The Airspace Redesign project is intended to increase the 
efficiency of the airspace. To the extent that delays in the airspace 
have historically resulted in airport delays, increases in airspace 
efficiency will permit the optimal use of existing airport capacity.

    Question 21. Why did the FAA omit noise and emissions mitigation 
from the NY/NJ/PHL Airspace Redesign project's ``purpose and need'' 
statement?
    Answer. The FAA complies with NEPA regulations issued by the 
Council on Environmental Quality (CEQ) with respect to the content and 
format of NEPA documents. According to CEQ regulations, the Purpose and 
Need section of a NEPA document explains why the agency is proposing 
the alternatives, including the proposed action. The redesign of New 
York/New Jersey/Philadelphia airspace was needed to accommodate 
aviation growth while maintaining safety and mitigating delays, and to 
accommodate changes in the types of aircraft using the system. Although 
reduction of noise was not included in the purpose and need for the 
project, the FAA recognized that aircraft noise was the major issue 
raised in agency and public comments throughout the EIS process. During 
the environmental process, FAA committed to using the various 
techniques to reduce aircraft noise and other potential environmental 
impacts, including increasing altitudes, dispersing or concentrating 
tracks where appropriate, reducing flying time, and routing aircraft 
over less noise-sensitive areas where feasible. In addition, a 
reduction in delay will generally equate to a reduction in emissions.

    Question 22. Do you believe that the NY/NJ/PHL Airspace Redesign 
project will increase airport capacity?
    Answer. Actually, the project is not designed to increase airport 
capacity. Airport capacity is a direct result of the available ground 
facilities at a given airport. Any project that does not directly 
increase these facilities cannot increase airport capacity.
    Similarly, airspace capacity is a direct function of the boundaries 
and volume of available airspace. Any project that does not increase 
the volume of airspace cannot increase airspace capacity. A project 
such as the NY/NJ/PHL Airspace Redesign seeks to use that available 
airspace capacity in a more efficient way. It does not increase 
airspace capacity. It does, however, improve efficiency and 
throughput--resulting in less delay.

    Question 23. Do you believe that air quality will be affected by 
the NY/NJ/PHL Airspace Redesign project?
    Answer. The fuel burn analysis conducted for this project showed 
that when compared to the ``No Action Alternative,'' our redesign would 
reduce aircraft fuel consumption by approximately 23 million gallons 
annually or 194 metric tons per average day once fully implemented. 
This, in turn, reduces emissions.

    Question 24. Do you believe it is fair to the residents of the City 
of Elizabeth to be exposed to substantially more noise in order to gain 
an additional 1 or 2 operations per hour at Newark airport as a result 
of the FAA's dispersal headings implemented as part of the FAA's NY/NJ/
PHL Airspace Redesign project?
    Answer. We do not expect residents of the City of Elizabeth to 
experience any significant increase in noise at any time as a result of 
our Airspace Redesign, as documented in the EIS released last year.

    Question 25. If confirmed, will you ensure that FAA Order 7050.1 is 
followed?
    Answer. I appointed a permanent Director of Runway Safety and 
charged him with the task of updating the order and ensuring that it is 
followed. Compliance with the order will be a performance goal for the 
Director.
    In addition, we have created the Air Traffic Safety Oversight 
Service (AOV) within the Aviation Safety Organization. AOV is tasked to 
conduct oversight of the safety of ATO's provision of air traffic 
services in the NAS. AOV's functions include oversight of ATO's 
compliance orders and directives. This system of checks and balances 
will ensure the Runway Safety Order is updated and followed.

    Question 26. If confirmed, will you ensure that the FAA prepare an 
updated national runway safety plan? How will you ensure that this plan 
is carried out?
    Answer. I have directed an update of the National Runway Safety 
Plan (NRSP) to be published this year. The high level goals and 
objectives of the NRSP will be included in the FAA's Flight Plan and 
will be tracked to ensure accomplishment. In addition, the NRSP will 
have more detailed goals, objectives and initiatives that will be 
tracked, not only by each FAA Line of Business but also by the Runway 
Safety Office, and included in executives' performance plans. The plan 
and results will be briefed as a standing agenda item at our monthly 
FAA performance meetings. Runway safety is vitally important and I will 
not let up in demanding compliance with the plan and improvements 
through reducing the number and severity of runway incursions.

    Question 27. What has been your role in overseeing FAA's Office of 
Civil Rights since arriving at the agency?
    Answer. Since arriving at FAA, the FAA Office of Civil Rights (ACR) 
has received and continues to receive my support and the necessary 
resources to carry out an effective and efficient Civil Rights Program. 
The Assistant Administrator for Civil Rights is a member of my 
Management Board. Under my leadership, we have achieved significant 
accomplishments in outreach efforts, disabled veteran hiring, and civil 
rights programs, to name only the most recent efforts below.
    Equal Employment Opportunity (EEO):

  <bullet> On January 24, 2008, I renewed education partnerships with 
        the Organization of Black Airline Pilots (OBAP) and the 
        International Black Aerospace Council (IBAC). The alliances 
        will be of mutual benefit to FAA, OBAP, and IBAC by increasing 
        each organization's outreach outlets and maximizing resources. 
        The agreements help foster the agency's education outreach 
        efforts to underrepresented student populations.

  <bullet> I have been very supportive of increasing resources for 
        minority recruitment and hiring efforts, as a means to increase 
        diversity at FAA. The strategy we are using is to place 
        emphasis on increasing the applicant pool for people with lower 
        than expected participation rates. As a result, in FY 2007, FAA 
        increased the applicant pool for several minority groups.

    I have supported other efforts which have contributed to the 
efficiency of processing EEO pre-complaints and increasing awareness of 
EEO responsibilities. These efforts include:

  <bullet> Using dedicated, full-time EEO Counselors, who were 
        identified from existing resources. This allowed ATO and other 
        lines of business employees to perform mission-critical work, 
        instead of collateral duty counseling. A six-month evaluation 
        revealed a more efficient EEO pre-complaint program.

  <bullet> Implementing E-filing, an automated ``in-take'' system, on 
        July 15, 2007.

  <bullet> Providing training to 5,404 (97 percent) FAA supervisors and 
        managers and 37,338 (96 percent) employees, including 
        bargaining unit employees, on EEO rights and responsibilities 
        and the provisions of the Notification and Federal Employee 
        Anti-discrimination and Retaliation (No FEAR) Act to meet the 
        Office of Personnel Management requirements.

  <bullet> Developing and implementing a course on appropriate EEO 
        behaviors, in an effort to prepare new FAA hires. In FY 2007, 
        the course was provided to 1,265 employees; 754 new hires and 
        511 managers and other employees.

    Hiring Disabled Veterans Program:

  <bullet> I have also supported special programs that focus on hiring 
        disabled veterans. In August 2007, we implemented the Veterans 
        Training Program (VTP) for air traffic control specialist 
        (ATCS) and airway transportation system specialist (ATSS) 
        positions. Participants in the program are brought on-board as 
        volunteers under the agency's non-paid work experience 
        provision. Feedback from the Department of Veterans Affairs 
        (VA) on the low participation rate in FAA's VTP revealed that 
        veterans were concerned about the cost of maintaining two 
        households while enrolled in training at the FAA Academy. As a 
        result of this concern, FAA will begin hiring VTP participants 
        as employees under temporary appointments, which will permit 
        the agency to pay the veterans' transportation and per diem 
        while in training at the Academy.

  <bullet> Under my direction, we are working with the Department of 
        Defense's Operation War Fighter Program and the VA's Coming 
        Home to Work Program to identify and place service members 
        pending discharge from the military. FAA actively recruits 
        veterans who are eligible for appointment under the Veterans 
        Recruitment Appointment (VRA) Authority. VRA vacancy 
        announcements for air traffic control specialist positions are 
        posted on a monthly basis.

  <bullet> These efforts have resulted in the FAA workforce statistics 
        showing that the number of veterans with disabilities increased 
        from 4.6 percent in FY 2006 to 5.01 percent in FY 2007; and the 
        number of veterans with a disability of 30 percent or more 
        increased from 1.61 percent in FY 2006 to 1.82 percent in FY 
        2007.

    Airports' Civil Rights Programs:

    Another important function that I oversee with ACR is the Civil 
Rights Programs at Airports. The agency:

  <bullet> Reviewed 782 plans developed by Airport Grant recipients to 
        ensure equal opportunities for Disadvantaged Business 
        Enterprise (DBE) participation in the Airport Improvement 
        Program (AIP) contracting and concession projects.

  <bullet> Supported airport sponsors in implementing an airport DBE 
        concession rule by acquainting them with the requirements of 
        the rule and developing guidance documents. This equated to a 
        review of 80 concession DBE goal methodologies for primary 
        airports.

  <bullet> Supported airport sponsors and DBE's by conducting 
        consultations, training and briefings on the DBE Program, 
        Americans with Disabilities Act (ADA), Title VI, Limited 
        English Proficiency (LEP) and other civil rights regulations so 
        that the aviation community is aware of civil rights 
        requirements.

  <bullet> Supported participation in many events to further promote 
        the External Program to our airport customers. This past year, 
        FAA co-sponsored a Universal Access Conference which included 
        sessions on the ADA, the Air Carrier Access Act, Universal 
        Design, Emergency Preparedness, and Terminal Transportation. We 
        also co-sponsored with the Airport Minority Advisory Council 
        the third largest aviation conference in the country addressing 
        civil rights requirements at airports.

    Question 28. What methodology did FAA use in determining which 
airport control tower locations would receive the newer-technology 
Tower Simulation System (TSS)? Why wasn't Newark Liberty International 
Airport selected as receiving this new system? Will the facility 
receive the new system? If so, when?
    Answer. Newark is not currently scheduled to receive the Tower 
Simulation System (TSS), but controllers there will be able to benefit 
from the simulation training offered nearby. John F. Kennedy 
International Airport (JFK) was picked as the central hub site for the 
TSS. When the system is used at a ``hub'' facility, each satellite 
facility within commuting distance of the hub has a database on file at 
the hub ready to use for training. This allows one simulator to train 
developmental controllers at many nearby airports.
    The decision to place the TSS at JFK was based on FAA Net Present 
Value calculations. These calculations took into consideration the 
number of controllers that were being trained at a given location and 
the cost to deploy the equipment. When this analysis was completed last 
fall, JFK was expected to have more new hires than Newark and 
LaGuardia. Both LaGuardia and JFK were also expected to have more 
certified professional controllers in training than Newark.
    The number of training events over the next several years is the 
key factor in the hub and a spoke system. Each location needed 
additional spoke facilities to make the acquisition work. Since none of 
the other facilities could justify the acquisition and because JFK had 
the highest net present value, it was chosen to receive the TSS.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Thomas R. Carper to 
                        Hon. Robert A. Sturgell
    Question 1. As you know, the Philadelphia International Airport is 
located less than 30 miles from Wilmington, allowing it to provide 
convenient service to many Delawareans. Yet, this proximity also 
creates some noise pollution from air traffic over northern New Castle 
County. What is the current status of noise abatement activity at and 
around the Philadelphia International Airport? As we expand airport 
capacity, how do you intend to address noise abatement through the 
latest technologies?
    Answer. The Philadelphia International Airport (PHL) undertook a 
Noise Compatibility Study in 2002 under 14 CFR Part 150 and developed 
an 18-point Noise Compatibility Program (NCP). FAA approved that NCP in 
2003. Key measures in that NCP include a noise monitoring system and an 
active residential sound insulation program. FAA is funding a large 
portion of the insulation program in accordance with the guidelines we 
use for similar programs at airports throughout the U.S.
    PHL's approved NCP also includes a published noise abatement 
departure procedure called the PHILADELPHIA SEVEN DEPARTURE SID 
(Standard Instrument Departure). That procedure routes aircraft over 
the Delaware River until they reach 3,000 feet, above ground level, 
when pilots turn on to their planned flight paths. PHL has used this 
procedure for a number of years and continues to use it at night 
between the hours of 10 p.m. and 6 a.m. as well as other times during 
light traffic periods, even with the recent implementation of the NY/
NJ/PHL Airspace Redesign Program.
    The NCP also recommended implementation of Continuous Descent 
Arrivals (CDA) at PHL during nighttime hours. This CDA has been studied 
as part of the selected project of the NY/NJ/PHL Airspace Redesign and 
will be implemented in a future stage as a mitigation measure. This 
will be done in accordance with the project's Record of Decision (ROD).
    Using FAA funds, the City of Philadelphia is now updating the NCP 
FAA approved in 2003. During that update, the city will reexamine all 
of its noise abatement measures in light of the recent extension of the 
airport's crosswind runway (RWY 17/35) and FAA's implementation of the 
Airspace Redesign procedures. Those actions should be completed in 
about a year.
    We are also nearing completion of a major Environmental Impact 
Statement (EIS) for a Capacity Enhancement Program (CEP). In that EIS, 
we are examining new runway configurations to reduce delays at PHL. 
Mitigation measures considered under the CEP may well include further 
expansion of the residential sound insulation efforts already underway. 
However, it is important to note that FAA has not yet released the 
Draft EIS for the CEP, so it is uncertain about the mitigation measures 
that the CEP will eventually include. FAA expects to release the Draft 
in September 2008.
    As for the residents of Delaware, aircraft noise exposure levels 
throughout northern New Castle County, Delaware, under the CEP out to 
2020 and 2025, are well below Federal guidelines for compatible land 
use. In fact, they are below EPA's recommended 55-decibel level below 
which there is no reason to suspect that the general population will be 
at risk from any of the identified effects of noise. The greatest 
potential for improved noise levels in that area will come from the 
reduced noise emission levels of new aircraft as they enter the fleet, 
replacing older, noisier aircraft.
    FAA continues to seek ways to abate noise with new technologies and 
operational procedures. FAA's reauthorization proposal, reflected in 
the President's FY 2009 budget, includes authorization and funding, to 
accelerate technologies to make aircraft quieter, cleaner and more 
energy-efficient. Aircraft operational strategies, such as CDA, are 
being actively pursued by the FAA to reduce noise, as well as improve 
air quality. The Administration's reauthorization proposal also 
includes provisions for demonstrating new technologies and procedures 
in the airport environment, and strengthening airport environmental 
research through the Airport Cooperative Research Program.

    Question 2. How do you intend to approach the issue of the pending 
court challenges to the FAA's Airspace Redesign Plan for the New York/
New Jersey/Pennsylvania Region? What do you think we can do to 
strengthen the noise component of the required Environmental Impact 
Studies--to reflect that noise pollution is indeed an environmental 
impact?
    Answer. We are currently facing twelve legal challenges to the 
Airspace Redesign project. All challenges are before the U.S. Court of 
Appeals for the District of Columbia. As the Acting Administrator, it 
is my responsibility to support legal counsel as they defend the FAA's 
decision to proceed with the Airspace Redesign project. Beyond this 
background material, we cannot provide substantive comments on matters 
in active litigation.
    Noise is clearly identified as an environmental impact in FAA's 
environmental guidance and FAA environmental documents. The FAA 
currently places emphasis on assessing aircraft noise impacts and 
mitigating impacts to the extent possible. That was done in the EIS for 
the Airspace Redesign. We continue to seek ways to improve upon both 
our assessment and mitigation capabilities.

    Question 3. Air traffic controller staff levels are declining at 
record levels. Not only are more controllers retiring early at age 50, 
but the retention rate of trainees is dropping. At Philadelphia 
International Airport, the FAA had formerly authorized 109 controllers. 
Early last year, the figure was reduced to a range of 71-87 
controllers. What was the justification for this reduction? Of the 86 
controllers currently at Philadelphia, 25 percent are in training and 
25 percent are retirement eligible. Clearly, this is not a sustainable 
state of affairs. If you are confirmed as FAA Administrator, what will 
you do about the air traffic controller staffing shortages at 
Philadelphia and across the country? Will you work with the controllers 
to reach a long-awaited labor agreement?
    Answer. It is important to understand that the previously 
authorized staffing numbers for Philadelphia International Airport 
(PHL) are from a negotiated distribution of a national total controller 
headcount between the union and the FAA. They do not represent the 
number of employees needed to staff the facility based on traffic 
levels at that facility. In fact, the previous staffing agreement 
referred only to ``bargaining unit employees'' without reference to 
certified professional controllers (CPCs), CPCs-In Training, 
developmental controllers, traffic leads, or other similar factors.
    In 2007, the agency developed staffing ranges for all 314 FAA 
operated air traffic facilities, including Philadelphia, based on the 
complexity of the airspace, traffic and the number of positions needed 
to work that traffic.
    Philadelphia is an important airport in the NAS and is closely 
monitored to ensure adequate staffing. But staffing levels are not the 
only indicator we look at to determine the relative health of a 
facility. Overtime and training ratios are important too. Our overall 
system average for overtime is 1.9 percent. Overtime at Philadelphia is 
currently averaging 0.9 percent (or about 20 minutes a week). The 
developmental ratio at Philadelphia is also well within normal levels, 
with a developmental ratio today at about the same level as the ratio 
was in 2000.
    If confirmed as Administrator, I will continue to work with 
controllers to resolve lingering issues with the 2006 contract. We have 
made several settlement offers to the National Air Traffic Controllers 
Association to address key issues raised by the controllers (including 
new employee pay and raises for senior controllers).
Controller Hiring and Training
    We are now overseeing the largest hiring and training initiative 
that the FAA has undertaken in decades. Last year we hired 1,815 new 
controllers, and are in the process of hiring a similar number this 
year. In 2004, we released a comprehensive Controller Workforce Plan 
that outlines our hiring and training initiatives, and tracks actual 
retirements as well as projecting future losses. The plan can be found 
on the FAA website at http://www.faa.gov.
    It is a real challenge to replace the majority of our controller 
workforce over the course of 10 years, but it is a challenge that we 
anticipated and for which we planned. Some of our facilities have 
staffing challenges and needs. We are working aggressively to stay on 
top of this challenge through a number of initiatives. These 
initiatives target retaining existing controllers (retention bonuses), 
attracting veteran controllers (recruitment and relocation bonuses), 
and attracting qualified new employees.
    For example, to attract qualified new employees, I am expanding the 
Air Traffic Collegiate Training Initiative (AT-CTI) program again in 
2008 to allow new schools to apply. Currently, we have 23 schools in 
the program--14 original schools and nine new schools added as a result 
of our FY 2007 solicitation. This will result in more qualified 
controller applicants for the FAA. My goal is to have up to 35 AT-CTI 
schools in the program graduating between 2,000-2,500 students per year 
by FY 2010. I also announced nationwide public sector announcements for 
air traffic controllers. The last announcement closed on February 15 
and generated 4,515 applications.
    To expedite processing new hires once they have been selected, I 
created Pre-Employment Processing Centers, to streamline the processing 
(medical, security, interviewing, testing, etc.) of new hires. New 
hires can now come onboard as soon as 3 weeks from when they receive 
their offer.
    Once onboard, we are also ramping up our efforts and initiatives on 
the training side to accommodate the higher volume of controller 
trainees. These initiatives include the use of technology and 
simulation, adding a third shift to our FAA Academy training courses, 
and streamlining the amount of time it takes for controllers to become 
certified by making sure training remains a priority.
    Our current and future success is all about our people. Their 
continued professional commitment to safety and performance is critical 
to the FAA meeting its goals.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                        Hon. Robert A. Sturgell
    Question. The FAA is currently operating under a partial extension 
which is set to expire on February 29. Could you describe the short and 
long-term implications of allowing that extension to expire? 
Specifically, what impact would it have on the airport improvement 
program and your modernization efforts?
    Answer. I am pleased that Congress has acted to pass an extension 
of our authorities--this time until June 30th, which the President 
signed into law on February 28, 2008. The FAA will conduct normal 
operations through the June 30th deadline, including being able to 
provide Airport Improvement Program (AIP) grants. As you know, prior to 
the passage of this latest extension, we have been unable to make any 
new AIP grants this fiscal year.
    However, I must note that these short-term extensions are certainly 
not a good way to manage our agency programs. I understand the 
difficulties of the legislative agenda and the challenges involved in 
completing action on a multi-year aviation reauthorization bill but I 
believe that the prudent path is to complete reauthorization. It is in 
the best interest of aviation safety and efficiency to avoid further 
short-term extensions of our programs.
    At the end of June we will once again face the prospect of 
significant disruptions to our day-to-day operations. FAA will not be 
able to spend any funds from the Airport and Airway Trust Fund (AATF), 
including from the uncommitted balance. Approximately eighty-four 
percent of the FAA's FY 2008 budget is funded from the AATF. This will 
have very serious consequences and impacts for the FAA's AATF-
appropriated accounts, including the AIP, Facilities & Equipment (F&E), 
and Research, Engineering & Development (RE&D) accounts, along with the 
Trust Fund portion of the Operations account. Most notably, our 
airports, facilities and equipment and research personnel would be 
immediately sent home, and our remaining personnel would follow after 
funding provided by the General Fund has been fully obligated.
    After June 30, the authority to collect most aviation-related 
excise taxes that provide approximately 95 percent of the Trust Fund's 
revenue will lapse. The uncommitted balance in the Trust Fund 
(approximately $1.5 billion at the close of FY 2007), which could only 
be tapped if Trust Fund expenditure authority is extended, is 
insufficient to sustain FAA operations beyond a few months and a lapse 
in the collection authority could very quickly begin to impact FAA's 
operations.
    Without access to capital funding from the Trust Fund, we would 
also be unable to make any new AIP grants after June 30.
    I strongly urge the Congress to avoid yet another short-term 
extension. We remain ready to work with this Committee and others in 
Congress to enact a full-fledged reauthorization proposal that is 
consistent with the key principles the Administration has put forth for 
a stable, transparent, cost-based funding structure. These reforms 
should better align costs and revenues, treat all stakeholders fairly 
and provide dedicated funding to enable our aviation system to 
transform to NextGen so that it may meet ever increasing and changing 
demands in the most safe and efficient ways possible.

                                  <all>

</pre></body></html>
